<html>
<title> - DISCUSSION DRAFT LEGISLATION TO ADDRESS LAW AND ORDER IN INDIAN COUNTRY</title>
<body><pre>[Senate Hearing 110-432]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 110-432


 
DISCUSSION DRAFT LEGISLATION TO ADDRESS LAW AND ORDER IN INDIAN COUNTRY

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                             JUNE 19, 2008

                               ----------                              

         Printed for the use of the Committee on Indian Affairs

DISCUSSION DRAFT LEGISLATION TO ADDRESS LAW AND ORDER IN INDIAN COUNTRY

                                                        S. Hrg. 110-432

DISCUSSION DRAFT LEGISLATION TO ADDRESS LAW AND ORDER IN INDIAN COUNTRY

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 19, 2008

                               __________

         Printed for the use of the Committee on Indian Affairs



                     U.S. GOVERNMENT PRINTING OFFICE
43-268 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                      COMMITTEE ON INDIAN AFFAIRS

                BYRON L. DORGAN, North Dakota, Chairman
                 LISA MURKOWSKI, Alaska, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            TOM COBURN, M.D., Oklahoma
DANIEL K. AKAKA, Hawaii              JOHN BARRASSO, Wyoming
TIM JOHNSON, South Dakota            PETE V. DOMENICI, New Mexico
MARIA CANTWELL, Washington           GORDON H. SMITH, Oregon
CLAIRE McCASKILL, Missouri           RICHARD BURR, North Carolina
JON TESTER, Montana
      Allison C. Binney, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 19, 2008....................................     1
Statement of Senator Akaka.......................................     4
Statement of Senator Barrasso....................................     3
Statement of Senator Burr........................................     7
Statement of Senator Cantwell....................................     5
Statement of Senator Dorgan......................................     1
Statement of Senator Johnson.....................................     7
    Prepared statement...........................................     7
Statement of Senator Murkowski...................................     6
Statement of Senator Tester......................................     4
Statement of Senator Thune.......................................     8

                               Witnesses

Garcia, Hon. Joe A., President, National Congress of American 
  Indians........................................................    17
    Prepared statement...........................................    19
His Horse Is Thunder, Hon. Ron, Chairman, Standing Rock Sioux 
  Tribe..........................................................    11
    Prepared statement...........................................    13
Lamar, Walter E., President/CEO, Lamar Associates................    37
    Prepared statement...........................................    39
Ragsdale, W. Patrick, Director, Office of Justice Services, U.S. 
  Department of the Interior.....................................    42
    Prepared statement...........................................    44
Stoner, Kelly Gaines, Director, Native American Legal Resource 
  Center and Clinical Programs, Oklahoma City University School 
  of Law.........................................................    32
    Prepared statement...........................................    34
Shappert, Hon. Gretchen C. F., U.S. Attorney, Western District of 
  North Carolina, U.S. Department of Justice.....................    26
    Prepared statement...........................................    28

                                Appendix

Coochise, Hon. Elbridge, Independent Court Review Team, prepared 
  statement......................................................    64
Discussion draft of proposed legislation with cover letter.......    81
Draft Final Report--Master Plan for Justice Services in Indian 
  Country Year 2007 to 2017 with cover letter....................   114
Jourdain, Jr., Hon. Floyd, Chairman, Red Lake Band of Chippewa 
  Indians, prepared statement....................................    63
Richardson Sr., James S., President, Federal Bar Association, 
  prepared statement.............................................    67
Response to written questions submitted to Hon. Joe A. Garcia by:
    Hon. Byron L. Dorgan.........................................    78
    Hon. Lisa Murkowski..........................................    79
Written questions submitted by Hon. Pete V. Domenici to W. 
  Patrick Ragsdale...............................................    77
Written questions submitted by Hon. Byron L. Dorgan to:
    Hon. Ron His Horse Is Thunder................................    73
    Walter E. Lamar..............................................    74
    W. Patrick Ragsdale..........................................    76
    Hon. Gretchen C. F. Shappert.................................    75
    Kelly Gaines Stoner..........................................    74
Written questions submitted by Hon. Lisa Murkowski to:
    Hon. Ron His Horse Is Thunder................................    73
    Walter E. Lamar..............................................    74
    W. Patrick Ragsdale..........................................    76
    Hon. Gretchen C. F. Shappert.................................    75
    Kelly Gaines Stoner..........................................    74
Written Questions Submitted by Hon. John Thune to W. Patrick 
  Ragsdale                                                           77


                    DISCUSSION DRAFT LEGISLATION TO 
                    ADDRESS LAW AND ORDER IN INDIAN 
                                COUNTRY

                              ----------                              


                        Thursday, June 19, 2008


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m. in room 
562, Dirksen Senate Office Building, Hon. Byron L. Dorgan, 
Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. Today the Committee is going to be holding a 
hearing to examine a draft bill to address law and order in 
Indian Country. Let me emphasize again this is draft 
legislation. I have put out draft legislation with co-sponsors, 
because I think it is important for us to be able to review 
something, evaluate and then respond to something that has some 
certainty to it with respect to the provisions we have written.
    I understand there is controversy with many portions of 
legislation dealing with law enforcement on Indian 
reservations. We are willing to consider adjustments and 
changes.
    But I do want to say this: I don't think it is an 
appropriate response for the Congress to do nothing about a 
very serious problem. As you know, this Committee this year has 
passed out an Indian Health Care Improvement Act. That has now 
passed the full Senate. We have passed out a piece of 
legislation dealing with Indian housing, reauthorization of the 
Indian housing laws. That has now not only passed out of this 
Committee but through the full Senate as well.
    Another area where I believe there is a crisis is in the 
area of law enforcement. Four prior Committee hearings that we 
have held have established longstanding and life-threatening 
public safety crises that exist on some Indian reservations. 
Just a few of the findings include sexual and domestic violence 
have reached epidemic proportions; victims have to wait in many 
cases hours and weeks for a response to law enforcement calls, 
because tribal police are understaffed; the tribal jails system 
is a disaster; tribal courts are, in some cases, forced to set 
offenders who are clearly guilty free. The lack of consequences 
has created some notion of lawlessness in many communities.
    There is enough blame to go around, but the United States 
Government, in my judgment, must take credit for much of this 
problem. Federal laws and court decisions established a system 
of justice that forces tribes to rely on the United States to 
investigate and prosecute violent reservation crimes.
    We took a two step approach. First, the U.S. limited what 
tribes can do to fight crime in their own communities. So 
tribal police have limited access to information and limited 
arrest powers. Tribal courts can sentence offenders to no more 
than one year in jail. So today we have tribal courts who 
sentence rapists and child molesters to one year in jail. That 
is not justice.
    Second, the United States said, we will do the job. More 
than 100 years ago, Congress established felony jurisdiction in 
the Department of Justice for crimes on reservations. With this 
authority, however, comes legal and binding obligations, in my 
judgment, to provide for public safety on reservation lands. 
Regrettably, I don't believe our Federal Government has met 
that obligation.
    The United States has conflicting law enforcement 
priorities to fight terrorism, protect the homeland and secure 
the border. Fighting crime in Indian Country does not top the 
priority list or even show up on the priority list in most 
cases.
    A November 2007 investigation of crime on Indian 
reservations was published in the Denver Post. It quoted a U.S. 
attorney who said the following: ``I know that the performance 
of my office will be compared to other U.S. attorneys around 
the Country. My gun cases have to compete with other U.S. 
attorneys. My white collar crime cases have to compete. One 
criterion that is never on that list is Indian Country cases.'' 
That is from a U.S. attorney.
    Now, there is some excellent work being done by some at the 
Justice Department. I don't want to take away from that work. I 
am not suggesting there isn't anybody out there who cares. I 
also understand that the Department of Justice has strong 
feelings about some of the provisions in the draft legislation 
that we are holding a hearing on today.
    But I am not confident that our legal obligations to tribal 
communities are being met. In fact, I am confident of exactly 
the opposite conclusion: we are not meeting our obligations. 
This draft bill would ensure that Indian Country gets moved up 
on the priority list for this Country. When a community relies 
completely on a Federal agency to investigate and prosecute 
violent crimes and felonies, that reliance cannot go unheeded.
    For the past year, this Committee has worked on this issue 
and in November, I released a concept paper. I asked staff, 
both Republican and Democratic staff on our Committee, to work 
together, to consult with tribes and other interested parties. 
One example of that was Senator Kyl and I held a hearing in 
Arizona. The staff director on the minority side and the 
majority side joined me. That was simply an example of the 
kinds of hearings and listening sessions we have held around 
the Country, bipartisan, cooperative, trying to figure out how 
can we work together to solve this problem.
    The draft bill, which is a product of these consultations 
and is a bipartisan bill, contains these initial steps. It 
would put tools to fight crime in the hands of tribal justice 
officials, tools they don't now have. It would enhance 
coordination and consultation between Federal and tribal 
justice officials. And it would provide greater cooperation as 
well at the local level, between tribes and local communities, 
which I think is essential.
    The bottom line is, we have to act to change this system to 
make it work for the citizens of Indian Country instead of 
providing opportunities for criminals and drug cartels to find 
ways of avoiding prosecution.
    So I look forward to the testimony today that we will have 
from a number of witnesses about the draft legislation. I 
appreciate the bipartisan support from my colleagues, who have 
co-sponsored this legislation. And again, while we are waiting 
for the Vice Chair, I want to recognize others for any opening 
comments.

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman. I 
appreciate what you are doing with this hearing today. I think 
it is very timely that we discuss law enforcement in this 
Committee.
    In Wyoming, we are dealing with a recent tragedy on the 
Wind River Reservation, three young teenage girls were found 
dead on Wednesday, June 4th, just earlier this month. Their 
deaths shine light on the troubled situation for Indian youth 
in Wyoming. This is a tragedy for the Northern Arapaho Tribe, 
the Wind River community, and for the entire State of Wyoming. 
It brings into focus the desperate need to fight the root 
causes of law-breaking on Indian reservations. Crime is a cycle 
that can only be broken with consistent effort among our young 
people on the reservation.
    Mr. Chairman, Federal law enforcement is not meeting the 
need on the Wind River Reservation currently. This reservation 
covers 2.2 million acres. Well, that is larger than either the 
entire State of Delaware or of Rhode Island. Yet BIA law 
enforcement struggles to keep more than two or three officers 
on patrol at any given time. So if you can imagine the State of 
Rhode Island or the State of Delaware with only two officers on 
patrol at any given time, absolutely insufficient.
    I commend the hard work that the officers who are on patrol 
are doing. But the desperately need more help. There is a 
problem with recruitment, a problem with retention. In 
addition, we need better community outreach and youth programs. 
The officers on the reservation have to tangle with drugs, with 
illegal weapons and gangs on the reservation every day.
    I would just like to reflect, Mr. Chairman, I have 
practiced medicine for 25 years as an orthopedic surgeon in 
central Wyoming. Early in the practice, I was called to take 
care of a young man from the reservation who was sent to the 
hospital in Casper. I was taking care of him for a broken bone, 
but it was a result of trauma by some other young men from the 
reservation on him.
    The thing I will never forget is the smell in the room, 
because one of those criminals taking advantage of this young 
man chose to, with a cigarette, burn his initials into the 
abdomen of the other man. It kind of made a number of dots 
connecting together to make up the letters of his initials, of 
the criminal, of the person who was doing this. It was his 
initials, not the ones of the injured man.
    It is a smell that will stay with me forever, the smell of 
burned flesh, one person doing this to another, which really to 
me highlighted and has continued to highlight the major issues 
that you are trying to deal with her. I commend you for your 
efforts and I want to help in every way that I can and work 
with you, Mr. Chairman. So thank you very much.
    The Chairman. Senator Barrasso, thank you very much.
    Let me call on Senator Tester.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman. I too want to echo 
the comments of Senator Barrasso in thanking you for bringing 
forward this draft legislation. I do think it is very timely. 
To be honest with you, it should probably have been addressed a 
while back. The Department of Justice, I don't think, has done 
what is necessary.
    This isn't the time to point fingers, it is the time to 
talk about proper staffing, proper infrastructure, proper 
jurisdiction. And it is a time to work together with the 
Department of Justice. Hopefully they understand there is a 
problem here, and hopefully through bills like this one, if we 
can get it through the process, we can solve the problems that 
revolve around crime in Indian Country. Because quite honestly, 
at this point in time, it is a tragedy.
    There's barely a week that goes by that there is not a 
problem. I think a lot of it has to do with staffing and 
consequences, once a person is picked up, how they are handled 
and the ability of the courts to handle people and have a place 
to put them once they are found guilty.
    So thank you, Mr. Chairman. I appreciate it.

              STATEMENT OF HON. DANIEL K. AKAKA, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. Senator Akaka?
    Senator Akaka. Thank you very much, Mr. Chairman. I want to 
add my welcome to the tribal leaders as well as the national 
Indian Country leaders who are here in the room today, and to 
urge you, as the Chairman has, to continue to be part of the 
effort to help Indian Country.
    One that is pending, and we urge you to also lobby on the 
other side of the Hill on the Indian Health bill. We really 
need to pass that. Now here, again, I want to commend the 
leadership of our Chairman Dorgan for what he has done in 
drafting this Indian Country bill on law and order, which is 
really needed. So the Committee intends to hear as much as we 
can from you and to finally make a decision.
    Again, I want to urge this Committee and the leadership of 
our Chairman to move this as quickly as we can. Thank you very 
much, Mr. Chairman.
    The Chairman. Senator Akaka, thank you very much.
    Senator Cantwell?

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman, and thank you 
for having this hearing today on draft legislation on law 
enforcement in Indian Country, and also for scheduling an 
executive session on several pieces of legislation.
    While we are still waiting for the Vice Chairman, if I 
could, I would like to address one of those pieces of 
legislation on the executive session, and that is Senate Bill 
2494. I thank you for putting that consideration of the Spokane 
Tribe of Indians, the Spokane Reservation Grand Coulee Dam 
Equitable Compensation Act on the executive session schedule. 
For more than half a century, the Columbia Basin Project has 
had an extraordinary contribution to our Nation.
    It really has helped pull the economy of Washington State 
and the Country out of our Great Depression. It provided 
electricity that provided aluminum for airplanes, for weapons 
of our national security. The project continues to provide 
enormous revenues for the United States. It was a key component 
of agriculture in our eastern Washington economy, and provides 
electricity to towns and cities all across the Northwest.
    However, these benefits did come at a direct cost to tribal 
property that became inundated when the U.S. Government built 
the Grand Coulee Dam. Before dam construction, the free-flowing 
Columbia River supported very robust and plentiful salmon runs 
and provided virtually all the subsistence needs of the Spokane 
Tribe. After the construction, the Columbia and the Spokane 
River tributaries flooded the tribal communities, schools and 
roads. To this day, the effects of the flooding are still being 
felt by the Spokane Tribe.
    This legislation we are considering today is similar to 
legislation we have approved from this Committee in the 108th 
and 109th Congress. Similar legislation has passed both the 
House and the Senate at various points in time. Some changes 
have been made to satisfy stakeholders who have expressed 
concerns. But the Spokane Tribe has spent the last year making 
sure that we could move forward on the settlement agreement. I 
want to thank the Chair and the Tribe for working so closely on 
this.
    The United States does have a trust responsibility to 
maintain and protect the integrity of all tribal lands within 
its borders. When Federal actions physically and economically 
impact or harm tribes, our Nation has a legal and moral 
responsibility to address the compensation and damages. 
Unfortunately, despite these countless efforts, half a century 
has passed without giving the Spokane the real justice they 
deserve.
    So I thank you for putting this legislation on executive 
session so we can move forward on this important piece of 
compensation. I thank the Chair.
    The Chairman. Senator Cantwell, thank you very much.
    I would say to Senator Thune and Senator Johnson, I am 
going to withhold further statements. We were making statements 
on the purpose of the hearing today, but I want to now turn to 
the business portion of the day and conduct the business 
portion, then we will return to the hearing.
    [Whereupon, the Committee returned to the business 
meeting.]
    The Chairman. Let me continue by calling on the other 
members of the Committee, let me clarify again to say that the 
Bureau of Indian Affairs report will be placed in the hearing 
record, not a part of the business meeting. It was my intention 
that it be part of the hearing record on law enforcement, and 
the entire report will be a part of that hearing record as of 
today. *
---------------------------------------------------------------------------
    * The information referred to is printed in the Appendix.
---------------------------------------------------------------------------
    The Chairman. Let me call on the Vice Chair for an opening 
statement on the law enforcement portion of this hearing today. 
Then I am going to call on Senator Johnson, if he has an 
opening statement. I believe the first witness today will be 
Senator Thune.
    If Senator Murkowski will withhold for just a moment, let 
me ask the panel to come forward and take seats while we are 
preparing to complete our opening statements. Chairman Ron His 
Horse Is Thunder, Standing Rock Sioux Tribe; Joe Garcia, 
President, National Congress of American Indians; the Honorable 
Gretchen Shappert, U.S. Attorney, Western District of North 
Carolina; Patrick Ragsdale, Director of the Office of Justice 
Services, U.S. Department of the Interior; Professor Kelly 
Stoner, Director of Native American Legal Resource Center and 
Clinical Programs, Oklahoma City University School of Law; and 
Walt Lamar, President and CEO of Lamar Associates, Washington, 
D.C.
    Let me thank all of the witnesses. When we complete our 
statements, we will then proceed.
    Senator Murkowski, thank you. I am sorry for the delay.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you. Mr. Chairman, I truly 
appreciate your efforts on this very important issue, for 
holding the hearing this morning on the discussion draft bill, 
the Tribal Justice Improvements Act of 2008, and a discussion 
draft that outlines a variety of tools that we may improve 
Indian justice systems.
    I want to welcome all of the witnesses here this morning. I 
thank you for the time that you are giving to the Committee, 
not only with your appearance this morning but your time in 
reviewing the draft. I know several of you have traveled 
distances to come here, and we appreciate that.
    We have held five hearings during the 110th Congress here 
in this Committee to really shine the light on the issues that 
impact crime and punishment throughout Indian Country. We have 
attempted in Congress to address many of these issues before, 
as you all know. Back in 1990, Congress passed the Indian Law 
Enforcement Reform Act to significantly reform the Indian 
Justice system. This Act was intended to clarify law 
enforcement authority and responsibilities, declination, 
reporting requirements and to provide for a level of Federal 
accountability.
    But I am disturbed, some 18 years later, that Indian tribal 
governments are still struggling to maintain law and order in 
their communities. They face spiraling violent crime rates with 
fewer resources, limited sentencing authority and insufficient 
detention facilities. In fact, from the information the 
Committee has received in connection with this initiative, it 
sounds like many of the law and order problems that were raised 
back in 1990 have progressively worsened on many of our 
reservations. The situation is made more difficult by the 
perception of gangs and other criminal elements that Indian 
reservations are places of lawlessness or safe havens from 
criminal justice.
    So Mr. Chairman, I appreciate your efforts in addressing 
this matter and for working closely with the Indian tribal 
leaders in the reform initiative that is the focus of the 
hearing today. I also appreciate the opportunity to hear from 
all of the stakeholders in this matter throughout the 
legislative process.
    I look forward to the testimony that we will receive here 
this morning and again appreciate all that you have done to 
assist the Committee. Thank you.
    The Chairman. Senator Murkowski, thank you.
    Senator Johnson, do you have an opening statement?

                STATEMENT OF HON. TIM JOHNSON, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. Thank you, Senator Dorgan, for holding 
this incredibly important hearing. I am glad to see so many 
South Dakota tribal leaders in the room.
    I welcome John Thune to the hearing and would place my full 
statement in the record.
    The Chairman. Without objection, so ordered.
    [The prepared statement of Senator Johnson follows:]

 Prepared Statement of Hon. Tim Johnson, U.S. Senator from South Dakota
    Thank you Senator Dorgan for holding this hearing and I am glad to 
see so many South Dakota tribal leaders in the room. Their presence 
here demonstrates the importance of this issue to the tribes in my 
state.
    The law enforcement challenges facing Indian Country are 
overwhelming and much of them have to do with inadequate funding. 
However, there are also considerable challenges facing tribes due to 
jurisdictional and legal barriers. I think this legislation goes a long 
way to address those barriers and I intend to join the bill as an 
original cosponsor when it is introduced.
    Additionally, in my role as an appropriator I will continue to push 
for additional resources for tribal law enforcement and crime 
prevention programs. When given the tools to do so, our tribal leaders 
are both resourceful and creative in protecting their own communities. 
Thank you.

    The Chairman. Senator Burr, did you have an opening 
statement?

                STATEMENT OF HON. RICHARD BURR, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. Mr. Chairman, if I could, very briefly, I 
want to welcome our entire panel, but I want to specifically 
welcome the top Federal prosecutor in the western portion of my 
State, North Carolina, Gretchen Shappert. It is a pleasure to 
see you, Gretchen, more importantly to have you here to discuss 
your thoughts on this important issue and the legislation 
before us.
    Just so my colleagues are aware, Mr. Chairman, Gretchen is 
an accomplished jurist in North Carolina. She has been a 
prosecutor for 20 years and has been a U.S. attorney for the 
Western District of North Carolina since the year 2004. She is 
also the Chair of the Department of Justice's Native American 
Issues Subcommittee. She knows the issue very well and 
recognizes the challenges that face tribal communities in my 
State as well as communities across the entire Country.
    To help my colleagues understand her dedication and work 
ethic, Gretchen has as a prosecutor, her staff would tell you 
that she often arrives at the U.S. Attorney's office in 
Charlotte, North Carolina at 3:00 a.m. to begin her work day. 
She also carries a full case load, which is rare for a top 
prosecutor in any given judicial district, and manages the 
entire office. We are certainly fortunate to have Gretchen and 
the other witnesses here today to educate this Committee on the 
issues and to help us understand the challenges that we are 
faced with as we attempt to resolve these issues.
    Mr. Chairman, I thank you, and I welcome you, Gretchen.
    The Chairman. Senator Burr, those of us in the north 
sometimes think of southerners as boasting from time to time, 
particularly with respect to Texans. But this 3:00 a.m. start 
time for work in North Carolina, that is pretty unusual.
    [Laughter.]
    The Chairman. I hope that is a full day.
    Anyway, thank you for introducing the U.S. Attorney from 
your State. We deeply appreciate your doing that.
    Let me begin this morning, Senator Thune is our first 
witness. I am going to ask him to proceed from his perch on the 
dais at this point.
    I should mention, the co-sponsors of the draft bill that we 
have introduced are Senator Johnson, Senator Domenici, Senator 
Tester, Senator Thune, and I believe others are going to be 
joining us soon. So let me thank you, Senator Thune. I will 
introduce you and then we are going to introduce each of the 
witnesses for statements, following which we will ask 
questions.
    Senator Thune, you may proceed.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman and Senator 
Murkowski, for allowing me to testify on this important piece 
of legislation.
    I also want to thank our witnesses for being here today, in 
particular, Chairman Ron His Horse Is Thunder represents the 
Standing Rock Sioux Tribe. He has provided extraordinary 
leadership when it comes to improving public safety on his 
reservation. So thank you for being here.
    We also have another of our Chairs here today, Chairman 
Cournoyer of the Yankton Sioux Tribe. It is nice to have you in 
the audience as well. I appreciate very much the leadership 
that our tribal leaders are providing, particularly on this 
issue.
    Unfortunately for Chairman Ron His Horse Is Thunder's 
Tribe, which is located in both North and South Dakota, he 
knows first-hand the struggles that are associated with the 
lack of public safety. I look forward to hearing his comments 
on the draft legislation that the Committee is discussing 
today.
    I also want to thank Mr. Ragsdale for being here today and 
for all the work that you have done to support the Standing 
Rock Sioux Tribe with Operation Dakota Peacekeeper.
    And thank you, Mr. Chairman, as well, for moving the 
legislation that was referred to earlier, for both Crow Creek 
and Lower Brule Sioux Tribes, and also Oglalla Sioux Tribe, the 
two compensation bills.
    The bill that is being considered today seeks to bring law 
and order to Indian Country. As most of the individuals in this 
room already know, the absence of basic levels of public safety 
on many of our Nation's reservations has reached what I think 
could be considered a crisis point. Just a basic run-down of 
some of the national statistics bear that out.
    Studies show that one in every three Native American women 
will be raped in their lifetime. The Department of Justice has 
found that American Indian women are two and a half times more 
likely to be raped or sexually assaulted than women throughout 
the rest of the Country. The statistics in my home State of 
South Dakota are also unfortunate. We have homicide rates 
within reservations that are almost ten times higher than those 
that are found in the rest of South Dakota. According to the 
BIA, the Standing Rock Sioux Tribe has a crime rate that is six 
times the national average, giving it the second highest crime 
rate of all reservations in the Nation.
    Last summer, Mr. Chairman, I had the opportunity to hold a 
tribal roundtable with leaders from all nine of South Dakota's 
tribes. It was during that meeting it became clear that 
improving public safety is a top priority for all of them. 
Chairman His Horse Is Thunder was very, I believe at that 
particular meeting, direct in the things that needed to be 
done, one of which was to make sure we had more law enforcement 
presence out there and that there was more of an investment 
here by the Federal Government supporting the BIA and the 
tribes with their law enforcement efforts.
    Since that time, I have been working with the members of 
this Committee, some of my other Senate colleagues, tribal 
leaders, Federal officials and other stakeholders, to try and 
find ways to improve public safety on all of our Nation's 
reservations. One recent example of that is the BIA's Operation 
Dakota Peacekeeper, which has resulted in a surge of 20 
additional officers on the Standing Rock Sioux Reservation. 
These additional officers, along with local officials, are 
reducing the crime that unfortunately exists on some parts of 
the reservation.
    Operation Dakota Peacekeeper proves that in order to fix 
the current crime crisis on our Nation's reservations, there 
needs to be more police to break the crime cycle. I look 
forward to continuing to work with this Committee, the 
Appropriations Committee and the rest of my Senate colleagues 
to be able to provide the needed officers on a more permanent 
basis.
    In addition to more officers, there are other changes that 
need to be made. I feel that the draft bill that Senator Dorgan 
is proposing and which I support seeks to bring about some of 
these very needed, substantive changes.
    I just want to briefly mention specifically, there are a 
number of provisions in this draft bill that I think are going 
to address the crime problem, and I want to speak very briefly 
to three in particular. Section 103 clarifies and encourages 
the appointment of special assistant U.S. Attorneys to 
prosecute reservation crimes in Federal courts, with the hope 
that there will be an increase in prosecutions, especially 
targeting lesser offenses. While many areas of the Country have 
tribal liaisons, this section will hopefully formalize the 
program and allow for more consistency.
    Title III of the bill seeks to empower tribal justice 
systems in a variety of ways. This includes providing greater 
flexibility in the training of law enforcement and corrections 
officers serving in Indian Country, and by increasing the 
maximum sentences that tribal courts can give if certain 
constitutional protections are met.
    Title V seeks to improve both the tracking of crimes 
committed in Indian Country and also the reporting of those 
crimes. That is something that currently, in terms of data, is 
seriously lacking today.
    So I am very interested, Mr. Chairman, in hearing the 
testimony of our witnesses today, learning what provisions in 
the bill they feel are useful, and what changes they think 
still need to be made. I have also solicited similar advice 
from our tribal leaders, tribal officials and other officials 
in my State of South Dakota. It is my hope when all this 
information has been compiled that this draft legislation can 
be introduced and a solution to the public safety crisis on our 
Nation's reservations can be found.
    So again, Mr. Chairman, I want to thank you and I want to 
thank Senator Murkowski for allowing me to be here today. And I 
want to thank Chairman His Horse Is Thunder for his efforts and 
all of our other witnesses for the testimony that you are going 
to provide today.
    Thank you.
    The Chairman. Senator Thune, thank you very much.
    I signed a letter with my colleague from North Dakota and 
the South Dakota delegation urging the Interior Department to 
implement the Safe Indian Community Initiative and try to 
respond to the spike in violence at the Standing Rock 
Reservation. You are quite correct about the serious difficulty 
that exists there.
    I am going to ask each of the witnesses, we have a five-
minute testimony period, and I know sometimes people think, 
well, I come to Washington and I only get five minutes. Mark 
Twain was once asked to give a speech, and he said, should it 
be a short speech or a long speech, because if it is a long 
speech, it will take no time to prepare, I will just start 
talking. If it is a short speech, it will take a substantial 
amount of time to prepare well.
    So we are sorry for the time restrictions of five minutes, 
but in order for us to be able to have substantial time for 
questions, we want to get through the witnesses and hear your 
statements in full.
    Let's start with Chairman Ron His Horse Is Thunder, from 
the Standing Rock Tribe. I am going to ask, if we can, to have 
the witnesses testify and then have Mr. Ragsdale testify last. 
I would normally invert that, and you have done that many 
times, Mr. Ragsdale, but I want to hear the other witnesses, 
then we will hear from you, then we will be able to respond to 
all of the issues that are raised.
    Mr. Ragsdale, thank you for being here on behalf of the 
BIA.
    Chairman Ron His Horse Is Thunder, why don't you proceed?

STATEMENT OF HON. RON HIS HORSE IS THUNDER, CHAIRMAN, STANDING 
                        ROCK SIOUX TRIBE

    Mr. His Horse Is Thunder. Good morning, Chairman Dorgan. 
Thank you for the opportunity, honorable members of this 
Committee, I am honored to give some testimony on this draft 
bill.
    Something has changed in Standing Rock. Not only do we have 
20 more additional law enforcement officers, but something 
changed actually before they got here. Yes, Senator Thune, 
Standing Rock was number one, we had the highest crime rate of 
any reservation in the Country last year, in January.
    I was told, though, that in January of this year, Standing 
Rock didn't hold that dubious distinction any longer, that we 
had dropped to number two in terms of the highest crime rate in 
Indian Country. The tribe, unfortunately, who now holds that 
distinction, did in January, is the Blackfeet Tribe in Montana. 
I say it is not because Standing Rock's crime rate had been 
reduced any, but rather, that Blackfeet Country's crime rate 
had spiked itself.
    Standing Rock now, I am told, as of a month ago, had 
dropped from number two on the list to eight or nine on the 
list. Again, I feel sorry for the other tribes who now have 
surpassed us in terms of crime rate, because again, I live on a 
reservation where that crime rate was number one and not that 
our crime rate has been reduced all that much, if any, before 
this peacekeeping surge, but rather again, those tribes' crime 
rate has surged for them.
    We do, however, have 20 additional law enforcement officers 
on our reservation right now. And it has made a world of 
difference on our reservation.
    But I really want to comment on important changes that this 
bill makes, that it does do a number of things. It reauthorizes 
critical programs such as Indian Alcohol and Substance Abuse 
Act, the Tribal Jails Program, the Tribal Cops Program and the 
Tribal Youth Program. It does a number of other things which we 
agree with.
    But today I don't want to focus on the things I agree with, 
because that is all in my written testimony, but rather on some 
of the things which we think are missing. I am not going to 
comment today on the jurisdiction over non-Indians within 
reservation in terms of an Oliphant fix, because I know that is 
also in our written testimony as well as the NCAI's written 
testimony, and I wholeheartedly agree with their written 
testimony. I want to focus, again, on the problems on Standing 
Rock, problems in terms of what is missing from the bill.
    One problem with the bill is the attempt to tackle the lack 
of consistent police presence in South Dakota. Again, we 
experience this first-hand on Standing Rock. Until the BIA sent 
a law enforcement surge to our reservation two weeks ago, we 
only had two law enforcement officers per shift to patrol a 
reservation the size of the State of Connecticut, 2.3 million 
acres.
    The bill would impose new consultation requirements and 
provide important flexibility in officer training. And the 
flexibility in officer training I think is going to make a huge 
difference in terms of recruitment and getting law enforcement 
officers into the field faster. Right now, they all have to go 
to training in Artesia in New Mexico, and it takes quite a 
lengthy time to get everybody through that training facility. 
The flexibility in officer training is going to make a 
difference, we believe, and so we support that.
    But it does little to address other problems and that is 
simply, how do you get more officers interested in going to 
Indian Country? A problem for us is that we believe officers 
don't want to come to Standing Rock, that we are one of those 
rural communities, and if you live in the Great Plains, you 
know what I mean. There is a problem with salaries, we think 
salaries ought to be made more attractive to recruit people. 
And one of the other problems that we have on our reservation 
is lack of housing. Law enforcement officers are not exempt 
from that problem. They have at times attempted to live in 
smaller communities, placing one officer way out in a distant 
community. When he was on patrol, his house got broken into.
    So having more law enforcement officers living side by side 
in our communities will make a difference. We can't tell them 
where to live, but because we can't tell them where to live, 
some of them have chosen to live off the reservation, which 
doesn't make them part of the community. If you are going to 
have effective law enforcement, they need to be part of our 
community. People need to see them, they need to be thought of 
as friends. So housing becomes a critical portion we think 
needs to be addressed in terms of attracting law enforcement 
officers.
    One of the other things we would like to see is the idea of 
creating a deputy program or apprenticeship program. One way to 
do this would be to allow tribes to designate officers, such as 
game wardens, who would receive additional training and be 
deputized as BIA police officers. Standing Rock offered to do 
this with our game and fish department, and most of our game 
and fish guys are ex-police officers, they have been through 
the training.
    But the BIA turned us down. They said that there was a 
problem with liability concerns.
    One of the other problems that we see or areas that are 
lacking in the bill is in terms of prosecution. We support many 
of the changes in the bill that are intended to close the gap 
in prosecution with requiring the filing of declination reports 
and referring cases to tribal prosecutors, providing for 
additional Assistant U.S. Attorneys in Indian Country and 
making it a Federal offense to violate tribal protection 
orders.
    We ask, though, that you make it mandatory to provide 
tribal prosecutors with the full, the full case file in 
declined cases for both Indian and non-Indian offenders in 
Indian Country. If U.S. Attorneys decline to prosecute a case, 
we should be able to take it up, the tribal prosecutors should 
be able to take it up. But we need the full case file, not just 
a report saying, this case was declined. A full case report 
would help our prosecutors.
    We also suggest that tribal prosecutors be designated to 
enforce Federal law, similar to the special law enforcement 
commissions granted to tribal police officers.
    This brings me to a fundamental concern, and that is lack 
of funding. I see your red light on. Are my five minutes 
already gone?
    The Chairman. Six and a half minutes, actually. But we are 
glad you are here. Why don't you summarize at some point, 
Chairman?
    Mr. His Horse Is Thunder. There are basically four 
fundamental pillars of justice in the Indian community, and 
that is the need for more police officers, the court systems 
need to be shored up. If we are going to bring in more 
offenders into our court systems, we need more dollars for the 
court systems.
    Detention facilities are an area of utmost concern. I am 
very glad that you made part of the public record the detention 
facilities report, because it will show that there is a 
horrendous job in terms of detention facilities that this 
Administration has created across Indian Country. So we thank 
you for making that part of the report.
    The fourth pillar in justice in Indian Country is this: 
alternative treatments for juveniles. You just can't simply 
lock them up, otherwise they are going to become more hardened 
criminals. We need to work with IHS, BIA needs to work hand in 
hand with IHS in terms of treatment for juvenile offenders.
    Senator, members of the Committee, thank you for this 
opportunity to testify before you.
    [The prepared statement of Mr. His Horse Is Thunder 
follows:]

Prepared Statement of Hon. Ron His Horse Is Thunder, Chairman, Standing 
                            Rock Sioux Tribe
    My name is Ron His Horse Is Thunder. I am the Chairman of the 
Standing Rock Sioux Tribe. I am honored to report on the law 
enforcement needs of the Tribe and to provide the Committee with 
comments on the draft bill entitled ``the Tribal Justice Improvement 
Act of 2008.'' I want to thank this Committee, particularly Senator 
Dorgan, for your tireless work to secure much-needed resources for 
Indian country, for recognizing the need to reform Indian country law 
enforcement, and for your vision and commitment in creating this draft 
bill.
    The Standing Rock Sioux Tribe is situated in North and South 
Dakota. The Reservation comprises 2.3 million acres, of which 1.4 
million acres is Tribally owned and allotted trust lands. About 10,000 
Tribal members and non-members reside on the Reservation in eight 
communities and in smaller towns. The Tribe's primary industry is 
cattle ranching and farming. We operate the Standing Rock Farms, two 
Tribal casinos, and a sand and gravel operation which help us 
supplement services and programs for our nearly 14,000 enrolled 
members.
    It is important to recognize that effective public safety requires 
improvement and investment in all four pillars of the justice system: 
police, courts, detention and alternative services. All four areas must 
be addressed at once in order for any single improvement to be 
effective. Today, I will discuss our law enforcement needs and how the 
draft bill might help. I address each area in turn, providing specific 
comments on the bill. I will focus on specific provisions as well as on 
what I believe is missing from the bill.
I. Police
    We are a direct service tribe, meaning that law enforcement and 
detention services are provided directly by the BIA. Until very 
recently, we had ten BIA police officers. This is enough for only two 
officers per 24-hour shift to patrol a 2.3 million acre reservation 
encompassing four towns, eight separate communities, 2,500 miles of 
roads, and a population of 10,000 residents. A 1997 Justice Department 
study found that Indian country had 1.3 officers for every 1,000 
inhabitants, versus 2.9 officers in non-Indian jurisdictions. With our 
ten officers, we are 25 percent below the average for Indian country 
and about 66 percent below the average number of officers per 1,000 
inhabitants in non-Indian jurisdictions.
    As a result of inadequate law enforcement, we have one of the 
highest reservation crime rates. A 2006 ``Gap Analysis'' commissioned 
by the BIA to identify and review current policing and detention 
capacity in Indian country found that BIA District 1, which encompasses 
an eight-state region including North and South Dakota, had 108 law 
enforcement officers (LEOs), but needs over four times that amount (483 
LEOs). In 2007, the BIA estimated that we would need at least 28 
officers at Standing Rock to meet minimally safe staffing requirements, 
yet by spring of this year we still had only ten officers, despite our 
repeated requests to the BIA for more officers and despite Congress' 
increased funding to the BIA in FY 2008 to provide more officers on 
high crime reservations.
    Violent crime rates are increasing. In FY 2007, our violent crime 
rate was 1,138 per 100,000. We are a rural community, but our crime 
rate parallels that of a major city. Just last month, a young man, a 
tribal member and the son of the project manager for our juvenile 
services center, was murdered. Our community was devastated by this 
murder and, even worse, it furthered solidified the impression that the 
BIA would never step up to provide adequate law enforcement services. 
However, in the wake of this young man's murder, a ``surge'' of 
officers arrived at the reservation. For two weeks, we have had 20 
additional BIA public safety officers providing 24-hour enforcement.
    We can already see the results of increased enforcement. Our court 
dockets are full, and our jail so full that we now have arraignments 
seven days a week. We have also seen an increase in referrals to child 
protective services. While these statistics may not seem positive, they 
mean that some of the problems occurring are being addressed, perhaps 
for the first time in years. Increased police presence on our 
reservation has, at least in the past two weeks, made an enormous 
difference in our community's sense of safety. My concern and 
frustration is knowing that this surge is limited in duration.
    When Congress took the Black Hills February 28, 1877, it promised 
to secure to us an orderly government. Ex Parte Crow Dog, 109 U.S. 556, 
566, cites Article 8 of that Act as follows:

        The provisions of the said treaty of 1868, except as herein 
        modified, shall continue in full force, and, with the 
        provisions of this agreement, shall apply to any country which 
        may hereafter be occupied by the said Indians as a home; and 
        congress shall, by appropriate legislation, secure to them an 
        orderly government; they shall be subject to the laws of the 
        United States, and each individual shall be protected in his 
        rights of property, person, and life.

    This provision remains good law and demonstrates the responsibility 
of the United States to make the increased number of law enforcement 
officers assigned to the Standing Rock Reservation permanent positions.
    We support the draft law enforcement bill and we believe the 
provisions requiring increased consultation, data collection, and 
reporting are important. However, we are concerned that these 
provisions will make little practical difference when it comes to the 
lack of law enforcement officers in Indian country. The BIA and 
Congress know the statistics regarding the shortfalls in law 
enforcement and detention officers and the required officers and 
funding that must be provided to redress this public safety crisis, and 
yet we still do not have enough officers. We ask that you consider 
making additional changes to address some of the barriers to recruiting 
and retaining qualified police officers, such as:

  <bullet> Raising officer salaries and creating recruitment 
        incentives.

  <bullet> Permitting tribes to use NAHASDA money to provide housing 
        for tribal and BIA law enforcement officers.

  <bullet> Permitting tribes to designate officers who would be 
        eligible to receive additional training and be deputized as BIA 
        police officers. Last year, the Standing Rock Sioux Tribe 
        offered to designate Tribal Game Wardens as additional police 
        officers in order to address the severe shortage of police 
        officers, but the BIA declined our request, citing liability 
        issues.

  <bullet> Authorizing an apprenticeship program, in which officers in 
        training could serve alongside full police officers before and 
        during their training.

    The draft bill would make important changes, however, to help 
ensure that existing officers are properly trained and held 
accountable. In particular, we support:

  <bullet> Section 301, which would permit officers to be trained at 
        alternate sites, including state police academies. With our 
        small force, it has been very difficult to have officers leave 
        the reservation for six months to train in Artesia. However, we 
        ask that this provision be strengthened because we believe the 
        BIA already has this authority but chooses to require training 
        in Artesia. We suggest a provision requiring the BIA to 
        authorize specific alternate local training options at the 
        Tribe's request.

  <bullet> Section 603, which would require BIA officers to undergo 
        specialized training in domestic violence and sexual assault. 
        This training is critical, and without it these crimes will 
        continue to go uninvestigated and unprosecuted.

  <bullet> Section 301(b), which would make Special Law Enforcement 
        Commissions (SLECs) mandatory at a tribe's request.

    We also ask Congress to recognize the significant law enforcement 
equipment needs in Indian country. We desperately need additional money 
to pay for new equipment, especially police vehicles. Outdated 
equipment poses a danger to officers and to the community. The bill 
should provide new resources for equipment upgrades.
II. Prosecution
    Increased arrests are of little use in the long run if the crimes 
are never investigated or prosecuted. Between 2004 and 2007, United 
States attorneys declined to prosecute 62 percent of reservation 
criminal cases referred to their offices and there has been a 27 
percent decrease in Indian country criminal investigations by the FBI 
from 2001-2006, during the period when violent crimes in reservation 
communities are increasing. Last July, National Public Radio reported 
on the rape of a young woman, a 20-year-old tribal member living on the 
Standing Rock reservation. Her alleged attackers were non-Indians. Her 
rape was never investigated by BIA police, the FBI, or the Justice 
Department. In fact, the IHS hospital did not even have a rape kit to 
preserve evidence correctly. She died a week after the incident, and 
her attackers were never investigated, let alone brought to justice.
    We are especially supportive of the provisions of the draft bill 
which would increase federal accountability for prosecuting reservation 
crimes, including:

  <bullet> Section 102, which would make declination reports mandatory 
        anytime federal officials decline to investigate or prosecute a 
        crime in Indian country and would require federal prosecutors 
        to provide details of the case to tribal prosecutors so the 
        tribe can pursue the case. We believe it should also be 
        mandatory to provide tribal prosecutors the case files 
        associated with any declined cases, for both Indian and non-
        Indian offenders.

  <bullet> Section 103, which would authorize the U.S. Attorney to 
        appoint special prosecutors in Indian country where the crime 
        rate exceeds twice the national average and would require the 
        appointment of Indian country liaisons.

  <bullet> Section 601, which would make it a federal crime to violate 
        a tribal protection order.

    While these changes will help increase federal accountability for 
prosecution, Indian country law enforcement will always have to compete 
with other Department of Justice priorities such as border patrol and 
homeland security. The bill could better ensure consistent enforcement 
if tribal prosecutors were empowered to bring federal charges in 
federal courts. Such a program could be similar to the SLEC program for 
tribal police.
III. Tribal Court Powers and Resources
    The Tribe strongly supports the provision that would permit tribal 
courts to impose longer sentences. At Standing Rock, we provide public 
defender services and strive to ensure that due process is provided in 
all stages of prosecution, and we believe expanded sentencing authority 
is long overdue. The Standing Rock Constitution was changed by 
referendum on June 11, 2008 to permit sentences of up to one year and/
or fines of up to $5,000 per violation.
    Expanded sentencing authority for Indian offenders does not go far 
enough. A significant portion of crimes committed at Standing Rock and 
on other Reservations are committed by non-Indians. This is especially 
true for drug crimes and for violence against women and sexual assault. 
The bill proposes to require tribal courts to meet certain basic due 
process requirements in order to impose sentences of more than one year 
on Indian defendants; these same courts should be empowered to sentence 
non-Indian offenders as well. The Tribe strongly supported the 
jurisdictional pilot project outlined in your 2007 concept paper. This 
project would have permitted certain tribes, after adopting specific 
due process protections, to exercise criminal jurisdiction over non-
Indians for domestic violence offenses where the offender was in a 
consensual (married or cohabiting) relationship with an Indian victim. 
This program would be an important first step toward expanded tribal 
criminal jurisdiction and it would also help stem the rampant violence 
against Indian women, which has been well-documented before this 
Committee. This is an emergency situation which requires a strong 
response. Standing Rock would be pleased to host such a pilot program. 
This provision should be restored to the bill.
    Another way to address the problem of non-Indian crime while 
allaying some of the U.S. Supreme Court's concerns about membership and 
criminal jurisdiction would be to empower tribal courts to exercise 
delegated federal prosecutorial powers. Allowing tribal courts to 
enforce at least federal laws against non-Indian criminals would go far 
toward closing the significant gap in law enforcement. As it is, tribal 
courts are powerless to respond to criminal activity by non-Indians on 
reservations, yet the Federal Government consistently fails to perform 
its duty in this respect. Reservation ``lawlessness'' cannot be 
addressed without attention to the crimes of non-Indians.
    We also support Title III and Title IV of the bill, which would 
strengthen tribal justice systems and provide increased access to 
federal crime databases. We remain concerned, however, that a lack of 
funding is the root of the difficulties faced by tribal courts. If the 
changes proposed in the draft bill are not supported by significantly 
increased appropriations for tribal courts, Congress will be setting 
tribal courts up to fail. We need additional personnel in the Tribal 
Courts to assure timely processing of cases to protect the rights of 
the victims and the accused in accordance with the Standing Rock Bill 
of Rights set forth in Article XI of the Tribal Constitution, which 
mirrors the Indian Civil Rights Act.
    We also support the provision that would require the Bureau of 
Prisons to house these felony offenders at the tribe's option. Given 
the detention shortages in Indian country, this is essential to the 
success of any expanded sentencing authority.
IV. Detention
    We support the provisions of the daft bill that would provide 
additional resources for detention construction. However, we are 
concerned that more needs to be done. The need for detention services 
in Indian country received significant Congressional attention in 1997 
when President Clinton published his ``Report of the Executive 
Committee for Indian Country Law Enforcement'' and again in 2004 when 
the Inspector General under President Bush published ``Neither Safe Nor 
Secure: An Assessment of Indian Detention Facilities.'' Each time 
Congress directed significant additional resources to detention but 
little improved, due to serious problems with the BIA's management of 
its detention program. One significant problem is that the BIA makes 
unilateral decisions regarding detention policies and how to allocate 
detention funding without consulting or notifying tribes. Section 101 
of the draft bill should require that the Bureau consult with tribes on 
policies and standards, not just regulations.
    The Department of Justice has provided several grants in the past 
decade for tribes to construct new detention facilities, some of which 
have never opened. Standing Rock has one of those facilities. We 
received a $3.695 million grant to design and construct an 18-bed 
juvenile facility on the reservation. Unfortunately, construction has 
been stalled for several years because our architects have identified 
an additional $1.2 million in unmet construction costs. Nearly one-half 
of our resident Tribal members are under the age of 25. There is no 
effective law enforcement for youth offenders at Standing Rock if they 
are released because there are no facilities to house them. We are 
working to create a place in the community where individual and family 
counseling can reverse destructive behavior. The bill should address 
how existing shortfalls will be handled so that in-progress facilities 
can be completed quickly.
    Another major barrier is the Bureau's resistance to providing 
ongoing operations and maintenance funding for these facilities once 
they are completed. We understand that the Department of Justice is 
seeking assurances that newly-built facilities will have steady 
operational funding, but the BIA is unwilling to commit to funding in 
advance. We would like to see the bill address this by requiring the 
BIA and the DOJ to coordinate regarding operation of new facilities and 
requiring BIA to operate at least those facilities included in the 
joint planning process.
    Finally, detention facilities sometimes remain unopened because the 
Bureau is unable to recruit and retain qualified staff. Any 
improvements in the bill related to police officer recruitment, 
training and retention should also apply to detention and corrections 
staff. Specifically detention staff should also have the option of 
training at alternative local sites.
V. Other Facility Construction
    While manpower is one piece of the equation, adequate facilities 
are another important piece. This includes police stations, courtrooms, 
short and long-term detention facilities, and transitional and 
treatment facilities. While the draft bill does a great deal to 
increase the resources for construction of detention facilities, we 
would like to see this expanded to include other facilities. For 
example, we are in the process of conducting a staffing and space needs 
assessment to assist us in designing and building a modern Tribal 
Justice Center to house Tribal Courts, the BIA police department, and 
an adult detention center. Right now, there is simply no money within 
the BIA or the DOJ for this type of project. Similarly, the DOJ will 
not construct and the BIA will not operate any alternative facilities, 
such as treatment centers or drug court programs. Yet these facilities 
are equally important to Indian country justice systems, especially if 
we are to avoid a cycle of locking up more and more of our own people.
VI. Tribal Eligibility for Justice Grant Programs
    We encourage the Committee to consider adding a provision that 
would make tribes directly eligible for the full range of justice-
related grants that are available to other governments. Section 302 
would make this change for drug enforcement grants, and we encourage 
you to expand this section to include all other justice-related grants. 
In particular, tribes are not now directly eligible for Byrne Justice 
Assistance Grants, Byrne Formula Grants, Local Law Enforcement Block 
Grants, juvenile justice formula grants, and many other targeted grants 
offered by the Department of Justice. This should be corrected.
    Thank you again for your work on this bill and for inviting me to 
testify today. The Standing Rock Sioux Tribe looks forward to working 
with Congress to improve and pass this legislation.

    The Chairman. Mr. Chairman, thank you very much for being 
here. We appreciate your testimony.
    Next we will hear from Mr. Joe Garcia, who is the head of 
the National Congress on American Indians and has done a lot of 
work and provided great leadership on these issues. Mr. Garcia, 
thank you for being here.

  STATEMENT OF JOE A. GARCIA, PRESIDENT, NATIONAL CONGRESS OF 
                        AMERICAN INDIANS

    Mr. Garcia. Thank you.
    Good morning, everyone. I bring greetings Pueblo Country 
out in New Mexico.
    If I may, Senator, we lost a Cherokee Indian patrolman, 
highway patrolman just last night or yesterday. So I would like 
to ask people to say in their own prayers, in their own way, 
prayers for him and for his family out in Cherokee Eastern 
Band.
    Honorable Chairman and members of the Committee, thank you 
for the opportunity to testify today. Almost one year ago, NCAI 
provided testimony that outlined solutions to the public safety 
crisis in Indian Country. We urged the Committee to write 
legislation, work with the tribes and then pass legislation in 
this session of Congress.
    I want to express my deepest appreciation to Senator 
Dorgan, Vice Chair Murkowski and Senators Kyl, Johnson, Thune, 
Burr, Barrasso, Akaka, Cantwell, and Tester, for taking up this 
important task. The legislation reflects first-rate work and 
provides common sense solutions. Indian communities have lived 
with high crime rates for many years. But this reality has 
finally gained broader attention. There is a window of 
opportunity right now to make constructive change.
    I feel a tremendous responsibility to make improvements 
when they are possible. However, this is the time when we must 
listen to tribal leaders and take advantage of the insights 
they can provide. The draft legislation was circulated only 
last week, so we will need a little bit more time for better 
response. In particular, we have found that the best 
information often comes from people who work in the criminal 
justice system.
    I am pleased that with the direction of the draft bill, it 
tackles a wide range of issues that have been raised by tribal 
leaders, including requiring the Department of Justice to track 
its declinations and creating an office of Indian Country crime 
within the criminal division. The Department of Justice has the 
sole authority for investigating and prosecuting violent crimes 
and other felonies committed on Indian reservations.
    Despite these laws, the violent crime rate on Indian 
reservations is two and a half times the national average. 
Indian women are victims of rape and sexual assault at three 
times the national average. Tribes are faced with an epidemic 
of drug trafficking.
    For many years, tribal leaders have raised the concern that 
the U.S. Attorneys do not consider Indian Country crimes a 
priority. The recent Denver Post series confirmed these 
concerns. Between 1997 and 2006, Federal prosecutors rejected 
nearly two-thirds of the reservation cases brought to them by 
FBI and Bureau of Indian Affairs investigators, more than twice 
the rejection rate for all other Federal crimes.
    We have a revolving cast of characters at DOJ committed to 
defending the status quo. No one is accountable, and the crime 
statistics continue to mount. We strongly approve the proposed 
reforms. In particular the declination reports will provide an 
important tool for measuring responsiveness and a specialized 
prosecuting unit will focus expertise and accountability.
    The bill is filled with important provisions. I would like 
to mention just a few that we particularly appreciate: 
providing for special law enforcement commissions, creating 
flexibility for training tribal police officers, creating 
incentives for law enforcement cooperation, ensuring access to 
national crime data bases, expanding tribal court sentencing 
authority and creating a juvenile justice program to develop 
alternatives for incarceration.
    I would also like to mention three issues that are not in 
the legislation. First and foremost, at every meeting, the 
biggest message from tribal leaders is the need for more 
funding for law enforcement. The Bureau of Indian Affairs has 
documented a $200 million unmet need. We need your help to 
reach out to the Appropriations and Budget Committees.
    In addition, we would like to streamline the funding 
available through the many grant programs at the Department of 
Justice and the Department of Health and Human Services into a 
single funding vehicle. The ad hoc system doesn't make sense.
    Secondly, we are concerned that the legislation does not 
include a provision for tribal jurisdiction over all domestic 
violence offenders. Domestic violence rates against Indian 
women are three times the national average. According to DOJ's 
statistics, the vast majority of the offenders are non-Indian. 
Domestic violence cases are best handled by local law 
enforcement. A cycle of domestic violence requires intervention 
at the earliest possible stage, long before it escalates to 
extremely violent assaults. In addition, most families will 
reunite, and there is a much greater emphasis on counseling, 
training and family services. The Federal justice system is not 
designed to handle domestic violence cases.
    We acknowledge the efforts to seek alternatives. Section 
601 of the bill is a proposal to create a Federal crime for 
violating a tribal civil protective order. We would ask the 
Committee to also consider the development of a pilot project 
for domestic violence that would create a basis for considering 
the issue in the future.
    Third, we are concerned that the legislation in its current 
form does not address the unique law enforcement issues in 
Alaska Native communities. Our primary recommendations are that 
the Federal Government provide direct funding for rural law 
enforcement in Alaska, strengthen tribal courts and restore 
local control over alcohol and substance abuse policies.
    In conclusion, I want to thank the Committee for all the 
work that you have done on this legislation. We are strongly in 
support of your efforts and look forward to working with you in 
the coming weeks to prepare the legislation for passage into 
law.
    Thank you so much for the opportunity.
    [The prepared statement of Mr. Garcia follows:]

Prepared Statement of Hon. Joe A. Garcia, President, National Congress 
                          of American Indians
    Honorable Chairman and members of the Committee, thank you for the 
opportunity to testify today. Almost one year ago NCAI provided 
testimony that outlined the complex causes and potential solutions to 
the public safety crisis facing Indian communities. We urged the 
Committee to write legislation, work with the tribes to gain their 
insights and support, and then pass legislation in this session of 
Congress. We have the draft legislation in hand, and I want to express 
my deepest appreciation to Chairman Dorgan, Vice Chair Murkowski and 
Senators Kyl, Johnson, Thune and Tester for taking up this important 
task. The legislation reflects first-rate work and provides common-
sense solutions for many problems with the justice system in Indian 
country.
    Indian communities have lived with high crime rates for many years, 
but this reality has finally gained broader attention. Much of the 
momentum on this issue was sparked by the efforts of the Indian women 
leaders who have pushed the agenda on domestic violence and sexual 
assault. We have also been aided by countless visits by tribal leaders 
to Washington to raise this issue, federal crime reports that 
demonstrate the dramatically higher rates of violent crime on Indian 
reservations, the Amnesty International Report ``Maze of Injustice,'' 
and many news articles that have highlighted the problems--most 
recently the national series in the Denver Post and South Dakota 
coverage in the Argus Leader. There is a window of opportunity right 
now to make constructive change. I feel a tremendous responsibility as 
NCAI President to push forward on the legislation to make improvements 
when they are possible.
    However, this is the stage in the process where we must listen to 
tribal leaders and other interested parties and take advantage of the 
insights they can provide. The draft legislation was circulated only 
last week, so we will need time for response. In particular, we have 
found that the best information often comes from people who work in the 
criminal justice system--tribal police officers, tribal prosecutors, 
tribal judges and the like. I would encourage the Committee to make a 
special effort to reach out for their views on how the legislation can 
be strengthened.
    I am very pleased with the direction of the draft bill. It tackles 
a wide range of issues that have been raised by tribal leaders, 
including:

  <bullet> Requiring the Department of Justice to track its 
        declinations to prosecute Indian cases;

  <bullet> Creating an Office of Indian Country Crime within the 
        Criminal Division at DOJ;

  <bullet> Amending P.L. 280 to permit an Indian tribe to request 
        federal assistance;

  <bullet> Creating incentives for state-tribal cooperation;

  <bullet> Providing for Special Law Enforcement Commissions;

  <bullet> Creating flexibility for training Indian country police 
        officers;

  <bullet> Ensuring BIA and tribal police access to the national crime 
        databases;

  <bullet> Expanding tribal court sentencing authority; and

  <bullet> Creating a Juvenile Justice program to develop alternatives 
        to incarceration.

    There are many excellent provisions in the legislation and NCAI has 
had a significant opportunity to provide input, so I would like to 
limit our initial comments to raising four issues that are not in the 
legislation, and then providing additional information on some of the 
provisions that NCAI has supported.
    Appropriations and Streamlined Funding--First and foremost, at 
every meeting we have held on this topic the biggest message from 
tribal leaders is the need for more funding for law enforcement. The 
Bureau of Indian Affairs has documented a $200 million unmet need to 
bring reservation policing up to the same levels found in other rural 
communities. According to BIA testimony, tribal detention facilities 
are grossly overcrowded, in deplorable condition, and staffed at only 
50 percent. \1\ We understand that we need to reach out to the 
Appropriations and Budget Committees to ensure that adequate funding is 
provided so that this legislation can be effective. In addition, we 
believe there is a need to streamline the funding available through the 
Department of Justice, Department of Interior, and Department of Health 
and Human Services. Tribal law enforcement funds are divided up between 
the DOI and DOJ. Within the DOJ these funds are further divided into 
dozens of competitive grants for specific purposes. Moreover funding 
for prevention, rehabilitation, and treatment programs, which are key 
components of any community's approach to reducing crime, are located 
at IHS, SAMHSA, and elsewhere within the DHHS.
---------------------------------------------------------------------------
    \1\ Testimony of Guillermo Rivera before the National Prison Rape 
Elimination Commission, March 26, 2007, available at http://
www.nprec.us/proceedings_austintx.htm.
---------------------------------------------------------------------------
    This system requires a large grant writing capability and a good 
bit of creativity in order to access the funds. Millions could easily 
be spent providing the technical assistance tribes need just to 
navigate this overly complex system. Under this ad hoc system, tribal 
law enforcement will receive vehicles, but no maintenance. They will 
get a detention facility, but no staff. They will receive radios, but 
no central dispatch. The system doesn't make sense. We believe that 
tribal public safety funding should be streamlined into a single 
funding vehicle that would be negotiated on an annual basis and made 
more flexible to meet local needs.
    Domestic Violence--Secondly, we are disappointed that the 
legislation does not include a provision for tribal jurisdiction over 
all domestic violence offenders. Domestic violence rates against Indian 
women are three times the national average and, according to DOJ 
statistics, the vast majority of the offenders are non-Indian. As we 
have worked on this legislation, we have attempted to put ideology to 
the side and focus on the necessary solutions to very real law and 
order problems. We are pleased that the legislation contemplates 
improvement of the federal law enforcement response, but very doubtful 
that federal prosecutors will aggressively pursue domestic violence 
cases. We know that there are very devoted individuals working for the 
FBI and United States Attorneys, but the federal justice system simply 
is not designed or equipped to handle domestic violence cases.
    Domestic violence cases are best handled by local law enforcement. 
The cycle of domestic violence requires intervention at the earliest 
possible stage, long before it escalates to the very violent assaults 
that result in federal prosecution. In addition, domestic violence 
offenders require a different response than is found in the federal 
system. Most families will reunite and there is a much greater emphasis 
on counseling, training, and services related to substance abuse, 
parenting skills and job counseling. None of these services are 
available in the federal system, which is oriented to punishing very 
severe offenses. A modest adjustment of existing tribal authority 
limited only to those who consensually cohabitate with a tribal member 
on tribal land is absolutely necessary to regulate domestic relations 
within the tribe.
    What is most disappointing is that it appears such legislation 
cannot be introduced even for purposes of discussion. We understand 
that the issue is sensitive, but we also know that reasonable solutions 
can be reached if the issues are aired for public debate. We 
acknowledge the efforts to seek alternatives. Section 601 of the bill 
is a proposal to create a federal crime for violating a tribal civil 
protective order. We want to continue to discuss this option, but we 
are concerned that it relies on the willingness of the U.S. Attorneys 
to prosecute the cases. We would ask the Committee to consider the 
development of a small pilot project for tribal domestic violence 
jurisdiction that would create a firmer basis for considering the issue 
in the future.
    Alaska Native Villages--Third, we are concerned that the 
legislation in its current form does not address the unique law 
enforcement issues in Alaska Native communities. Alaskan tribal lands 
are not considered ``Indian country'' after the Supreme Court's 
decision in Alaska v. Native Village of Venetie. Tribal communities in 
Alaska experience high rates of domestic violence and sexual assault 
and significant problems with substance abuse. Most of the native 
communities are only accessible by plane or boat, and are completely 
dependent on state law enforcement. The Village Public Safety Officer 
program has had its budget slashed by the state, and many tribal 
communities in Alaska are terribly underserved by state police and 
other services. We know that the Committee is aware of these problems 
and would urge the Committee to reach out to Alaska tribal leaders to 
develop ways to improve law enforcement in Alaska. Our primary 
recommendations are that the Federal Government provide direct funding 
for rural law enforcement in Alaska, to strengthen tribal courts, and 
that tribal communities in Alaska be given greater control over alcohol 
and substance abuse policies.
    Misdemeanors and Victimless Crimes Committed by Non-Indians--The 
general lack of tribal or federal jurisdiction for misdemeanors 
committed by non-Indians creates significant problems for law 
enforcement. Alcohol and drug related disturbances, traffic violations, 
domestic violence and gang activity commonly involve both Indians and 
non-Indians. The absence of tribal jurisdiction to deal effectively 
with non-Indians creates a perception that the likelihood of being 
caught and punished is low, and encourages a disregard for tribal law 
enforcement. This problem is compounded by the status of ``victimless'' 
crimes--those committed on the reservation by a non-Indian that do not 
actually involve harm or threat to the person or property of an Indian. 
Neither the tribe nor the Federal Government has jurisdiction over 
victimless crimes, only the state. As a result, most routine disorderly 
conduct, traffic violations and other moral offenses committed by non-
Indians within Indian country receive little enforcement attention. 
These gaps in tribal and federal jurisdiction defeat community-based 
policing initiatives and create disorder and disregard for law 
enforcement in Indian country. \2\
---------------------------------------------------------------------------
    \2\ Testimony of John St. Claire, Chief Judge, Shoshone and Arapaho 
Tribal Court, Wind River Indian Reservation, Senate Committee on Indian 
Affairs, February 27, 2002.
---------------------------------------------------------------------------
    One solution that has been suggested is to expand tribal and Bureau 
of Indian Affairs authority to cover a broader range of ``non-major'' 
crimes as well as misdemeanors and ``victimless'' crimes committed by 
non-Indians. This could be done in two ways. First, directly authorize 
tribes to prosecute misdemeanors. Second, the Bureau of Indian Affairs 
could be authorized to develop regulations governing misdemeanors and 
minor crimes committed by both Indians and non-Indians in a manner 
similar to the National Park Service. See 16 U.S.C. Sec. 1c and also 
the current regulations governing Indian offenses at 25 C.F.R. Part 11. 
Legislation and regulations would need to be carefully crafted not to 
``federalize'' misdemeanor crimes that are committed to tribal 
government enforcement. Public Law 638 contracting could play a role, 
as well as an option for express consent to tribal court jurisdiction 
in lieu of federal prosecution.
Title I--Federal Accountability and Coordination
    Under the Major Crimes Act and other federal laws, the Department 
of Justice has the sole authority for investigation and prosecution of 
violent crimes and other felonies committed on Indian reservations. 
Despite these laws and the federal trust obligation to protect Indian 
communities, the violent crime rate on Indian reservations is two and a 
half times the national average, Indian women are victims of rape and 
sexual assault at three times the national average, and tribes are 
faced with an epidemic of drug trafficking. These crime rates have been 
doubling and tripling in Indian country while crime rates have been 
falling in similarly low-income communities throughout the United 
States. Something is seriously wrong with the federal law enforcement 
response.
    For many years, tribal leaders have raised the concern that the 
U.S. Attorneys do not consider Indian country crimes a priority and 
decline to prosecute an extraordinary percentage of cases. The Denver 
Post series from November of 2007 confirmed these concerns.

  <bullet> Between 1997 and 2006, federal prosecutors rejected nearly 
        two-thirds of the reservation cases brought to them by FBI and 
        Bureau of Indian Affairs investigators, more than twice the 
        rejection rate for all federally prosecuted crime.

  <bullet> Investigative resources are spread so thin that federal 
        agents are forced to focus only on the highest-priority 
        felonies while letting the investigation of some serious crime 
        languish for years. Long delays in investigations without 
        arrest leave child sexual assault victims vulnerable and 
        suspects free to commit other crimes.

  <bullet> Many low-priority felonies never make it to federal 
        prosecutors in the first place. Of the nearly 5,900 aggravated 
        assaults reported on reservations in Fiscal Year 2006, only 558 
        were referred to federal prosecutors, who declined to prosecute 
        320 of them. Of more than 1,000 arson complaints reported last 
        year on Indian reservations, 24 were referred to U.S. 
        Attorneys, who declined to prosecute 18 of them.

  <bullet> Congress has increased the amount of money allocated to the 
        Bureau of Indian Affairs for tribal police, but that increase 
        has been largely spent on patrol officers. Federal 
        investigators and prosecutors have also received sizable boosts 
        in their budgets for work in Indian Country, but those 
        increases have failed to produce a perceptible rise in the 
        number of investigations or prosecutions from reservations. 
        Federal prosecutors and investigators triage scarce resources 
        to work on issues that are considered a higher priority.

  <bullet> From top to bottom, the Department of Justice's commitment 
        to crime in Indian Country is questionable. Former United 
        States Attorney for the Western District of Michigan Margaret 
        Chiara was quoted saying, ``I've had (assistant U.S. attorneys) 
        look right at me and say, `I did not sign up for this'. . . . 
        They want to do big drug cases, white-collar crime and 
        conspiracy.'' Comments from former United States Attorney for 
        Arizona, Paul Charlton indicate that this attitude came from 
        the top. Charlton has related a story where a high-level 
        Department of Justice official asked him why he was prosecuting 
        a double-murder in Indian Country in the first place. \3\
---------------------------------------------------------------------------
    \3\ Mike Riley, ``Principles and Politics Collide: Some U.S. 
Attorneys who emphasize fighting crime on Indian lands have seen 
themselves fall out of favor in D.C.,'' DENVER POST, Nov. 14, 2007.

    Some internal efforts have been made at the Department of Justice 
to improve the focus on Indian country crime, but these efforts have 
shown little in the way of results. Former Attorney General Janet Reno 
created the Office of Tribal Justice, but the status of this office has 
been diminished in recent years. Former Attorney General John Ashcroft 
supported the district priorities of the U.S. Attorneys, and under his 
leadership the Native American Issues Subcommittee of the Advisory 
Committee to the Attorney General worked to increase prosecutions and 
address problems with violent crime and drug trafficking in Indian 
country. However, six of the members of the Native American Issues 
Subcommittee were among those who were asked to resign in 2006, 
including both the former Chair and Vice-Chairs Thomas Heffelfinger and 
Margaret Chiara. Monica Goodling, former aide to Attorney General 
Gonzales, stated in her House Judiciary Committee testimony that Thomas 
Heffelfinger was replaced because he spent ``too much time'' on the 
Native American Issues Subcommittee. Now we have a new cast of 
characters at DOJ and they seem to be committed to the status quo. 
According to U.S. Attorney Diane Humetewa's testimony, DOJ does a great 
job and there are no problems. No one is held accountable and the crime 
statistics continue to mount.
    There is a serious concern that the Department of Justice central 
office places no priority on addressing crime in Indian country, and is 
subject to no oversight or accountability on its efforts or 
performance. Indian tribes do not wish to ``federalize'' more crimes 
and put more Indians in federal prison. However, serious felonies and 
dangerous criminals--whether Indian or non-Indian--are under the sole 
jurisdiction of the Department of Justice and this responsibility must 
be taken seriously. We strongly approve of the proposed reforms at the 
Department of Justice to ensure that Indian country crime is subject to 
consistent and focused attention. In particular:

  <bullet> Section 102 would require the Department to maintain data on 
        declinations of referred Indian country cases, and to report 
        annually to Congress. Tribal leaders and Members of Congress 
        have sought this data for decades, but have been rebuffed by a 
        Department of Justice that hides behind broad claims of 
        prosecutorial discretion and a steady unwillingness to release 
        any internal data. This will provide an important tool for 
        measuring responsiveness to referred cases.

  <bullet> Section 104 would create an Office of Indian Country Crime 
        within the Criminal Division of the Department of Justice. We 
        have attached a copy of the organizational chart of the 
        Criminal Division, which has a section and prosecutors assigned 
        to every sort of federal crime, except for Indian country 
        crime. We believe this is a reflection of the low priority that 
        Indian Country crime receives within the DOJ. Specialized 
        prosecutorial units are very effective in focusing expertise 
        and a response on particular types of crime. We strongly 
        support this aspect of the legislation.

Title II--State Accountability and Coordination
    Although the federal system of justice in Indian country has 
serious difficulties, there is a worse system. Under Public Law 280, 
state law enforcement has displaced federal enforcement and assumed 
full or partial jurisdiction over crimes committed within Indian 
Country in certain states and on certain reservations. Many tribes 
strongly opposed P.L. 280 because of the law's failure to recognize 
tribal sovereignty and the lack of consent of the affected tribes. 
States have focused on the failure of the Act to provide federal 
funding--an unfunded mandate on lands that are not taxable. Even though 
tribes retain concurrent jurisdiction, the Federal Government has 
viewed P.L. 280 as an excuse to cut off tribal financial and technical 
assistance for law enforcement. The law has contributed to mistrust and 
hostility between state and tribal officials on many reservations. A 
common tribal perception is that state law enforcement refuses or 
delays when the tribe asks for assistance, but vigorously asserts their 
authority when the tribe does not want them to intervene. Professor 
Carole Goldberg has made a compelling case that the law has worsened 
the problem of lawlessness on reservations:

        Public Law 280 has itself become the source of lawlessness on 
        reservation. Two different and distinct varieties of 
        lawlessness are discernible. First, jurisdictional vacuums or 
        gaps have been created, often precipitating the use of self-
        help remedies that border on or erupt into violence. Sometimes 
        these gaps exist because no government has authority. Sometimes 
        they arise because the government(s) that may have authority in 
        theory have no institutional support or incentive for the 
        exercise of that authority.*** Second, where state law 
        enforcement does intervene, gross abuses of authority are not 
        uncommon. \4\
---------------------------------------------------------------------------
    \4\ Carole Goldberg-Ambrose, Planting Tail Feathers: Tribal 
Survival and Public Law 280 (UCLA American Indian Law Studies Center, 
1997), p. 12.

    Section 201 proposes a modest reform of P.L. 280. The statute 
distinguishes between the six ``mandatory'' P.L. 280 states, and the 
other states that elected to assert jurisdiction prior to 1968. In the 
mandatory states, the Federal Government has been divested of Indian 
country jurisdiction. For example, in Minnesota the U.S. Attorney has 
authority to prosecute major crimes only on the Red Lake Reservation, 
but could not prosecute a major crime on the other reservations within 
the state. This legislation would allow the tribe to request that the 
U.S. Attorney exercise concurrent jurisdiction over Indian country 
crimes and major crimes. We support this reform because it would 
increase tribal control and create another means to address unmet law 
enforcement needs. At the same time, we strongly advocate that Congress 
should amend P.L. 280 to allow tribes to retrocede without state 
consent.
    Section 202 is also an extremely important part of this 
legislation. It is widely recognized that increased cooperation is 
vital to improving tribal, state and federal law enforcement 
responsiveness. There is already a significant amount of cooperation 
between tribes, states, and counties, and there are hundreds of 
cooperative law enforcement agreements. These agreements are grounded 
in the shared recognition that tribes, states and counties can enhance 
their law enforcement efforts working together. Recognition of these 
benefits is sufficiently widespread that a number of states such as 
Arizona, New Mexico, Nevada, North Carolina and Washington now provide 
for the deputization of tribal officers by statute. See, e.g., Arizona 
Rev. Stat. Ann. Sec. 13-3874 (``While engaged in the conduct of his 
employment any Indian police officer who . . . meets the qualifications 
and training standards adopted pursuant to section 41-1822 shall 
possess and exercise all law enforcement powers of peace officers in 
this state).
    Although law enforcement cooperation is common, it is not found 
everywhere. There are still a number of places where cooperation is 
minimal, and the relationships are sometimes antagonistic. In our 
experience, these poorer relationships are driven by the long histories 
of disrespect and indifference that have existed for many decades in 
the rural areas around some Indian reservations, and by a lack of 
support for individuals who would choose to forge stronger law 
enforcement ties.
    The benefits of cooperative agreements are sufficiently strong that 
the Federal Government should encourage and provide incentives for the 
development of law enforcement cooperation among states, counties and 
tribes. Section 202 is modeled after a successful Wisconsin program 
that provides specific funding for joint tribal-state law enforcement 
efforts. Wis. Stat. Sec. 165.90 provides for state grant funds to joint 
county-tribal law enforcement plans. This program has been evaluated as 
very successful in improving reservation law enforcement in Wisconsin. 
See, David L. Lovell, Senior Analyst, Wisconsin Legislative Staff, 
Wisconsin's County-Tribal Law Enforcement Program, (June 27, 2000).
    NCAI would like to emphasize that cross-deputization agreements are 
not the only forms of cooperation and may not be appropriate in all 
locations. Another form is the mutual aid agreement, where the parties 
pledge to respond to requests for assistance in carrying out their 
respective law enforcement activities, but have this authority only on 
specific requests. In addition, there are also very important 
agreements that cover specific issues such as extradition, the 
execution of search and arrest warrants, and hot pursuit across 
jurisdictional boundaries.
    In this vein, NCAI also strongly supports Section 302, which would 
create more flexibility in training tribal police officers. Experience 
has shown that cooperation is enhanced when state and tribal police 
officers have similar training at the same facilities. In fact, many of 
the cooperative agreements require that tribal officers train at state 
police academies. The BIA's training requirements become a duplicative 
barrier to recruiting and retaining tribal police officers. Instead, 
BIA training should be designed to supplement locally available police 
training.
Title III--Empowering Tribal Justice Systems
    Sections 301 and 302 are extremely important provisions to 
eliminate barriers to law enforcement in Indian country. Special law 
enforcement commissions have long been available to tribal police, but 
the BIA has withheld the training and granting of commissions for 
bureaucratic reasons. As noted above, Section 302 addresses a severe 
problem that tribes have faced in recruiting and training police 
officers. The BIA trains police on an irregular basis at only one 
facility in New Mexico. The long distances are a barrier to 
recruitment, and the training is often duplicative of the training that 
tribal officers must receive under state-tribal agreements. The BIA 
should offer the unique ``Indian country'' components of training as a 
supplement to locally available training that meets National Peace 
Officer Standards.
    Section 304 is also critically important. Criminal information 
databases are a fundamental tool of law enforcement. Tribal police are 
regularly denied access to the NCIC, although the Violence Against 
Women Act of 2005 has specifically authorized tribal access. The 
inability to check for criminal history compromises the safety of 
tribal police officers, and the inability to check for outstanding 
warrants and to enter information about fugitives undermines the entire 
national law enforcement network.
    Section 305 would extend tribal sentencing limitations under the 
Indian Civil Rights Act to provide for appropriate sentences for more 
serious offenders. In the original 1968 law, tribal sentencing 
authority was limited to 6 months or $500. In 1986, the authority was 
expanded to 1 year or $5000. A 2003 report of the Native American 
Advisory Group to the U.S. Sentencing Guidelines Commission points out 
the disparity between tribal sentencing authority and the sentences 
that are imposed by the Federal Government for crimes committed under 
the Major Crimes Act. Assaults comprise the greatest percentage of 
crimes prosecuted under the Major Crimes Act, and the average federal 
sentence for Indians prosecuted for assault is three years. Because 
U.S. Attorneys rarely prosecute any crime in Indian country that is not 
a very significant assault, there is a large gap between the maximum 
sentencing authority of tribes and the average sentence for the least 
serious crime that is prosecuted by the Federal Government.
    The key to this provision is that it would permit tribes to house 
prisoners at the nearest appropriate federal facility. Most tribes do 
not have the resources or facilities for longer term incarcerations and 
need the Federal Government to house violent criminals. We strongly 
support this aspect of Section 304. Overall, we need to have further 
discussion with tribal leaders before we can completely endorse this 
provision.
    Another aspect of the Indian Civil Rights Act deserves 
consideration. The Act requires Indian tribes to provide juries to 
anyone accused of an offense punishable by imprisonment. The federal 
Constitution only recognizes such a right for persons subject to a term 
of imprisonment for ``serious offenses,'' which primarily refers to 
non-petty offenses, or those offenses which carry a prison term of 
greater than six months. The requirement of a jury trial for petty 
offenses is an unnecessary burden on tribal justice systems. In tribal 
courts with limited budgets, savvy defendants use this provision to 
gain dismissal of otherwise meritorious prosecutions.
Title IV--Resources for Tribal Justice Programs
    NCAI has long advocated for increased funding for law enforcement 
in Indian country because of the public safety crisis. Basic law 
enforcement protection and services are severely inadequate for most of 
Indian country. For example, a recent Bureau of Indian Affairs analysis 
indicates that in BIA Law Enforcement, 1,153 officers are needed but it 
has only 358. The gap is 795 officers (69 percent unmet need). In 
Tribal Law Enforcement--3,256 officers are needed but tribes have only 
2,197. The gap is 1,059 officers (33 percent unmet need). Total need is 
1,854 law enforcement officers. To put this in perspective, these 2,555 
Indian country law enforcement officers make up about 0.004 percent of 
the total of 675,734 state, city and county law enforcement officers in 
the United States, yet they patrol approximately 2 percent of the 
landmass of the United States and 1 percent of the population.
    Increasing law enforcement funding is a top priority. We generally 
support the efforts to reauthorize the programs in this title, but will 
need time to review the details. As mentioned above, there is a need to 
streamline the funding available through the Department of Justice. DOJ 
law enforcement funds are divided up into many competitive grants for 
specific purposes. Department of Justice funding should be streamlined 
into a single funding vehicle that would be negotiated on an annual 
basis and made more flexible to meet local needs.
    Section 407 is particularly important to support the development of 
the Juvenile Justice programs in Indian Country. There is a growing 
consensus among both tribal leaders and national justice system 
analysts that non-violent juvenile offenders should rarely be placed in 
detention. They need to stay in school and get more monitoring and 
mentorship. Our goal is not to put more Indians in jail and create more 
criminals, but to rehabilitate offenders so they can play a productive 
role in our communities. This will also be much more cost-effective, 
and the place to start is at the juvenile level. Upon our initial 
review, we may request that this program be expanded and created as a 
specific set-aside for tribal programs.
Title V--Indian Country Crime Data Collection and Information Sharing
    Crime data is a fundamental tool of law enforcement, but for 
decades the Bureau of Indian Affairs and the Department of Justice have 
never been able to coordinate or accurately report on crime rates and 
prosecution rates in Indian country, making it extremely difficult to 
review their performance. In addition, it becomes very difficult to 
discern trends, set enforcement priorities, and formulate budget 
requests without crime data. This title would require all federal law 
enforcement officers responsible for investigating and enforcing crimes 
in Indian country to coordinate in the development of a uniform system 
of collecting and reporting data.
    This provision should not allow any wiggle room. Congress should 
require that the Bureau of Indian Affairs and the Department of Justice 
devise a ``Tribal Category'' and coordinate to produce Indian country 
crime data and statistics comparable to data collected from state law 
enforcement by the Bureau of Justice Statistics. This effort should 
include state and county crime data from P.L. 280 and similar 
jurisdictions.
Title VI--Domestic Violence and Sexual Assault Enforcement and 
        Prevention
    NCAI will withhold comments on this section until we have a further 
opportunity to consult with tribal leaders and the Indian women's 
organizations that provide advocacy and services to victims of domestic 
violence and sexual assault.
Conclusion
    Law enforcement has been the leading concern of tribal leaders 
throughout the country for at least the last five years that priorities 
have been measured by the BIA Budget Advisory Committee, and probably 
for much longer. NCAI strongly encourages Congress to take action on 
all of the fronts that we have identified above. Taken together--an 
improvement in the federal response, an increase in state-tribal 
cooperation, enhancements to tribal authority, and maximizing law 
enforcement resources--we can dramatically change the environment for 
criminal activity on Indian reservations. Our goal is to send a new 
message that the law will be vigorously enforced, and thereby create a 
deterrent to crime on Indian lands. This effort will bring great 
benefits to Indian communities and our neighbors in public safety, but 
also in health, productivity, economic development, and the well-being 
of our people. We thank you in advance, and look forward to working 
with you to move forward on the legislation as quickly as possible.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Mr. Garcia, thank you very much. Thank you 
for your leadership, and we appreciate your being here today.
    Next we will hear from Gretchen Shappert, who is the U.S. 
Attorney and I believe appearing on behalf of the U.S. Justice 
Department.

        STATEMENT OF HON. GRETCHEN C. F. SHAPPERT, U.S. 
 ATTORNEY, WESTERN DISTRICT OF NORTH CAROLINA, U.S. DEPARTMENT 
                           OF JUSTICE

    Ms. Shappert. I am, thank you. I want to thank you, Mr. 
Chairman and Madam Vice Chair. I want to also thank the 
Committee and Senator Burr for his kind remarks. I also wanted 
to thank President Garcia for acknowledging the death of a law 
enforcement officer from the Eastern Band of Cherokee Indians, 
who was gunned down in his service and duty. It reminds all of 
us of just how serious our obligations are to law enforcement.
    So it is a privilege to be with you today.
    I am the U.S. Attorney from the Western District of North 
Carolina. I am also Chair of the Native American Issues 
Subcommittee of the Department of Justice. I serve on the 
Attorney General's advisory Committee in that capacity.
    I have worked hard in my own district and with colleagues 
across the Country to provide effective law enforcement in 
Indian Country. In my district, we have had the opportunity to 
work with the Eastern Band of Cherokee Indians, the largest 
federally-recognized tribe in the eastern half of the United 
States, with a membership of over 13,000. We have established a 
close working relationship in my office with the Eastern Band 
of Cherokee Indians, and together with the FBI, National Park 
Service, the Bureau of Indian Affairs and the Cherokee Indian 
Police Department, we have worked hard in Indian Country to 
combat particularly violent crime.
    My experience as Chair of the Native American Issues 
Subcommittee has also helped me in my work in my district, and 
to work with my colleagues in our capacity as Federal law 
enforcement to develop policies in Indian Country.
    In an effort to ensure more effective coordination and 
communication, especially in the upcoming transition period, 
the Department's tribal liaisons, U.S. Attorneys and 
representatives of the Department of Justice met earlier this 
month in Rapid City, South Dakota, with representatives of the 
nine tribes in South Dakota to discuss problems in Indian 
Country. As you are aware, the tribal liaisons, the Assistant 
U.S. Attorneys who work in Indian Country, have the key 
responsibility to identify and respond to the needs of the 
distinct tribes in their districts.
    In our meeting, we had a chance to engage in a listening 
session and hear from representatives of the tribes in order to 
improve our meeting of our responsibilities in Indian Country.
    While the Department does not comment on proposed 
legislation, I would, however, like to highlight a few areas of 
concern that we have with the proposed draft legislation. The 
Department is committed to improving Indian Country crime data. 
However, we oppose the concept of requiring the publication and 
disclosure of declination reports. While significant Indian 
Country cases are primarily handled in the Federal courts, 
caution should be used when comparing Indian Country statistics 
to other Federal statistics. As was emphasized by my colleague, 
United States Attorney Diane Humetewa, when she addressed this 
Committee, declination does not necessarily mean that a case 
will not be prosecuted. Declination may mean that the case is 
actually reassigned to another jurisdiction or another forum, 
that there will be additional work-up in that prosecution, or 
that perhaps a crime has not been committed.
    By requiring United States Attorney offices and other 
investigative agencies to prepare a detailed written report 
that contains information about an investigation that was 
either declined or terminated, the legislation would create 
potentially discoverable material outlining weaknesses in a 
subsequent criminal case.
    The Department also opposes the establishment of an office 
of Indian crime in the Criminal Division of the Department of 
Justice. While the Department recognizes and appreciates 
concerns about the prosecution of crimes in Indian Country, our 
concern is that the formation of another unit in the Criminal 
Division will remove critical resources from Indian Country and 
locate them in Washington, D.C., when in fact they are needed 
to prosecute crimes in Indian Country. We are concerned that 
that will create a significant gap in experience in our 
prosecution of crime in Indian Country.
    We also are concerned about permitting tribal courts to 
direct offenders into the Bureau of Prisons for serving of 
their sentences, as opposed to in detention facilities run by 
the BIA.
    For purposes of maintaining family ties and to effect an 
optimal re-entry back into the community after release, the 
Department of Justice believes that the incarceration of tribal 
court offenders is best handled by local jurisdictions and BIA. 
The Bureau of Prisons attempts to designate an inmate to the 
appropriate security level within 500 miles of their home. 
However, due to over-crowding and population pressures, many 
individuals are located in facilities far from where they live. 
This will reduce their ability to maintain close ties with 
their communities and will limit the number of visits by family 
and friends when they are housed in a Bureau of Prisons 
facility.
    Mr. Chairman, Madam Vice Chairman and members of the 
Committee, while the Department does, as I indicated, not 
comment on legislation, I will be happy at the appropriate time 
to try to answer any of your questions. Thank you very much.
    [The prepared statement of Ms. Shappert follows:]

  Prepared Statement of Hon. Gretchen C. F. Shappert, U.S. Attorney, 
     Western District of North Carolina, U.S. Department of Justice

    Mr. Chairman, Madame Vice-Chair and members of the Committee:
    My name is Gretchen Shappert. I am the United States Attorney for 
the Western District of North Carolina, and the chair of the Native 
American Issues Subcommittee of the Attorney General Advisory Council. 
My fellow U.S. Attorneys and the Department of Justice (``the 
Department'') as a whole share the Committee's goal of improving law 
enforcement in Indian Country. We appreciate your highlighting this 
important issue and I thank you for the opportunity to testify today. 
We look forward to working with the Committee to achieve this goal.
    I have worked hard in my own district and with colleagues across 
the country to provide effective law enforcement in Indian Country. In 
my district, I have had the opportunity to work closely with the 
Eastern Band of Cherokees, an Indian tribe numbering over 13,000. We 
have established a close working relationship, and I am proud of what 
we have accomplished together. For example, my office has seen a number 
of criminal defendants sentenced in federal court for crimes committed 
in Indian Country, including several serious domestic violence cases. 
This was the result of the excellent work of federal law enforcement 
agencies, including the Federal Bureau of Investigation (FBI) and the 
National Park Service, and our partners in the Cherokee Indian Police 
Department. Because of this cooperation, we were able to investigate 
and to successfully prosecute these federal offenses which occurred in 
Indian Country.
    That experience has benefited my service as Chair of the Native 
American Issues Subcommittee (NAIS), the oldest subcommittee of the 
Attorney General's Advisory Committee (AGAC). The NAIS consists of U.S. 
Attorneys from across the United States who have significant amounts of 
Indian Country in their districts. The purpose of this body is to 
develop policies for consideration and approval by the Attorney General 
pertaining to the establishment and development of effective law 
enforcement in Indian Country.
    In an effort to ensure more effective coordination and 
communication, especially in the upcoming transition period, the 
Department's tribal liaisons and NAIS met jointly in Rapid City, South 
Dakota earlier this month. As the Committee knows, tribal liaisons are 
the Assistant United States Attorneys (``AUSAs'') who are responsible 
for coordinating Indian Country relations and prosecutions. The tribal 
liaisons work diligently to identify and respond to the needs of the 
distinct tribes within their districts. Our meeting included a visit to 
the Pine Ridge reservation where the NAIS, tribal liaisons, tribal 
leaders and law enforcement officers were able to discuss some of the 
important matters affecting that particular tribe, including the need 
for additional law enforcement resources and the importance of 
community involvement in solving the difficult social issues that often 
accompany criminal activity. I also have participated in numerous 
national and regional tribal conventions, training sessions, symposiums 
and events. At those meetings, I have regularly provided my direct 
phone number for those who need assistance with an issue affecting 
Indian Country.
    In addition to my own work, let me describe the overall successes 
of my colleagues in the U.S. Attorney community and the Department 
generally. The Department's dedicated public servants are successfully 
prosecuting cases in Indian Country. Approximately 25 percent of all 
violent crimes investigated by U.S. Attorneys nationally occur in 
Indian Country. In addition, in Fiscal Year (FY) 2006 the Department's 
efforts in Indian Country have been above average across the board. For 
example, in FY 2006, the Department filed 606 cases against 688 
defendants in Indian Country, which is nearly 5 percent higher than the 
average since 1994 of 580 cases against 643 defendants per year. In FY 
2006, 82 cases went to trial, 13.8 percent more than the average of 72 
cases each year since 1994. The conviction rate for Indian Country 
prosecutions in FY 2006 was 89.4 percent, slightly higher than the 86.2 
percent average since 1994. Eighty percent of those guilty of violent 
crime in Indian Country were sentenced to prison in that year. The 
number of defendants convicted of violent crimes receiving sentences 
greater than 61 months has also increased from 31 percent on average to 
36 percent in FY 2006.
    The FBI also plays a significant role in Indian Country. Even with 
the heightened demands on the FBI from terrorism investigations, Indian 
Country law enforcement remains important to the FBI. The FBI has 
increased the number of agents working Indian Country cases by 7 
percent since 2001.
    Most recently, the FBI has initiated a Joint Indian Country 
Training Initiative with the BIA to sponsor and promote training 
activities pertaining to drug trafficking. In FY 2007, the FBI provided 
more than 30 training conferences for local, tribal, and federal 
investigators regarding gang assessment, crime scene processing, child 
abuse investigations, forensic interviewing of children, homicide 
investigations, interviewing and interrogation, officer safety and 
survival, crisis negotiation, and Indian gaming. Furthermore, the FBI's 
Office for Victim Assistance dedicates 31 Victim Specialists to Indian 
country, representing approximately one third of the entire FBI Victim 
Specialist workforce.
    Also, the FBI recently deployed the Law Enforcement National Data 
Exchange initiative (N-DEx) system with participation from tribal 
governments. N-DEx is a criminal justice information sharing system 
that will provide nationwide connectivity to disparate local, state, 
tribal, and federal systems for the exchange of information. The N-DEx 
system will provide law enforcement agencies with a powerful new 
investigative tool to search, link, analyze and share criminal justice 
information such as, incident/case reports, incarceration data, and 
parole/probation data on a national basis to a degree never before 
possible. The vision of the Law Enforcement N-DEx is to share complete, 
accurate, timely and useful criminal justice information across 
jurisdictional boundaries and to provide new investigative tools that 
enhance the Nation's ability to fight crime and terrorism. The Oneida 
Nation police department is the first tribal law enforcement agency 
(LEA) to participate in the N-DEx project. Currently, the Oneida Nation 
police department contributes data by manually entering incident 
information in the N-DEx system. The N-DEx Program office is developing 
relationships with other tribal agencies to submit data to the N-DEx 
system. Toward that end, the office has met with various tribal LEAs, 
including Paiute, Mashantucket Pequot, Mohegan, Eastern Band of 
Cherokee, and Navajo Tribes. The N-DEx Program office is dedicated to 
creating a relationship with Tribal LEAs to assist in the defense 
against crime and terrorism.
    My colleagues at the Bureau of Alcohol, Tobacco, Firearms, and 
Explosives (ATF) have also been committed to reducing violence in 
Indian Country. ATF has assisted Tribal Governments in combating 
firearms and gang violence through the Project Safe Neighborhoods (PSN) 
initiative. Through the creation of grassroots partnerships in those 
tribal communities where gun crime has been identified as a problem, 
ATF vigorously enforces existing firearms laws to prevent the violent 
criminal misuse of firearms. ATF has entered into Memorandums of 
Understanding (MOUs) with several tribes in order to increase 
cooperation with local tribal law enforcement and address the problem 
of gun violence in tribal areas. ATF also works closely with tribes in 
providing training and instruction on firearms and gang related issues. 
This training includes information on domestic violence and its impact 
on firearms possession.
    Furthermore, the Drug Enforcement Administration (DEA) actively 
investigates significant Drug Trafficking Organizations (DTO) operating 
in, and within proximity to Indian Country. One of the investigative 
techniques DEA employs on reservations is wire intercepts. A dramatic 
example of the success resulting from this method occurred on the Wind 
River Reservation in Wyoming. The Wind River Reservation covers an area 
of over 3,500 square miles, only slightly smaller than the state of 
Connecticut. Wyoming law enforcement did not have the authority to 
conduct investigations on the reservation and Bureau of Indian Affairs 
investigators had no jurisdiction beyond the reservation's boundaries. 
DEA was able to bridge this gap working with both of these law 
enforcement organizations, using wire intercepts to investigate 
methamphetamine trafficking onto the reservation. The investigation 
uncovered an organization with international ties responsible for 
trafficking over 100 pounds of methamphetamine to Indians at Wind 
River. The case resulted in eight indictments and extended to multiple 
judicial districts. This investigation is just an example of the 
successful cooperation of tribal, state, and federal law enforcement to 
improve safety and security in Indian Country.
    In addition, as part of the effort to strengthen the tribal 
response to crime in Indian Country, our Office of Justice Programs 
(OJP) spearheaded Interdepartmental Tribal Consultation, Training and 
Technical Assistance Sessions held in FY 2007 and FY 2008. OJP's next 
session will begin on August 18 in Billings, Montana. Another example 
is the work of OJP's National Institute of Justice, which, in response 
to Congressional direction, is developing a program of research on 
violence against American Indian and Alaska Native (AIAN) women.
    Finally, the Deputy Attorney General recently established and 
convened the Advisory Council on Tribal Justice Issues within the 
Department to periodically review and discuss issues and major actions 
affecting the Department's work in Indian country. The goal of the 
Council is to coordinate the actions of the many components at the 
Department involved in the issues and activities impacting Indian 
country. The Council will provide a forum for these components to 
consider avenues and share ideas that would strengthen the Department's 
dialogue with tribal governments about law enforcement and policy 
issues affecting Indian country.
    Now, let me turn to some areas of interest to the Committee. We 
join the Committee's efforts to strengthen the important relationship 
between the United States and those living in Indian Country. Federal 
law enforcement officers share a great responsibility with state and 
tribal law enforcement officers in responding to crimes in Indian 
Country. The Department shares the Committee's desire to increase law 
enforcement accountability in Indian Country through improved data 
collection and by leveraging tribal resources. The Department supports 
the effort to clarify the law with respect to tribal Special Assistant 
U.S. Attorneys. Additionally, we believe that it is important to ensure 
that there is a coordinated Department response to law enforcement 
needs in Indian Country. The Department is also committed to helping 
increase cooperation between tribal, state and local governments 
through our cross-deputization program and the re-authorization of 
various grant programs. Finally, we also share the Committee's desire 
to strengthen the tribal response to crime in Indian Country through 
training, additional resources and improved access to information.
    While the Department does not comment on proposed legislation, I 
would, however, like to highlight a few general areas of concern for 
the Department.
Declination Reports
    The Department is committed to improving Indian Country crime data; 
however, we oppose the concept of requiring the publication and 
disclosure of declination reports. While significant Indian Country 
cases are primarily handled in federal courts, caution should be used 
when comparing Indian Country statistics to other federal statistics. 
As was emphasized by my colleague, U.S. Attorney Diane Humetewa, 
previously before this Committee, declination rates do not show the 
full picture of the Department's actions in a given case. Indeed, 
``declination'' does not necessarily mean that the case will not be 
prosecuted. ``Declination'' may mean that the case will be prosecuted 
in a different forum, that additional work-up is needed or that no 
crime was committed. By requiring U.S. Attorney's Offices and other 
investigative agencies to prepare a detailed written report that 
contains information about why an investigation was either declined or 
terminated, the legislation would create potentially discoverable 
material outlining weaknesses in any subsequent criminal case.
    Furthermore, there is a significant difference in the type of cases 
that are often found in Indian Country. Indian Country cases often 
include reactive cases, such as assaults, robberies or homicides. In 
many instances, because of the unique nature of Indian Country, victims 
and witnesses may not be willing or able to come forth to testify 
against a defendant. Also, much time may pass before a victim comes 
forth, making the gathering of evidence more difficult than in a 
typical case. In contrast to those reactive cases, which often rely on 
the cooperation of lay witnesses, the typical federal case involves a 
proactive investigation by law enforcement personnel that may take 
months or years to complete and which will include wiretaps, document 
collection, and extensive grand jury proceedings. The typical federal 
case is therefore far less likely to be declined or fail to meet the 
very high burdens placed on the prosecution in a criminal case.
Establishment of an Office of Indian Crime in the Criminal Division at 
        the Department of Justice
    The Department strongly opposes the concept of establishing an 
Office of Indian Crime in the Criminal Division at the Department of 
Justice. While the Department understands and appreciates the concerns 
related to the prosecution of crimes in Indian Country, creating an 
office within the Criminal Division could have the practical effect of 
inhibiting the Department's efforts to combat violent crime. Foremost, 
creation of an Indian Crime office in the Criminal Division would take 
valued criminal justice experts away from the field. Currently, the 
Department's most experienced professionals on Indian issues serve in 
Indian Country, where their expertise has the greatest impact. Staffing 
an office centralized in Washington, D.C. would necessarily precipitate 
transferring many of these experts out of Indian Country, resulting in 
a significant gap of experience in the field.
    Within the Criminal Division, specific criminal matters are handled 
by attorneys with experience in that subject matter. For example, 
gaming matters related to Indian Country are handled by our Organized 
Crime and Racketeering Section (OCRS), matters involving child 
pornography on Indian Country are handled by the Child Exploitation and 
Obscenity Section (CEOS), and matters involving violent crime on Indian 
Country are handed by the Gang Squad (GS). The proposed office would 
risk removing attorneys from their subject matter expertise and have 
the unintended effect of hampering the Criminal Division's efforts to 
support the prosecution of crimes in Indian Country.
The Office of Tribal Justice and Tribal Liaisons
    The Office of Tribal Justice (OTJ) has been effectively serving 
Indian Country for many years. OTJ was established to provide a single 
point of contact within the Department of Justice for meeting the broad 
and complex Department responsibilities related to Indian tribes. The 
Office facilitates coordination between Departmental components working 
on Indian issues, and provides a permanent channel of communication for 
Indian tribal governments with the Department of Justice. The 
Department believes that the Attorney General is in the best position 
to evaluate and adjust the staffing and roles of those offices 
internally, as needed to maintain the appropriate allocation of 
resources, so the general proposal to elevate OTJ within the Department 
is unnecessary.
    Along the same lines, the Department strongly opposes the 
codification of the tribal liaison's responsibilities. As noted above, 
the Department fully recognizes the importance of tribal liaisons and 
currently has 44 tribal liaisons in districts with some Indian Country 
within their jurisdiction. Tribal liaisons have been effectively 
serving U.S. Attorney's Offices since that program began in 1995. Each 
tribal liaison is an expert in Indian Country crimes, but each U.S. 
Attorney's Office handles varying types of crimes and in differing 
numbers. For example, in districts where white collar crimes such as 
embezzlement and fraud are more prevalent the tribal liaison may focus 
on the Indian gaming industry. Other districts have more cases and 
matters dealing with violent crime. This diversity would make the 
suggested codification of the duties of tribal liaisons difficult and 
it would greatly reduce the discretion of each U.S. Attorney's Office 
to ably serve the Indian community in their district. The Department 
believes that each individual district is in the best position to 
evaluate the nature and volume of crimes within the district and to 
appropriately allocate resources. It is essential that U.S. Attorneys 
maintain this discretion in tailoring the role and scope of the tribal 
liaison program in their districts.
Expanding Tribal Court Sentencing Authority and BIA Arrest Authority
    The Department strongly opposes the concept of permitting tribal 
courts to direct offenders convicted by tribal courts to serve their 
sentences in federal prisons. The Bureau of Prisons (BOP) is 
responsible for the incarceration of inmates who have been sentenced to 
imprisonment for federal crimes. Based on continuing federal law 
enforcement efforts and limited resources for construction of new 
institutions, federal prisons continue to be very crowded. System-wide, 
BOP is operating at 37 percent above its capacity, and it does not 
expect crowding to decrease substantially in the next few years. 
Crowding is especially significant at high-security institutions 
(operating at 50 percent above capacity) and medium-security 
institutions (operating at 47 percent above capacity), where the 
majority of violent offenders are confined.
    For purposes of maintaining family ties and to effect an optimal 
reentry back into the community after release, the Department believes 
that the incarceration of tribal court offenders is best handled by 
local jurisdictions and BIA. The BOP attempts to designate an inmate to 
the appropriate security level institution that is within 500 miles of 
his or her release residence. Nevertheless, due to the location of BOP 
institutions and population pressures, this is not always possible; and 
many inmates are much further than 500 miles from their homes and 
families. BOP policy requires that inmates remain at an institution for 
at least 18 months with clear conduct before consideration of a 
transfer closer to their release residence. In all likelihood, if 
transferred to BOP facilities, tribal court offenders with short 
sentences would remain at their designated BOP institution for their 
entire sentence. Visits by family and friends to these tribal offenders 
would be severely restricted due to the great distance between the BOP 
institution and their home, and these tribal offenders would not be 
afforded the opportunity to participate in tribal reentry programs 
currently operating near the reservation out of the tribal jails.
    The proposals to expand tribal court sentencing authority to up to 
three years of imprisonment and to permit BIA law enforcement officers 
to make arrests for any misdemeanor crimes are significant changes in 
the current legal and law enforcement framework. While recognizing the 
purpose behind these proposals, as a former defense attorney, I am 
concerned about the impact of these provisions on defendants' 
constitutional rights and legal protections. It would be quite unusual, 
for example, for law enforcement officers to have blanket arrest 
authority for misdemeanors not committed in the officer's presence. The 
Department has had insufficient time to evaluate these proposals, but 
we will thoroughly and careful examine them.
Conclusion
    Mr. Chairman, Madame Vice Chair, this concludes my statement. While 
the Department does not comment on proposed legislation, I will be 
happy to attempt to answer any questions you may have.

    The Chairman. Thank you very much, Ms. Shappert. We 
appreciate your being here.
    Next we will hear from Kelly Stoner, and Ms. Stoner, thank 
you very much for being with us as well.

  STATEMENT OF KELLY GAINES STONER, DIRECTOR, NATIVE AMERICAN 
              LEGAL RESOURCE CENTER AND CLINICAL 
        PROGRAMS, OKLAHOMA CITY UNIVERSITY SCHOOL OF LAW

    Ms. Stoner. Good morning, Mr. Chairman, Madam Vice Chair 
and members of the Committee. I am Kelly Stoner, and I would 
like to thank the Committee for inviting me to participate in 
today's hearing.
    It is an honor to work with you all on this important 
issue. The Committee should be congratulated on their work 
regarding the proposed legislation and for taking the time and 
making the effort to seek meaningful input from tribal nations 
who, after all, have the ultimate interest in this issue.
    As the Director of the Native American Legal Resource 
Center and Clinical Programs at Oklahoma City University School 
of Law, I have gained experience working with tribes in 
Oklahoma and throughout the region on criminal and civil 
jurisdictional issues in Indian Country. Prior to joining the 
faculty at Oklahoma City University, I served as the tribal 
prosecutor for the Spirit Lake Nation in Fort Totten, North 
Dakota, for over eight years. In all, I have been practicing 
law in Indian Country for nearly 20 years. I teach classes and 
lecture nationally on these topics.
    Successful implementation of this proposal will depend upon 
three key issues which directly are tied to a showing of 
respect for the sovereign rights of tribal governments. First, 
a government to government approach must be utilized when 
dealing with Indian nations. A government to government 
approach ensures the proper deference for both sovereigns and 
maintains a focus on the thread of commonality that is 
important to both sovereignties, here, victim safety and 
criminal accountability.
    Second, continued consultation with tribal leaders, tribal 
officials and tribal communities is critical. Engaging in 
meaningful tribal consultation and obtaining tribal input 
during the process will facilitate the implementation of these 
proposed measures.
    Third, and not least by any means is funding. Funding 
should be included in each section of the proposal. As this 
Committee is well aware, each tribe is unique with respect to 
custom and tradition, as well as tribal resources that are 
available.
    The topic I would like to focus on today for my oral 
presentation is Federal accountability. As I stated earlier, I 
was a prosecutor at Spirit Lake for several years. I referred 
personally some severe child abuse and child sexual abuse to 
the United States Attorney. Many times I didn't know what 
happened to those referrals. Sometimes, a year or so later, I 
would get a denial letter. In that year's time, evidence grew 
cold, witnesses moved out of the jurisdiction and there was a 
high rate of turnover in tribal law enforcement. I prosecuted 
some of these cases in tribal court, but IGRA severely limited 
the sentencing power of the tribal court.
    Federal investigators and prosecutors need to be held 
accountable through an annual reporting process as set forth in 
this proposal. If the Department of Justice feels that 
reporting is too cumbersome or violates certain confidentiality 
statutes, perhaps a government to government consultation with 
tribes in the way of a scorecard or, if you will, a report 
card, that allows tribes to give meaningful input with respect 
to the tribes' opinion as to the effectiveness of the United 
States Attorneys' efforts in their areas. In my opinion, in 
Indian Country, there is an extremely high Federal declination 
rate, with no explanation provided to tribes. I never received 
a file with any information when I received a declination 
letter. And there is no accountability.
    In the case of Federal declinations involving a Native 
American victim and a non-Indian accused, no other population 
in the United States is told that no criminal justice 
consequences will be imposed on the non-Indian rapist, child 
molesters and murderers. These perpetrators continue to walk 
free in tribal communities. And these non-Indian perpetrators 
are free to re-offend and actually do re-offend, because they 
know that nothing will happen to them.
    Tribes have the right to know why or how these declination 
decisions were made. I agree with the Chairman from Standing 
Rock, the tribes have the right and should receive the entire 
file when a declination is made.
    I just recently facilitated two national roundtables funded 
by the Office of Violence Against Women. The topic that was of 
focus was domestic violence in Indian Country. These 
roundtables came about because Native people have to find some 
way to hold non-Indian abusers accountable for their actions in 
Indian Country.
    I would like to thank you for inviting me to testify, and I 
am happy to answer any questions the Committee might have.
    [The prepared statement of Ms. Stoner follows:]

 Prepared Statement of Kelly Gaines Stoner, Director, Native American 
 Legal Resource Center and Clinical Programs, Oklahoma City University 
                             School of Law
Introduction
    Good morning, Mr. Chairman, Madam Vice Chair, and members of the 
Committee. I am Kelly Stoner, and I'd like to first thank the Committee 
for inviting me to provide testimony for today's hearing. It is an 
honor to work with all of you on this important issue. The Committee 
should be congratulated on its work for the proposed legislation and 
for taking the time and making the effort to seek meaningful input from 
tribal nations who have the ultimate interest in securing their 
nations. Conducting listening sessions with tribal leaders, tribal 
officials, and professionals who work in Indian Country takes a 
necessary first step towards meaningful change and adequate deterrence 
of crime in Indian Country, and I thank the Committee for its 
thoughtful work.
    As the Director of the Native American Legal Resource Center and 
Clinical Programs at Oklahoma City University School of Law, I've 
gained experience working with tribes in Oklahoma and throughout the 
region on criminal and civil jurisdictional issues in Indian Country. 
Prior to joining the faculty at Oklahoma City University, I served as 
the tribal prosecutor for the Spirit Lake Dakotah Nation. I have been 
practicing law in Indian Country for nearly 20 years, and have unique 
academic, clinical and tribal government experience with crimes and 
Domestic Violence issues in Indian Country. Additionally, I am a 
national lecturer for both the Office on Violence Against Women of the 
United States Department of Justice and the American Bar Association's 
Commission on Domestic Violence, serving as a speaker for training 
sessions nationwide, and as a member of several national roundtables 
focused on addressing crime and Domestic Violence in Indian Country.
    The Native American Legal Resource Center (NALRC) at the Oklahoma 
City University School of Law serves as the academic law and policy 
center for students interested in Indian law and policy. Additionally, 
the NALRC provides a variety of services to tribal governments across 
the nation, including tribal court planning and development assistance, 
self-governance assistance in developing tribal codes and 
constitutions, and domestic violence services for tribal courts, tribal 
justice systems and tribal judges, as well as individual Native 
American victims of domestic violence, including representation and 
victim advocacy services. Our projects are funded by public and private 
grants.
    The Mission of the Native American Legal Resource Center is:

        The Native American Legal Resource Center provides capacity 
        building services to tribal communities and creates 
        opportunities for students, faculty, staff and the broader 
        University Community to utilize knowledge and resources to 
        serve the needs of Indian Country in a culturally appropriate 
        and efficient manner for a maximum positive impact.

Key Concepts for Success
    Historically, tribes were sovereign nations exercising plenary 
powers over any individual who came within tribal boundaries. Today, 
tribes maintain their status as sovereign nations, although some 
formidable limitations have been placed upon the exercise of tribal 
sovereign powers by federal law. While comprehensive tribal sovereign 
powers to assert criminal and civil jurisdiction over all individuals 
located in Indian Country should once again be recognized by the states 
and the Federal Government, the current status of the law and the 
government-to-government relationships between the Federal Government, 
state governments and tribal governments frustrates meeting that 
ultimate goal.
    The proposed legislation goes far to identify and address many of 
the overlapping issues in the relevant federal case law and federal 
statutes. By infusing the implementation process with the following 
principles, the Committee can increase the likelihood of the success of 
the operation of the proposed legislation.
    First, a government-to-government approach should be included in 
the preamble of the proposed statute. As sovereign nations, tribal 
governments have the ultimate interest in executing sovereign 
responsibilities and ensuring the safety of anyone who comes within 
tribal boundaries. A government-to-government approach ensures the 
proper deference for both sovereigns and maintains focus on the thread 
of commonality each must address, which is the safety of victims and 
criminal accountability issues.
    Second, continued consultation with tribal leaders, tribal 
officials and tribal communities is critical. Engaging in meaningful 
tribal consultation throughout the process will ensure the success of 
the operation of the proposed legislation. Gathering tribal input 
strengthens new programs, reduces unneeded bureaucratic barriers in the 
system, and facilitates transition of new ideas in the implementation 
of new initiatives.
    Third, funding should be included in each section of the proposal. 
Because of critical under funding of tribal programs, additional 
federal mandates without funding to carry them out present 
insurmountable burdens on tribes that may suffer from chronically 
limited funding.
Federal Accountability and Coordination Issues
    Holding federal investigators and federal prosecutors accountable 
in tribally referred cases is a key concern of tribes across the 
nation, as the lack of accountability of the current system frustrates 
maintaining law and order. For instance, when I was a tribal prosecutor 
for the Spirit Lake Dakotah Nation in Fort Totten, North Dakota, I 
would make referrals to the federal prosecutor regarding child abuse 
and sexual assault cases. Many times, I would never know what happened 
to those referrals. I might prosecute the case in tribal court but the 
sentencing provisions set out in the Indian Civil Rights Act, and the 
lack of adequate tribal detention facilities made the convictions 
toothless. In some cases, I would receive a declination letter from the 
federal prosecutor a year or so after the referral, but in the span of 
that one year, evidence grew cold, key witnesses moved outside the 
tribal jurisdiction and could not be located. Adding to those 
challenges was the exasperatingly high rate of turn-over in tribal law 
enforcement. In my discussions with others at various trainings and 
conferences throughout the United States, I've found that my experience 
mirrors that of tribal prosecutors and law enforcement across the 
country. This is an area that needs Congress' attention for a solution.
    Federal investigators and federal prosecutors need to be held 
accountable through an annual reporting process. Tribal leaders and the 
appropriate federal agencies should be given an update on the number of 
cases referred for investigation and prosecution, the number of 
declinations with details regarding the decision to decline to 
prosecute the case. Federal prosecutors should make the decision 
whether to prosecute quickly enough so that tribal prosecutors can 
continue with tribal court prosecution.
    The proposal suggests that qualified tribal prosecutors be 
appointed to act as federal prosecutors for the purpose of prosecuting 
cases in Indian Country. The qualifications for a tribal prosecutor to 
engage in federal prosecution should equal but not exceed that of other 
federal prosecutors. This arrangement is currently in practice in some 
states with much success. For purposes of implementation of this 
legislation, tribal governments should be consulted, government-to-
government, to have meaningful input on issues of hiring, salaries, 
office sharing and other common issues of both sovereigns sharing one 
position.
    The proposed legislation requires each jurisdiction to appoint not 
less that one Assistant United States Attorney to serve as a tribal 
liaison between the federal prosecutor's office and the tribal 
governments in each district. Should there be resistance by tribes in 
working with the new appointee, thoughtful implementation and ensuring 
the liaison is educated with respect to the cultures, norms and 
practices of the tribal communities in the district will address those 
concerns. Tribal communities and tribal leaders should be consulted and 
kept informed as to the issues being addressed by the tribal liaison.
Tribal Access to National Criminal Information Databases
    Tribes must be able to access and input data into the National 
Crime Information Center (NCIC) and other federal criminal information 
databases. The denial of access to these databases denies tribes access 
to critical criminal history on perpetrators. Precluding tribes from 
access to enter data into these databases sends a message that tribes 
are somehow not responsible enough or capable of being properly trained 
to enter data into these systems. That message is incredulous and 
exacerbates the intention of the legislation to provide government-to-
government forums for the comprehensive efforts of reducing crime in 
Indian Country. Further, all appropriate grants to provide funding to 
tribal governments for the building of infrastructure for 
implementation of these information systems should be authorized by the 
legislation.
Tribal Court Sentencing Authority
    Tribes have struggled to keep tribal members and citizens safe in 
the wake of alarming crime statistics. This proposal addresses the 
issue of one federal limitation on tribal prosecution, the Indian Civil 
Rights Act. \1\
---------------------------------------------------------------------------
    \1\ 25 U.S.C. Section 1301.
---------------------------------------------------------------------------
    The Indian Civil Rights Act limits the criminal sentencing power of 
a tribe to one-year imprisonment or a fine of up to $5,000 or both. The 
proposed legislation increases those limitations to up to 3 years of 
imprisonment or a fine of up to $15,000 or both. This increase in 
prosecutorial and sentencing authority is a positive step towards 
arresting crime in Indian Country, but the new requirement for tribal 
governments to provide criminal defense counsel places additional 
mandates on tribal systems that may not have the resources to comply. 
The legislation should address funding concerns in all new mandates for 
tribal governments.
    Another approach might be to engage government-to-government with 
tribes, giving each individual tribe the option of either operating 
under the current limitations of ICRA or under the proposed and 
expanded levels of ICRA. If a tribe elected to utilize the expanded 
sentencing parameters of the ICRA, funding should be made available for 
those tribes to use in employing public defenders, or tribes should be 
given access to resources funded by the federal agency for meeting the 
requirement of providing defense counsel.
Indian Country Crime Data--Tracking of Crimes Committed in Indian 
        Country--Tribal Data Collection Systems
    Without accurate data regarding criminal activity in Indian 
Country, it is hard to know the depth and scope of the problem in 
Indian Country. Even with the sobering statistics gathered by the 
Bureau of Justice and the Amnesty International Report, \2\ the 
severity of the issue may be grossly underestimated. Without accurate 
data, all involved sovereigns may be unable to directly address the 
particular issues faced within each tribe's borders. Furthermore, 
federal agencies must have access to accurate data in order to provide 
tribes with necessary services and personnel to meet the challenges. 
The successful implementation of comprehensive tribal data gathering 
will depend in large part on a government-to-government approach to the 
issue, continued consultation with tribal leaders, tribal officials and 
tribal communities and an adequate source of funding to carry out this 
task.
---------------------------------------------------------------------------
    \2\ www.amnestyusa.org/women/maze/report.pdf last visited January 
11, 2008
---------------------------------------------------------------------------
Domestic Violence and Sexual Assault Prosecution and Prevention
    National studies have consistently demonstrated that Native 
Americans are victimized at a rate 2.5 times higher than any other 
group. \3\ A recent report established that at least 86 percent of the 
violators in sexual assault cases involving Native American women were 
non-Indian. \4\ Pursuant to United States Supreme Court case law, 
tribes have no criminal jurisdiction over non-Indians. \5\
---------------------------------------------------------------------------
    \3\ www.ojp.osdoj.gov/bjs/intimate/ipv.htm last visited on January 
11, 2008.
    \4\ www.amnestyusa.org/women/maze/report.pdf last visited January 
11, 2008.
    \5\ Oliphant v. Suquamish Indian Tribe, 435 U.S. 191 (1978).
---------------------------------------------------------------------------
    The Committee is proposing to establish a Federal felony for 
violations of tribal protection orders that meet due process standards. 
Given historical events among tribes, states and the Federal 
Government, and the declination rates of many federal offenses 
committed in Indian Country, the key to the successful outcome of this 
section of the proposal is tribal communication and federal 
accountability.
    The Violence Against Women Act sets forth that full faith and 
credit should be given to all protection orders that meet certain 
requirements. Those requirements are:

        1. The order was issued by a court that had subject matter 
        jurisdiction over the matter;

        2. The issuing court had personal jurisdiction over the parties 
        pursuant to the issuing court's jurisdiction; and

        3. The issuing court gave reasonable notice and an opportunity 
        to be heard to the person against whom the order is sought. \6\
---------------------------------------------------------------------------
    \6\ Violence Against Women Act, 18 U.S.C.A. Sec. Sec. 2261-2266.

    According to the Act, all orders, including tribal court orders 
that meet these criteria, are entitled to full faith and credit.
    If the current proposal's intent is to make violation of a 
protective order a federal felony, but only in cases where the accused 
was provided defense counsel, the legislation should set forth clear 
language directing states that this measure in no way affects Section 
106 of the Violence Against Women Act. Should tribes be concerned that 
the states may hesitate or refuse to give full faith and credit to 
tribal protection orders where defense counsel was not provided, then 
clarifying language will allay those concerns. The language should also 
set forth that tribes maintain tribal sovereign powers to prosecute 
Indian violators of tribal protection orders that occur in Indian 
Country. Additionally, funding should be tied to the proposed 
legislation to increase the effectiveness of this section.
Domestic Violence and Sexual Violent Offense Training
    Oklahoma has a jurisdictional patchwork of tribal and non-tribal 
lands. It is not uncommon for a victim to call 911 for assistance only 
to be told that she lives on tribal land and must call the BIA. When 
the victim calls the BIA law enforcement, the victim is told that the 
act was committed on state land and she must call state law enforcement 
for assistance. Many Oklahoma tribes are moving towards cross-
deputization agreements for tribal and local law enforcement to address 
these issues, but the complexities of the jurisdictional queries 
remain.
    Alaska Natives are subject to confusing jurisdictional issues as 
well, and because of the remote nature of many Alaska Native villages, 
victims must wait many hours or even days before law enforcement 
arrives to conduct investigations. The result is a void that leaves 
many victims without protection.
    Despite the fact that one out every three American Indian/Alaska 
Native women will be raped in her lifetime, many law enforcement 
officers working in Indian Country lack knowledge on properly gathering 
and preserving evidence in sexual assault cases, including both 
investigative techniques and directing the victim to medical or other 
facilities for proper sexual assault examination.
    Law enforcement officers should be trained to work closely with 
tribal and/or local victim services agencies. Law enforcement officers 
should receive training to address complex jurisdictional issues, 
cultural norms and practices. Additionally, law enforcement officers 
must be trained to investigate offenses including sexual assault. 
Comprehensive training will increase conviction rates for domestic 
violence and sexual assault crime and may lead to prevention of those 
crimes. Funding for training law enforcement officers in Indian Country 
should be provided in the proposed statute.
    Trainings need to be provided on a regional level to accommodate 
tribes with limited financial and human resources. Some tribes may need 
training and technical assistance tailored to their specific needs, so 
a technical assistance provider should be made readily available for 
tribes to contact for assistance. Trainings should be designed and 
delivered by individuals or agencies that have extensive experience 
working in Indian Country.
    Thank you again for the opportunity to testify on this important 
issue. I am happy to answer any questions the Committee may have.

    The Chairman. Ms. Stoner, thank you very much. I should 
have, as I did at the start of this hearing, indicated that you 
are the Director of the Native American Legal Resource Center 
and Clinical Programs at the Oklahoma City University School of 
Law. Thank you very much for being with us.
    Mr. Walt Lamar is President and CEO of Lamar Associates in 
Washington, D.C., Mr. Lamar, you may proceed.

 STATEMENT OF WALTER E. LAMAR, PRESIDENT/CEO, LAMAR ASSOCIATES

    Mr. Lamar. Mr. Chairman, Madam Vice Chair, Senator Thune, 
good morning.
    I very much appreciate the opportunity to offer my remarks 
regarding the draft Indian Law and Order Bill. By way of 
introduction, I am Walter Lamar, and enrolled member of the 
Blackfeet Nation of Montana and a descendant of the Wichita 
Tribe of Oklahoma. I am a former FBI special agent and the past 
deputy director of the Bureau of Indian Affairs Office of Law 
Enforcement Services.
    At the risk of concentrating on the negative, I would like 
to set the context that puts us in this hearing today. It seems 
every two or three years there is a scathing report decrying 
the state of Indian Country public safety. Over and over, the 
symptoms of a broken system are reiterated; yet we remain where 
we were yesterday.
    In a 1975 BIA law enforcement publication detailing history 
of Indian Country law enforcement can be found the following 
words: ``Civilization has loosened, in some places broken the 
bonds which regulate and hold together Indian society and has 
failed to give people law and officers of justice in their 
place. Women are beaten and outraged, men are murdered in cold 
blood. The Indians are intimidated and preyed upon by the evil 
disposed; children are molested on their way to school, but 
there is no redress. It is a disgrace to our land. It should 
make every man who sits in the national halls of legislation 
blush. The effect of civil agents, teachers and missionaries 
are like the struggle of drowning men weighted with lead, as 
long as by the absence of law, Indian society is left without 
base.'' Bishop William Hobart Hare, quoted in an Indian 
Commission report dated 1877.
    In the late 1930s, a BIA official reported to Congress that 
many characteristics of the Indian criminal justice system 
remained as they were at the turn of the century. Jails were so 
inadequate that judges rarely committed anyone.
    Budget cuts for Indian Country law enforcement were so 
severe in the 1940s that by 1950, Senator J. Chandler Gurney, 
South Dakota, stated ``They cannot have a dance at night 
because there is nobody to control the peace of the 
community.'' Indian Commissioner John R. Nicholls told the 
Senator that the situation in his State existed throughout 
Indian Country. ``This is the lowest point in the history of 
law and order,'' Nicholls said.
    Amazing how this all sounds so very familiar. Was it indeed 
the lowest point?
    The Senate Committee on Indian Affairs is to be applauded 
for taking this affirmative step forward to ensure protection 
of Indian Country's citizens, visitors and residents. While 
this draft bill is a positive step, it is but a first step in 
addressing a very complex issue.
    Section 2 of the draft bill entitled Findings; Purposes 
clearly encapsulates the devastating issues facing Indian 
Country that have been documented in report after report. A 
former tribal prosecutor and judge commented to me that this 
draft bill potentially represents a dream come true.
    When dealing with a poorly-performing employee, a good 
manager will prepare a performance improvement report. I very 
much liken this draft bill to a performance improvement report 
for the Department of Justice and the Bureau of Indian Affairs, 
the Department of Interior. Public safety remains in a state of 
crisis. Most of the tools outlined in the provisions of the 
draft bill are already in the hands of the Government agencies, 
so we must then ask, why are they not being used to their 
fullest potential? Is it for lack of will, understanding of the 
issues or simply a lack of concern? I know there exist examples 
for all three, but typically it boils down to the issue of 
funding and resources.
    As an example, when I was the deputy director at BIA law 
enforcement over four years ago, we could count our 
headquarters staff on two hands. Little has changed since then. 
How can they possibly be expected to perform the monumental 
task at hand with less staff than it takes to run a fast food 
restaurant? Without attendant funding, the provisions of the 
draft bill will go simply unaddressed.
    The draft bill serves to establish the necessary lines of 
communication and defines areas of required accountability to 
bring true public safety to Indian Country. I will offer a 
number of comments which will be submitted in my written 
testimony. However, I will state with regard to the BIA Office 
of Justice Services, considering the tremendous importance of 
law enforcement, the draft bill should address the need to 
elevate the Office of Justice Services to the Bureau of Justice 
Services and properly re-delegate the current Deputy Director 
position to a Director position.
    Further, the Indian Law and Order Commission is potentially 
the strongest provision of the draft bill, and offers an 
opportunity to bring together top Indian Country experts to 
address the complex matters facing our tribal justice programs. 
However, the provision should encourage the consideration of 
Indian preference in commission selection.
    Section 2, Findings; Purposes, reiterate the United States 
holds distinct legal, treaty and trust obligations to provide 
for the safety of Indian Country. The trust responsibility 
obligation is negated by Federal performance-based funding 
requirements of GPRA and PART. How can trust responsibility be 
effectively carried out when tribes are not provided sufficient 
funding to perform effectively and then are penalized and not 
provided additional funding? Only through needs-based funding 
initiatives can tribal law enforcement ever reach parity with 
their State and local counterparts.
    Indian Country has the capacity to provide effective law 
enforcement which is demonstrated by the tribes that have 
financial resources to fund their public safety programs. So it 
is not a matter of if we can, it is a matter of the Federal 
Government meeting its obligation to provide the required 
funding and resources. It is my hope, my sincere hope that this 
intended legislation will give us that opportunity.
    I wonder, I wonder how many lives were needlessly lost or 
harmed in Indian Country in the time that it takes to hold this 
hearing? Thank you very much.
    [The prepared statement of Mr. Lamar follows:]

 Prepared Statement of Walter E. Lamar, President/CEO, Lamar Associates
    Honorable Chairman and members of the Committee, good morning. I 
very much appreciate this opportunity to offer my remarks regarding the 
Draft Indian Law and Order bill. By way of introduction, I am Walter 
Lamar, an enrolled member of the Blackfeet Nation of Montana and a 
descendant of the Wichita Tribe of Oklahoma, am a former FBI Special 
Agent and the past Deputy Director of the Bureau of Indian Affairs 
(BIA) law enforcement program.
    It seems every two or three years there is a scathing report 
decrying the state of Indian country public safety. Over and over the 
symptoms of a broken system are reiterated, yet we remain where we were 
yesterday.
    In a 1975 BIA law enforcement publication detailing the history of 
Indian country law enforcement are the following words:

        ``Civilization has loosened, in some places broken, the bonds 
        which regulate and hold together Indian society . . . and has 
        failed to give people law and officers of justice in their 
        place. . . . Women are beaten and outraged; men are murdered in 
        cold blood; the Indians . . . are intimidated and preyed upon 
        by the evil disposed; children are molested on their way to 
        school . . . ; but there is no redress . . . . It is a disgrace 
        to our land. It should make every man who sits in the national 
        halls of legislation blush . . . . the effect of civil agents, 
        teachers and missionaries are like the struggle of drowning men 
        weighted with lead, as long as by the absence of law Indian 
        society is left without base.'' (Bishop William Hobart Hare 
        quoted in an Indian Commission Report dated, 1877)

    In the late 1930's a BIA official reported to congress that many 
characteristics of the Indian criminal justice system remained as they 
were at the turn of the century. Jails were so inadequate that judges 
rarely committed anyone.
    Budget cuts for Indian country law enforcement were so severe in 
the late 1940s that by 1950, Senator J. Chandler Gurney, South Dakota, 
stated, ``They cannot have a dance at night because there is nobody to 
control the peace of the community . . . . Indian Commissioner John R. 
Nichols told the Senator that the situation in his state existed 
throughout Indian country. ``This is the lowest point in the history of 
law and order,'' Nichols said.
    Amazing how this sounds so very familiar. Was it, indeed, the 
lowest point?
    The Senate Committee on Indian Affairs is to be applauded for 
taking this affirmative step forward to ensure the protection of Indian 
country citizens, visitors and residents. While this draft bill is a 
commendable and positive step, it is but a first step in addressing a 
very complex issue. Section 2 of the draft bill, entitled, ``Findings; 
Purposes'' clearly encapsulates the devastating issues facing Indian 
country that have been documented in report after report. A former 
tribal prosecutor and judge commented to me that this draft bill 
potentially represents ``a dream come true.''
    As this honorable committee strives to protect Indian Country 
lives, we must examine the reasons Indian county public safety remains 
in a state of crisis. Most of the tools outlined in the provisions of 
the draft bill are already in the hands of the government agencies. So 
we must then ask why they are not being used to their fullest 
potential. Is it for lack of will, understanding of the issues or 
simply a lack of concern? I know there exist examples for all three, 
but typically it boils down to the issue of funding and resources.
    As an example, when I was Deputy Director at BIA law enforcement 
over four years ago, we could count our headquarters staff on two 
hands. Little has changed since then. How can they possibly be expected 
to perform the monumental task at hand with less staff than it takes to 
run a fast food restaurant? Without attendant funding the provisions of 
the draft bill will go unanswered.
    The draft bill serves to establish the necessary lines of 
communication and defines areas of required accountability to bring 
true public safety to Indian country. I will offer a number of comments 
which will be submitted in my written testimony; however, I will state 
with regard to the BIA Office of Justice Services; considering the 
tremendous importance of law enforcement the draft bill should address 
the need to elevate the Office of Justice Services to the Bureau of 
Justice Services and properly re-delegate the current Deputy Director 
position to Director. Further, the Indian Law and Order Commission, is 
potentially the strongest provision of the draft bill and offers an 
opportunity to bring together top Indian Country experts to address the 
complex matters facing our tribal justice programs; however, the 
provision should encourage the consideration of Indian preference in 
commission selection.
    Section 2., Findings: Purposes., reiterate that the United States 
holds distinct legal, treaty and trust obligations to provide for the 
public safety of Indian country. The trust responsibility obligation is 
negated by the Federal performance based funding requirements of GPRA 
and PART. How can trust responsibility be effectively carried out when 
tribes are not provided sufficient funding to perform effectively and 
are then penalized for the lack of performance? Only through needs 
based funding initiatives can tribal law enforcement ever reach parity 
with their state and local counterparts.
    Indian country has the capacity to provide effective law 
enforcement which is demonstrated by tribes that have the financial 
resources to fund their public safety programs. So it is not a matter 
if we can--it is a matter of the Federal government meeting its 
obligation to provide the required funding and resources. It is my hope 
that this intended legislation will give us that opportunity.
    I wonder how many Indian country lives were needlessly lost or 
harmed just in the time it takes to hold this hearing.
    Under Section 2, Findings; Purposes, mention should be made 
regarding the need for prisoner transport services. With the number of 
jail closures police officers are taken out of service for extended 
periods to transport prisoners hundreds of miles to and from jail 
facilities.
    Under Title I, Section 103, it should be noted that the 
responsibility for background investigations for Special Prosecutors 
will rest with the DOJ so as not to place undue burden on tribes.
    The requirement for the tribal liaisons to provide training 
sessions and seminars for Special Law Enforcement Commissions is a 
positive step toward minimizing the backlog of officers requiring the 
requisite training for SLEC certification.
    The elevation of the Office of Tribal Justice to a division and 
establishment of the Office of Indian Country Crime, overseen by a 
Deputy Assistant Attorney General at the DOJ will serve to place the 
rightful priority on Indian country. The DOJ must also move to create 
specific Indian country prosecutive guidelines that ensure aggressive 
prosecution, particularly when the crimes relate to drug trafficking.
    Title II, Section 202 (d), suggests that the financial resources of 
each entity to be taken into consideration of the grant process. The 
idea to incentivize tribal, state and local cooperation is diminished 
by considering the financial resources of each. Further, it would be 
appropriate to include verbiage under Section 202 that encourages 
Federal law enforcement agencies to participate on the DOJ funded 
teams.
    Title III, Section 301(a) needs to clarify the type of training. If 
the intent is to provide flexibility for Indian country police officers 
to chose alternatives to the Indian Police Academy for basic law 
enforcement training then it must further clarify that Tribal officers 
may opt to attend a state, local or tribal academy; however, BIA Police 
Officers must continue to be trained as Federal officers at the Indian 
Police Academy. It should be stressed that all basic training for 
Indian Country police officers must meet or exceed the basic training 
program of the Indian Police Academy. The Section refers to a National 
Peace Officer Standard of Training, there is no such standard, as each 
state has responsibility for developing their individual standards of 
law enforcement training.
    Title III, Section 303., Access to National Criminal Information 
Databases, must take into consideration that to have a terminal for 
access to National Criminal Information Databases, tribal law 
enforcement programs must meet a series of stringent measures intended 
to safe guard such information. Physical security, trained operators, 
operator security clearances, and dedicated secure connections all 
require funding, training and technical assistance. Such funding and 
training should be managed in the form of the DOJ grant process.
    Title III, Section 304., Tribal Court Sentencing Authority contains 
the provision to empower tribes to impose imprisonment beyond the 
current one year limitation is an important tool which will potentially 
lessen the United States Attorney case load while offering sentencing 
flexibility to tribal court judges. However, there must be a provision 
to ensure we are not simply warehousing our people. Detention 
facilities used to house Indian Country inmates must be able to provide 
culturally sensitive services that include at a minimum, educational 
programming, workforce integration training, substance abuse treatment 
and mental health care. The provision to utilize the Bureau of Prisons 
(BOP) on its face seems to alleviate long-term prisoner housing issues; 
however, sending Indian Country prisoners to BOP facilities raises 
concern. Prisoners will likely be separated from their Native 
communities by great distance and could be subjected to a more 
sophisticated and dangerous inmate population.
    Title IV, Section 402., Indian Alcohol and Substance Abuse. 
Recognizing there are unacceptable numbers of Native Americans injured 
or killed each year from alcohol related traffic accidents, this draft 
bill must call for the National Highway Safety Administration and BIA 
Indian Highway Safety's involvement in providing funding for reporting, 
training, equipment, enforcement and specific prevention initiatives.
    Title IV, Section 404., Tribal Jails Program. Recent history has 
proven that new detention facilities can be constructed; however the 
issue then reverts to an inability to open the facilities for lack of 
funding for recruitment, hiring, and training of new staff. In fact the 
former Director of BIA Law Enforcement, Theodore Quasula informed me 
that a newly constructed juvenile detention facility on the Hualapai 
reservation sets empty nearly a year after construction. Juvenile crime 
on the reservation is rampant to the point that the very juveniles who 
should be incarcerated in the facility are vandalizing it. Provisions 
must be in place to ensure appropriate funding is available to staff 
planned detention construction.
    Respectfully submitted,

        Walter E. Lamar

    The Chairman. Mr. Lamar, thank you very much.
    Mr. Ragsdale, I mean no disrespect by having you testify 
last, but I wanted you to have the opportunity to hear the 
other testimony. You represent the Department of the Interior 
and the Bureau of Indian Affairs here today. You are the 
Director of the Office of Justice Services at the U.S. 
Department of the Interior. I felt it would be helpful for you 
to hear the comments of a wide variety of other witnesses.
    We appreciate your being here, and we will recognize you 
for your statement.

 STATEMENT OF W. PATRICK RAGSDALE, DIRECTOR, OFFICE OF JUSTICE 
           SERVICES, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Ragsdale. Thank you, Mr. Chairman, thank you, Madam 
Vice Chair, and thank you, Senator Thune, for being here today.
    I will try to be mercifully brief, Mr. Chairman, to allow 
time for as many questions as the Committee has time for.
    I am pleased to represent the Department of Interior here 
this morning. I would like to first point out that Secretary 
Kempthorne has truly been a champion for law enforcement within 
Indian Country. When he first came on board, he had a five 
minute meeting scheduled for me for briefing. He took an hour 
and a half. At the conclusion of that meeting, he said, ``This 
should not stand. We have got to do something.'' Out of that 
commitment, he came forward with the Safe Indian Communities 
Initiative, which we are trying to implement today. Operation 
Dakota Peacekeeper is an outgrowth of the Secretary's 
initiative.
    I would also like to say that in terms of our 
relationships, that is, the Department of Interior and tribal 
law enforcement, in my view, our relationships are stronger 
with the United States Attorneys, the FBI, the other Federal 
agencies that we work with in collaboration to do casework and 
provide law and order on reservations.
    You have my written testimony on the scope of law 
enforcement authority and our responsibilities in the 
Department of Interior, so I will leave that for your review in 
the record.
    In terms of our meetings and discussions with tribal 
leaders, Secretary Kempthorne in 2006, in collaboration with 
NCAI, kicked off the Safe Indian Communities Initiative, which 
we are now in the process of implementing. We do regular 
discussions, consultations, with a number of my friends here at 
this table on a regular basis. We are usually talking about 
resources, facilities, points and issues of the day on case 
work and so forth.
    My perspective on all of that, everybody is dedicated to 
trying to get the job done and maximize the limited resources 
that we have to provide for basic law enforcement within Indian 
Country. My testimony reflects our comments on the crime data 
collection. I will just say briefly that our collection of 
crime data within Interior has been severely hindered by the 
loss of internet resources and accessibility to all of the 
array of Federal systems that are available to modern police 
departments throughout the United States of America.
    That hindrance, our inhibition to use internet, has now 
been lifted, so we look forward to rapidly coming forward to 
this century in terms of information technology.
    Turning to my written testimony concerning special law 
enforcement commissions, we currently have the authority under 
the 1990 Indian Law Enforcement Reform Act to maximize 
cooperative law enforcement throughout the Country. The Bureau 
of Indian Affairs has strongly encouraged tribes to do that. 
The inhibitions to that authority to deputize State and local 
officers is one that there must be consent by the tribal 
authorities involved, and also that sworn tribal and State 
officers under the agreement have to have the requisite 
training requirements in order to be deputized with Federal law 
enforcement commissions.
    One thing I wanted to say about our training. There has 
been some concern that Indian law enforcement officers are not 
properly trained in terms of domestic violence and how to 
handle those types of issues and crimes and crimes against 
children. Previously, I invited Committee staff, and I would 
also invite the Committee to do a serious review of our entire 
law enforcement curriculum, particularly the training that we 
provide Indian law enforcement officers. I believe it is second 
to none. Over 105 hours are provided to our basic police 
officers, both tribal and BIA, in domestic violence, crimes 
against children, both in written exercise, lectures and 
practical applications at our academy.
    Finally, turning to the issues of tribal sentencing 
authority, the concept in the draft bill, I will just tell you 
something I am sure that you are all keenly aware of, that 
there is limited detention space on or near most Indian 
communities. There are also limited funds to contract for 
detention bed space in a non-tribal or non-BIA facility. 
Extending sentences for longer than one year, provided there 
are actually facilities available, will result in a big 
increase in costs to both BIA and the tribal governments.
    Secondly, not all tribal courts have an effective appellate 
process. A defined, effective, consistent and transparent 
appellate process is important to ensure civil rights of 
individuals are protected.
    Third, consistency in standards and staffing among the 
facilities would need to be assured as well as constitutional 
concerns of due process and legal defense. A significant 
monetary commitment on both the Federal Government and the 
tribal governments would also be required to close these gaps.
    In closing, I want to pay tribute to the law enforcement, 
corrections and court personnel, as well as other public safety 
personnel, who work daily at all levels of the tribal, State 
and Federal sectors of the Government. They do their jobs 
sometimes at great personal sacrifice to the benefit of our 
Indian communities.
    I noticed this morning the notice about the Eastern Band 
Cherokee member that was killed serving with the North Carolina 
Highway Patrol. That is the daily type of risk that our police 
officers throughout this Country face. As we work to develop 
better public policy and implement better methods to address 
public safety issues, I hope we will keep in mind their daily 
contributions to make our communities safe and secure. They do 
their best to ensure a measure of peace and tranquility, 
reacting to emergency circumstances under too often adverse 
conditions with very limited resources. They also do their duty 
selflessly, so that our citizens go about their daily lives 
without fear of lawlessness. They are true heroes in this 
society.
    Mr. Chairman, members of the Committee, I thank you for 
providing the opportunity to testify. This concludes my 
statement.
    [The prepared statement of Mr. Ragsdale follows:]

Prepared Statement of W. Patrick Ragsdale, Director, Office of Justice 
               Services, U.S. Department of the Interior
    Mr. Chairman and Members of the Committee, I am pleased to provide 
testimony for the Department of the Interior, regarding concepts aimed 
toward improving and addressing law and order in Indian Country. 
Respectfully, the Department is unable to provide a position or comment 
specifically on draft legislation that has not been introduced at least 
a week prior to this hearing.
    The Bureau of Indian Affairs (BIA) has a service population of 
about 1.6 million American Indians and Alaska Natives who belong to 562 
federally recognized tribes. The BIA supports 191 law enforcement 
programs with 42 BIA-operated programs and 149 tribally-operated 
programs. Approximately 78 percent of the total BIA Office of Justice 
Services' (OJS) programs are under contract to Tribes as authorized 
under Public Law 93-638, as amended, or compacted to Tribes as 
authorized under Title IV of the Indian Self Determination and 
Education Assistance Act, as amended.
    The OJS provides a wide range of justice services to Indian 
country, including police services, criminal investigation, detention 
facilities, tribal courts, and officer training by the Indian Police 
Academy.
    Indian country law enforcement provides services to a population 
that is predominantly under the age of 25 and experiences high 
unemployment rates, and lacks municipal infrastructure. Indian lands 
range from remote wilderness to urban settings. The close proximity of 
a number of reservations to the international borders of Mexico and 
Canada make these locations the perfect targets for drug trafficking 
and other smuggling operations. Recent reports and news articles 
outline the challenges faced by criminal justice systems in Indian 
country. Crime rates on most reservations are unacceptably high.
    The Indian Law Enforcement Act of 1990 (25 USC 2801) and the 
regulations contained in Title 25 of the Federal Code of Regulations 
provide the statutory and regulatory authority for the BIA. Under this 
statute, the BIA provides basic police and corrections services while 
other federal agencies such as the Department of Justice (DOJ), the 
Federal Bureau of Investigations (FBI), the Drug Enforcement 
Administration (DEA), and the Bureau of Alcohol, Tobacco, Firearms and 
Explosives (ATF) also have responsibilities to investigate crimes in 
Indian country.
    Currently, the OJS consults with Indian tribes on an ongoing basis 
to address concerns in Indian Country. These consultations provide a 
dialogue between the OJS and the Tribes to address staffing concerns or 
budget matters through the programmatic, appropriations and budget 
development processes.
Strengthen Tribal Justice Systems and Recruitment/Retention Efforts
    The Department of the Interior's BIA provides several programs 
designed to strengthen Tribal justice systems. For example, the BIA 
operates the Indian Police Academy (IPA), which provides basic police 
training (16 weeks) and a variety of other police, jail and radio 
dispatch courses for tribal and BIA law enforcement and corrections 
officers. The IPA is co-located with the Department of Homeland 
Security's Federal Law Enforcement Training Center (FLETC) at Artesia, 
New Mexico. The IPA works with State and tribal police academies to 
permit training in their respective areas.
    The IPA staff provides basic coursework in policing, criminal 
investigations, and detention. In addition, the IPA offers numerous 
advanced training courses such as child abuse investigation procedures, 
domestic violence training, community policing, drug investigation, use 
of force, firearms instruction, archaeological resource protection, 
police management and supervision, crime scene processing, detention, 
and dispatcher training.
    Our training partnership has proven to be very cost-effective 
because we share trainers and facilities. The BIA and tribal criminal 
investigators receive specialized advanced training at the main FLETC 
facility in Glynco, Georgia. Select BIA and tribal law enforcement 
managers also participate in the FBI's National Academy in Quantico, 
Virginia. Many tribal communities choose to use respective state Peace 
Officer Standards and Training courses to supplement training of their 
police.
    Upon completion and graduation, the officers have the requisite 
Federal credentials to be commissioned to serve their communities. The 
training programs are unique to Indian country policing and are similar 
to other Federal policing and corrections training required by other 
Federal law enforcement agencies serving the Federal Government.
    Additionally, the OJS provides training for tribal court personnel, 
which is sponsored by the OJS Office of Tribal Justice Support and by 
the Tribes themselves. It is the BIA's goal to ensure that all training 
programs offer the best possible training to tribal and BIA law 
enforcement, corrections, and tribal court staff.
    In addition to the BIA's efforts to strengthen tribal justice 
systems, the BIA has centralized its law enforcement, corrections and 
tribal courts programs within one program management area titled the 
Office of Justice Services (OJS). This organization allows for a 
centralized focus of the administration and management of basic justice 
services as well as lending to a cohesive approach to program 
implementation that allows for unity and cooperation throughout 
programs.
    In an effort to improve recruitment and hiring within all service 
areas, the OJS is implementing a Recruitment Plan that includes task 
items for short, intermediate, and long term planning efforts. These 
efforts include, but are not limited to, increasing the personnel staff 
available to process and track status on OJS personnel actions; working 
to improve recruitment efforts at colleges and the military to obtain 
better qualified applicants; improving and streamlining the process for 
background checks; and investigating the use of other manpower 
resources from other qualified law enforcement providers.
Crime Rate Data Collection
    Currently, the BIA's crime data are collected by the OJS through 
monthly crime reports that are submitted by Indian Country 
jurisdictions (tribes and BIA law enforcement). The method currently 
used by OJS is as follows: crime reports that are collected are entered 
into an automated database tool that gathers law enforcement statistics 
at the lowest level. Crime data are entered at the field from the 
individual law enforcement agencies that are implementing policing 
programs. Tribal policing programs without direct access to the BIA's 
automated database tool submit hard copy information to their 
respective districts for input into the system.
    Crime data information submitted for entry into the system is 
verified by the agency and then is reviewed a second time at the 
District Commander level. The District Commander must then provide 
final approval before the crime data are used at the Headquarters 
Office for quarterly performance reporting and the development of other 
statistical reports that are made available to the Department of 
Justice. Since the Department's last statement for the record, the 
BIA's internet restrictions have been lifted and full internet access 
should increase the timely collection of crime data.
    In our effort to establish better management information systems 
for the collection of crime data, the OJS is considering the 
feasibility of the Incident Management Analysis and Reporting System 
(IMARS), which is a Department-wide information collection, analysis, 
and reporting system initiative. The concept behind IMARS is to provide 
a common information sharing capability across all participating 
functional areas within DOI for capturing and reporting law 
enforcement, emergency management, and security incident information. 
Once IMARS is available Department-wide, the OJS will determine the 
feasibility of providing an opportunity for tribal collection of crime 
data using IMARS.
    Increasing access to national crime databases and collecting and 
sharing crime data between agencies would assist in addressing crime in 
Indian Country, but such authority would require assurances in the 
protection of confidential information between all the entities 
authorized to access, input and share information on such databases.
Special Law Enforcement Commission (SLEC) Training and Certification
    In an effort to make special commissions available to tribal, 
state, and local law enforcement, the BIA encourages cross-
commissioning so that Federal, tribal, and state authorities can make 
arrests for each jurisdiction. For instance, BIA offers qualified 
tribal and state law enforcement officers Federal Special Law 
Enforcement Commissions (SLEC) so they can enforce federal law. This 
closes loopholes and allows police to focus on investigating the crime 
instead of sorting out jurisdictional details, which can be done later 
with the assistance of legal counsel.
    Supplemental training is provided by the BIA and, more recently, 
through the offices of the United States Attorneys to utilize both 
tribal and state law enforcement officers in Federal and tribal 
policing as authorized under the Law Enforcement Reform Act. The Office 
of the Solicitor and the United States Department of Justice offices 
determine extension of Federal Tort Claim coverage as authorized under 
the Reform Act. For the Committee's information, please find attached 
Table C, which illustrates the SLEC count for all District Locations.
    Increasing flexibility in commissioning state and local law 
enforcement officers to enforce all violations of federal law committed 
on Indian lands may a have a positive effect in addressing the law 
enforcement needs in Indian Country, however, such increased 
flexibility, presumably would require increased coordination between 
all entities who provide training to certify Indian Country law 
enforcement officers serving in Indian Country.
Tribal Sentencing Authority
    Current Federal law provides a ceiling on tribal court penal 
authority to sentences of no longer than one year and up to a $5,000 
fine for each offense. Some tribes currently sentence tribal offenders 
concurrently for more than one offense which, in the aggregate, can 
total more than one year. There are at least two major challenges faced 
by BIA and tribal corrections programs with the care of inmates subject 
to long-term sentences for non-Federal felony crimes committed in 
Indian country:

        1.) There is limited detention space on or near most Indian 
        communities. There are also limited funds to contract for 
        detention bed space in a non-tribal or non-BIA facilities. 
        Extending sentences for longer than one year will result in 
        increased costs to both the BIA and tribal governments.

        2.) Not all tribal courts have an effective appellate process. 
        A defined, effective, consistent, and transparent appellate 
        process is important to ensure civil rights are protected and 
        the tribes are not unduly subjected to habeas corpus claims in 
        Federal court.

    Tribal court penal authority to sentence offenders for longer terms 
and maybe choose alternate forms of incarceration may give rise to 
certain constitutional concerns and also federal policy concerns. 
Consistency in standards and staffing among the facilities would need 
to be assured in order to alleviate these concerns. Such consistency 
among the choices of incarceration, presumably, would again be a 
significant monetary commitment on both the federal government and 
tribal governments.
    Mr. Chairman and members of the Committee, I thank you for 
providing the Department of Interior's Bureau of Indian Affairs the 
opportunity to comment on the issues related to Law and Order in Indian 
Country. We will continue to work closely with the Committee and your 
staff, tribal leaders, and our Federal partners. I will be happy to 
answer any further questions you may have.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Mr. Ragsdale, thank you very much for being 
here and for your testimony.
    You heard the testimony of Ms. Stoner and Mr. Lamar. Their 
testimony said, look, we have such a serious problem here, a 
crisis of sorts. We have people that commit violent crimes, 
rape, sexual assaults and other things that are not even 
prosecuted, and walk around because nothing happened to them. 
Do you think that is the case? Do you dispute their 
representation of what is happening on reservations?
    Mr. Ragsdale. No, I don't dispute it. I am also a student 
of Indian history, particularly in terms of our warrior 
traditions that go back since time immemorial, about protecting 
our own communities. I would not disagree with the content of 
their statements.
    I would say that my experience, I spent about seven or 
eight years as a tribal police chief in eastern Oklahoma. The 
cooperation that I received from the U.S. Attorneys, whether I 
had an Indian defendant or a non-Indian defendant, was always 
outstanding. If I had a good, solid criminal case, the United 
States Attorney prosecuted, took it to grand jury and went 
through the process, both in the northern and the eastern 
districts of Oklahoma. We do have jurisdiction of non-Indian 
offenders that commit crimes in Indian Country.
    So I think what is happening, Mr. Chairman, and I have 
spent a lot of time, I have a lot of experience in Indian 
affairs, but I spent a lot of time in Indian Country as well, 
is that the rate of crime has jumped so much in the last decade 
or so that many of our police officers are like on a conveyor 
belt, they are responding and reacting to the incidents of the 
day. If that is all you do and you do not have the time to sit 
down and do the hard work of writing the investigation up, 
providing the criminal information to a prosecutor, whether it 
is a tribal prosecutor, State prosecutor or a Federal 
prosecutor, you don't get crimes prosecuted.
    The Chairman. I understand. That in itself undermines the 
law enforcement system.
    Ms. Shappert, we had testimony before Congress by a former 
high ranking Justice official who came to testify. She said 
U.S. Attorneys were reprimanded because they ``spent an 
excessive amount of time on Native American issues.'' We had 
another U.S. Attorney state publicly that the Justice 
Department doesn't care about prosecuting crimes on Indian 
reservations.
    I want to ask you to respond to that, and as I do, let me 
say that three months ago, we wrote to the Justice Department 
and said, tell us, how many declinations are there, how many 
cases do you decline, under what conditions do you decline 
them? What I heard back from the Justice Department just 
yesterday after three months was, at this time we do not have 
statistics that we believe accurately reflect the rate of 
declinations in Indian Country. That is all they say, we don't 
have any statistics.
    And yet what we hear anecdotally from around the Country is 
that declinations occur all the time. Sometimes for no 
purposes. I think Ms. Stoner mentioned, you wait for a year, 
then you get word back after a year, well, we're not going to 
pursue the case. At that point, the witnesses are gone.
    So tell me about this, because we have had testimony that 
Justice Department actually reprimands U.S. Attorneys that 
spend too much time on Indian cases.
    Ms. Shappert. First of all, I would like to note that when 
General Mukasey became the Attorney General, one of the first 
things he did was meet with Native American leaders from Indian 
Country. He had a meeting in his office with a number of 
leaders to talk about issues in Indian Country. Indian Country 
was not part of his background, but he made it a priority 
beginning early on in his term.
    He also made a trip out to Arizona for the express purpose 
of meeting with tribal leaders and members of the tribal courts 
in Arizona because he recognized that it needed to be a 
Department priority. I can only speak from my experience, 
Senator. I have never been reprimanded, discouraged or in any 
way inhibited in my ability or in my efforts to prosecute and 
forward the initiative in Indian Country. Let me tell you what 
this Administration is doing in that respect.
    With regard to the United States Attorneys in Indian 
Country, the Native American Issues Subcommittee regularly is 
meeting for purposes of advising the Attorney General. Not only 
were we out in South Dakota two weeks ago, we were there with 
the tribal liaisons, because we recognized, we are about to 
leave. But to continue the mission of the Department of 
Justice, we need to make sure that we empower the Assistant 
United States Attorneys who are working in Indian Country.
    Not only were we there, but the Deputy Attorney General 
sent representatives, the Executive Office of U.S. Attorneys 
was there, and we were there with other law enforcement. We are 
currently planning yet another meeting of the same components 
in Arizona for September. We are on the agenda for the Attorney 
General's Advisory Committee.
    You want me to talk about declinations.
    The Chairman. Yes, please.
    Ms. Shappert. Okay, glad to. There are two different kinds 
of cases that U.S. Attorneys prosecute, proactive and reactive. 
Proactive cases are the paper-intensive, grand jury-intensive, 
document-intensive Title III wiretap going after Enron cases 
that we typically do. The reactive cases are more akin to what 
we do in Indian Country and are frequently more akin to what 
local district attorneys do. They are the violent crimes, they 
are responding to issues of violent crime.
    Fully a quarter of the violent crime prosecuted by U.S. 
Attorneys is in Indian Country. It requires a different skill 
set and it requires a different criteria. When we accept a case 
for prosecution, a couple of things. First of all, we can only 
accept it if we can prove it beyond a reasonable doubt. We 
can't indict a case without being able to prove it beyond a 
reasonable doubt. Probable cause is not a high enough standard, 
because we are not only interested in protecting the rights of 
victims, we have to be concerned about rights of defendants, 
and do justice. So we don't indict a case if we can't prove it.
    When we are looking at a case in Indian Country, we are 
going to look to make sure it is Indian Country, we are going 
to look at whether the victim is an Indian or non-Indian and we 
are going to be looking at whether the perpetrator is an Indian 
or non-Indian. So we go through that kind of an analysis.
    The Chairman. I would understand you do that. My question 
is not, is there work going on. My question is about the result 
and the Justice Department says, we don't have the foggiest 
idea how many declinations there are. Now, you have heard the 
testimony here, you have heard it from Chairman His Horse Is 
Thunder, Chairman Garcia, you have heard it from Ms. Stoner. It 
seems to me that the system doesn't work.
    Let me make one other point. The current Attorney General, 
I understand your point about him. I met with him. I provided 
him the testimony by a U.S. Attorney who said, we were 
reprimanded. I talked about the crisis, and I appreciate the 
fact that he apparently took that seriously. My discussion is 
about a good number of years prior to that, in which we have 
seen this fester and build, and the violence continue.
    But my specific question about declinations is in response 
to Ms. Stoner and others that I have heard from repeatedly that 
you send a case up of a violent rape, you don't have the 
foggiest idea whether somebody is going to pursue it or not, 
and maybe you don't hear back for a year and a half, and they 
say, we have decided not to pursue it. If the Justice 
Department can't even tell us how many they have declined, I 
don't understand what kind of track they are keeping of these 
issues.
    Ms. Shappert. First of all, the Department of Justice is 
currently working through the Office of Justice Affairs to 
improve the quality of our stat keeping, which needs 
improvement and we are currently working on that. So that is a 
work in progress.
    And I would be glad to report back to this Committee as to 
what the Department is doing to improve their stat keeping.
    Secondly, sometimes cases are referred to another 
jurisdiction, be it the State or tribal court, for prosecution. 
Under the current status of the law, it is within the 
discretion of the U.S. Attorney whether to report our 
declination. We may not do it for a couple of reasons, Senator. 
One is, if it is an ongoing grand jury investigation, there may 
be confidentiality concerns. We may have a victim who is 
related to a tribal law enforcement officer. And our first 
concern will always be protecting the victim. So we may not 
disclose it if we are trying to protect a victim or certain 
witnesses. So we have those kinds of concerns.
    But with regard to the stat keeping, I will be glad to see 
that we report back to you. But we are working to improve our 
stat keeping.
    The Chairman. And this is not about statistics so much as 
it is about U.S. Attorney's office deciding that this ought to 
be in the front of their office rather than the back of their 
office, the serious requirement to prosecute felons on 
reservations.
    Mr. Ragsdale, let me ask you, are there, as Mr. Lamar 
indicated in his testimony and as I have heard before, are 
there juvenile detention centers that have been built, paid for 
and standing open unused at this point?
    Mr. Ragsdale. There are, sir.
    The Chairman. Tell me the reason.
    Mr. Ragsdale. The reason, one of the primary reasons is 
difficulty staffing them, staffing them and recruiting 
qualified people, because there is no place for them to live. 
That is one problem.
    Another problem is that some of the recent facilities that 
were brought online were not designed to keep the type of 
typical juvenile offender that we maintain in our systems today 
and need improvements.
    The Chairman. Let me ask you specifically about the 
provision in Mr. Lamar's testimony, the Hualapai Reservation, 
the juvenile detention center, newly-constructed, on that 
reservation, sits empty a year after construction. Juvenile 
crime on the reservation is rampant to the point of the very 
juveniles who should be incarcerated in that facility are now 
vandalizing the facility.
    What is the purpose of having that facility sit vacant, do 
you know?
    Mr. Ragsdale. There is not a good purpose for having a 
facility sit vacant.
    The Chairman. Why is it sitting vacant?
    Mr. Ragsdale. It is sitting vacant because of two reasons. 
One reason is that we have not been able to staff that facility 
with the necessary personnel, because it is located in a remote 
location. The current tribal council is proposing, originally 
the tribe wanted us to operate the facility, us being the BIA, 
as a direct operation. They have since decided that they want 
to contract out the facility and that they want to provide the 
service directly and are in the process of doing that.
    In the meantime, while we have been going back and forth 
with the tribe on the contracting issue, we have been trying to 
recruit, but have not been able to staff the facility 
adequately. And there are improvements that need to be made. 
Excuse me, I am thinking about another facility. I am sorry, 
Senator. I don't know that we need to make improvements at 
Hualapai. The issue has been primarily not being able to staff 
it.
    The tribal government also thinks that they need more money 
than we have allocated to run the facility. So that has been an 
issue between the tribe and us.
    The Chairman. You know, Mr. Ragsdale, I have been very 
critical of the BIA recently. It is, in my judgment, so 
bureaucratic, so difficult to see accomplishments coming from 
the agency. And I don't understand why it is not an emergency 
situation, when you have violent juvenile crime occurring, you 
have a new facility that is sitting there empty a year after it 
was built. Why is that not an emergency? You need to make 
things happen. I am so disappointed with the Bureau of Indian 
Affairs for its failure to make things happen, in so many 
different areas.
    Mr. Ragsdale. May I respond?
    The Chairman. You may respond, yes, of course.
    Mr. Ragsdale. Senator, from your perspective, I understand 
where you are coming from. The Bureau works with very limited 
resources. There is a system that we have to abide by doing 
security checks under the post-9/11 requirements. We have been 
working very hard to try to streamline the bureaucracy so that 
we can hire people. But even the personnel resources that we 
have available to us to focus on law enforcement issues is very 
limited. We are trying very hard, and the Secretary of Interior 
is right behind that effort to try and make that better. That 
is what we are trying to do.
    The Chairman. This limited resources thing, I don't hear 
anybody coming to these tables from the BIA saying, look, we 
have a crisis going on here, people are dying, there are people 
being raped, victims of sexual assault. The fact is, Senator 
Thune talked a bit about this at the start when we asked for 
some additional resources to go into the Standing Rock 
Reservation. This is not a third world country. This is part of 
our Country.
    The dilemma here is we have this fractionated law 
enforcement system that doesn't work at all, in my judgment. 
But this notion of not enough resources, I understand that, I 
believe that is the case. I would like somebody to come to the 
table who runs the BIA, and it doesn't matter whether it is in 
the past Administration or this Administration, that says, by 
God, we need more money to save lives and to help people. 
Nobody ever does that, because the requirement is to come to 
this table and support the Administration's budget.
    The last person that came to the table and said, I don't 
agree, we need more resources, got fired the next morning. The 
very next morning. So I understand why they all----
    Mr. Ragsdale. Well, Senator, I will tell you we need more 
resources, and I am not afraid to say that. I have testified 
before this Committee a number of times, and I have not tried 
to varnish over the situation that we have with regard to 
public safety in Indian Country. It is a national disgrace.
    The Chairman. I hope you are all right tomorrow morning, 
then.
    Mr. Ragsdale. We will see.
    The Chairman. But I appreciate that. And what kind of 
resources are necessary? How much are we short here? I know 
what we are short in health care, 40 percent of the health care 
needs are unmet, so we have rationing going on.
    But in law enforcement, it seems to me we are desperately 
short of doing what we need to do. How much do we need here?
    Mr. Ragsdale. Senator, we did a gap analysis. Typically we 
find, and there are variances, because there are some tribal 
law enforcement departments that do very well and put their own 
money and resources into it. But typically, we have about one-
third to one-half as many as you would find in the rest of 
America, as compared to rural law enforcement in America, which 
is not really a real high standard.
    With respect to detention and corrections, in my view, what 
the Administration and the Congress needs to do is to step back 
for a moment and look at the status of detention and what we 
are trying to provide throughout Indian Country. We have to do 
things differently. Everybody cannot have a detention facility. 
We have to strategically place detention facilities so that we 
can handle the kind of population that we have in our 
facilities.
    When I first got started in the Indian Bureau, which is a 
long time ago, most of our detention facilities were like the 
hometown jails, where somebody that was arrested for alcoholic 
behavior or misbehavior associated with alcohol, they were 
checked into the jail, they sobered up and then they came out. 
That is not the kind of offender that we hold in our jails 
today. We hold dangerous offenders serving one year or more 
terms that have come from every type of criminal activity from 
rape to homicide to serious assaults and all those things. The 
people that we used to hold in our jails we don't hold, because 
we can't hold them.
    The Chairman. I have so many additional questions, but I 
don't want to dominate this. The Vice Chair I know has 
questions as well. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. I know that 
Senator Thune has to leave, so I will defer to him for a few 
questions and then if I may ask my round. Thank you.
    Senator Thune. Thank you, Mr. Chairman. I want to thank 
Senator Murkowski for giving me an opportunity to ask some 
questions.
    I appreciate the testimony of the panel. It seems to me, at 
least, that there ought to be a basic expectation of people who 
live on the reservations, Indian and non-Indian, that public 
safety is going to be there. I think that is something that 
most people in America sort of accept as a basic premise, that 
that is something that their Government ought to be able to 
provide. And because of the trust and treaty responsibilities 
that the Federal Government has with respect to our 
reservations, the lack of public safety seems to me like a 
major failure. It is tragic, what we are seeing happening on 
our reservations, and the data bears that out.
    I think the thing I would like to get at, is the resource 
issue, and I think Mr. Ragsdale has spoken to that. I offered 
an amendment to the budget resolution this year, when it went 
through the Senate, to increase the funding for tribal justice 
by $200 million over a five-year period or $40 million a year. 
Senators Dorgan and Murkowski were supportive of that effort. 
But it seems to me that is a big--I don't dispute for a moment 
that that is an issue here. We have to do something to address 
the resource issue. But we have so many challenges and problems 
that we face on our reservations today, none of which can be 
solved until we deal with the basic fundamental issue of public 
safety. I just don't know how you can have children learning, 
absent having a secure environment in which to learn. You can't 
create jobs, you can't have economic development if you don't 
have public safety. You can't get a company to create jobs on a 
reservation if they are worried about vandalism or they are 
worried about crime.
    So many of these issues tie back to resources, it all 
starts there. I think this is the foundation of a lot of the 
issues that we are facing on the reservations today. So I just 
say that as a basic overall observation. I think that we have a 
responsibility, which perhaps because of insufficient funding 
we haven't met here. But I also think that we just have to have 
a focus from the BIA on this issue. That is not to say that to 
the detriment of other important work that the BIA is doing.
    But we have jails in our State of South Dakota. The Crow 
Creek jail closed on the assumption that the Lower Brule jail 
was going to open. It has not been adequately staffed. They are 
shipping people to Cheyenne River. We have all these ongoing 
issues with the wide geography that we have in South Dakota, 
2.4 million acres, as Chairman His Horse Is Thunder has 
testified on Standing Rock, and just inadequate law enforcement 
presence out there. It just goes up and down the chain.
    That is why I think this bill is so important, because 
there are so many issues that need to be addressed, some of 
which are policy-related, I think addressing the issue of 
tribal courts being able to put people in jail for longer than 
a year at a time is important. That seems to me to be, you have 
to know that if you are going to get involved in crime on the 
reservation, there are going to be consequences to that.
    But I guess I say all that in a circuitous way of getting 
around to a question. Mr. Ragsdale, I do want to ask you, 
because I think this Operation Dakota Peacekeeper could be a 
model that could be implemented other places around the 
Country, certainly on some of the reservations in South Dakota. 
So I would like to have you speak a little bit more 
specifically to that, perhaps Mr. Chairman, you could add some 
insights on that, too. I know this is an issue we have 
discussed on a number of different occasions.
    Mr. Ragsdale, when you were in South Dakota in the last 
couple of weeks and I had a conversation with you, you 
indicated that you had seen first hand and actually detained 
and made some arrests while you were out there. But this seems 
like a runaway problem, and the only way we are going to 
address it is to really attack that problem.
    I think that Operation Dakota Peacekeeper is, to me at 
least, an important first step. I am curious to get your 
reaction about how that has worked, how it might be used as a 
model on other reservations, and what is necessary in terms of 
resources to do that. Senator Dorgan raised the issue about 
resources, too. What is it, what do we need to do to bring some 
security to our reservations and how can this Operation Dakota 
Peacekeeper be a part of that solution?
    Mr. Ragsdale. Thank you, Senator. When Mr. Artman first 
brought up the idea about doing something at Standing Rock 
because of the problems and the issues and because of the 
concern of both States' delegations, I was kind of skeptical, 
because the problem boils down to having the right number of 
public safety personnel to cover a very large reservation. I 
sat down with my staff, we did some planning. We decided to 
employ our emergency service function team, which is set out to 
do national incidents like responding to hurricanes and 
national incidents and such. We have used that team to 
supplement the existing law enforcement operation that we have 
there.
    In terms of numbers, we have uniformed police officers 
integrated into the local police department, which about 
measures up to the gap analysis that we need. We have about 12, 
14 officers there to operate 24/7 over huge geographic 
differences. We have supplemented that with about 20 officers, 
which is still less than the gap, but it appears to be really 
making a difference.
    We have also sent in additional criminal investigators to 
assist in the difficult crime cases. We have people that are 
meeting with local officials on a daily basis. What we hope to 
do is, because we are not going to be able to sustain it for 
much more than three months, what we hope to do is to help the 
community find its way so that we can develop some community 
strategies, so that we can do better with the limited resources 
we have.
    It appears to be working. The community has accepted us. I 
was surprised when I was out there on the streets talking to 
the grandmas and mamas and little kids, how grateful they were 
to have police officers on the streets. I guess the point is, 
if we can do that at Standing Rock and make a huge difference 
and rally the community, to do the community policing that we 
would like to do, but if you are just reacting to incidents, 
you don't have time to talk to neighbors and set up 
neighborhood watches and work with the church leaders and so 
forth.
    So I am hopeful that if we can do that in three months at 
Standing Rock and make a difference, and as we start to 
withdraw that the community will be in better shape, and we may 
be able to employ this tactic at other places. As someone has 
pointed out, we chose Standing Rock because we had strong 
tribal support from the chairman, from the delegation. It seems 
to be working real well.
    But Standing Rock is not our worst reservation, by far. 
Standing Rock has six times the national violent crime rate. We 
have reservations that it is up to 32 times. We have 
reservations where police are just reacting, reacting, reacting 
to calls.
    The Chairman. Senator Thune, President Garcia has an 11:25 
departure for an airplane. So in the remaining minute before 
President Garcia has to leave, might we ask President Garcia, 
do you wish to comment on some of the other statements you have 
heard before you have to depart to catch an airplane?
    Mr. Garcia. Yes, Senator, thank you.
    The Chairman. Thank you, Senator Thune.
    Mr. Garcia. I think that if you have statistics like this, 
this model that we are just now talking about, you have the 
cost breakdown for a model, you have the effectiveness, because 
you have monitored it very closely. So roughly, what might 
happen is that there should be a suggestion that this is X 
amount of dollars that it costs, and if you can implement that 
same model throughout Indian Country to some realistic level, 
that automatically gives you a number that we ought to be 
requesting to take care of the crime rates and break the cycle 
of crime, if you will.
    But if that kind of data is not provided for you, like the 
question you asked, Senator, on what is the need, and so I will 
answer that question about what is the need. I think the 
funding level for BIA in terms of law enforcement, it is 
probably less than 20 percent of the needs in Indian Country, 
is the funding level that they receive. So in order to break 
the cycle of crime, we need that amount of dollars to move and 
to make some kind of impact.
    If we don't get that, then we are struggling. Because when 
does the budget cycle start and who implements that budget 
request? It comes from the President, goes through OMB, and so 
the only thing that I see the Bureau and the Department asking 
for is really honing in and trying to hold to the budget 
request that the President makes, and never mind the needs out 
there in Indian Country. It is a big dilemma. So I think that 
is why it is so important that the legislation needs to reflect 
that. I see that is where we are headed.
    But major, major change needs to happen. We can go on and 
on on criteria and performance and lack of funding and all of 
that. But I think this sets the tone for where we need to go. 
So I hope that is what we can do and I hope the funding comes 
with the legislation.
    The Chairman. President Garcia, thank you. Section 101 of 
the bill requires the BIA to submit an annual unmet needs 
report, so we would know their assessment of the quantity of 
unmet needs and the cost of it.
    Thank you very much for being with us.
    Senator Thune?
    Senator Thune. Thank you, Mr. Chairman.
    I will let you continue, Senator Murkowski, with your 
questions. But I would just like to, if I could, get maybe some 
perspective from Chairman His Horse Is Thunder, too. And I 
appreciate the fact that it takes a lot of leadership to make 
this model that is being attempted to be implemented here in 
the Standing Rock Sioux Tribe work, sometimes standing up 
against some forces that would not like to see it work. So I 
appreciate the leadership you have provided.
    But maybe just your thoughts about that, too, how this 
particular project has worked. I know it is early in terms of 
implementation, but I think the concern that most people have 
is how do we continue it after this three-month period, the so-
called surge is completed. I think again, I appreciate, a lot 
of things in this bill have been based upon input that we have 
received at all aspects of tribal justice. Hopefully the 
funding issue we can help address in the budget process. I 
recognize the need to do that.
    But we really need to get our arms around this. I don't 
know how we can continue to have huge populations of people 
living in fear. That is not right and we have to do something 
about it.
    I need to go before long, too, but Mr. Chairman, if you 
would care to comment about your observations about how this 
Peacekeeper operation is working, I would appreciate that.
    Mr. His Horse Is Thunder. Mr. Chairman, Senator Thune, it 
appears to be making a huge impact. As Mr. Ragsdale talked 
about the gap in law enforcement officers and the need that was 
on our reservation, that the gap analysis said we need 
somewhere around 36 law enforcement officers. Currently there 
are an additional 20 law enforcement officers on the 
reservation. We have 10 who were there before, we have 2 
unfilled slots, at least they are not there yet.
    So we have 30 police officers. It is close to what we need 
in terms of filling that gap. The most law enforcement officers 
Standing Rock ever had is in 1890. We had 45 law enforcement 
officers on the reservation. As soon as they arrested and 
killed Sitting Bull, then the number of law enforcement 
officers started to dwindle on our reservation, to the point 
today we only have 10.
    The Dakota Peacekeepers operation, it is a good operation. 
But you hit it on the nose, Senator, and that is, what happens 
after three months, when these 20 law enforcement officers then 
leave? Do the criminals then come back out of the woodwork? 
That is a concern.
    In terms of what Mr. Ragsdale talked about, that is 
engaging the community, the churches, the district communities, 
myself as well, too, in trying to bring the resolve back to the 
community in terms of, they have an obligation to take care of 
some of the problem, it is not just a police officer problem, 
it is a community problem. We agree. It is a community problem, 
it is.
    However, with lack of police officers there, I am afraid 
that in many ways it will revert back to the same reservation 
it was before, that we do need additional dollars in order for 
the community to stay engaged, to have some of the resources it 
is going to need to supplement, if you will, the lack of law 
enforcement officers. If we had community security forces, we 
wouldn't need to be paying nearly as much as regular law 
enforcement officers, but resources to engage the community in 
terms of having foot patrols in the communities, programs to 
engage the youth, the Boys and Girls Clubs are starting to pop 
up on the reservation, but they are severely under-funded. 
Opportunities for children to engage in other activities other 
than criminal activities would be great. So taking a look at 
resources for those types of programs, in the end it comes down 
to resources.
    Right now, it is a good influx of police officers. It does 
create one additional problem for us, and that is our court 
systems. Our court system is arraigning people now seven days a 
week and our jails are full. We have not been given the 
additional resources we need to man our courts to keep up with 
the number of criminals that are arrested on the reservation.
    It is a good surge, it is making a difference. I don't 
think we are going to have the resources to continue, with 
community support for it, once the surge ends. As Mr. Ragsdale 
talks about, this peacekeeping pilot was a pilot program to 
test their abilities to respond to emergencies, such as 
hurricanes and floods, et cetera. Hurricanes and floods go 
away. The regular police force that was in those communities 
where they had hurricanes and floods, et cetera, don't have as 
big of a task once those natural disasters are taken care of. 
This is not a natural disaster here, we need a long-term 
solution.
    The Chairman. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. Thank you all 
for your testimony.
    We all appreciate that funding is the crux of so much of 
the problem. If you don't have adequate funding, it is very 
difficult to institute any of the initiatives. But Chairman His 
Horse Is Thunder, I appreciate the recognition, as you spoke in 
your opening comments, for instance, when you talk about the 
level of consistency with law enforcement, having the available 
number of law enforcement, it is not just the numbers. It is 
the quality of the training that they have.
    But we have to appreciate that it is not just a situation 
where you are able to hire a certain number of qualified 
individuals, train a certain number. You then have the issues 
that we face, certainly on your reservation, but we face it up 
in the State of Alaska, we are trying to get law enforcement 
individuals out into very remote areas, areas where the 
environment is not hospitable, you are not on the road system, 
you are not connected, you have lots of different things going 
against you. You don't have support for those that are 
providing the law enforcement there. And then you don't have 
basic services. And housing is the most basic. If you can't 
provide for a place in a rural area, you have a trained 
individual who is willing to come out, willing to make that 
commitment. ut if your family is miserable out there because 
you are crammed into very inhospitable spaces, I appreciate 
your reminding us that it is not just about getting a certain 
number of individuals to sign onto a program. There s a whole 
host of other factors that allow for success in making sure 
that we have the quality individual, and those folks that are 
able to do their jobs.
    I don't know what the answer is. I know in Alaska, as we 
were looking at our teacher shortage issue, we had to make a 
commitment to build housing for our teachers in certain 
villages. We have to have housing that is provided by the 
villages to those who are willing, the village safety officers, 
that are willing to come in. Otherwise, there is no way that we 
can keep them.
    So as we look to the law enforcement issues, I think we 
need to recognize that it is bigger than just the prison 
facilities, the detention facilities and the numbers. We have 
to have the other aspects of a quality life there as well.
    I wanted to ask you, Ms. Shappert, because you have 
indicated that the Department opposes placing the Indian 
defendants in the Bureau of Prisons facilities. Yet the reason 
this is in the draft is because nearly all the tribes have no 
detention facilities, or very limited space available. If we 
can't support using the Bureau of Prisons facilities, what is 
the alternative? Where do you go? What do you do?
    Ms. Shappert. I think I have to reiterate the same issues 
of resource that we have heard from the other members of the 
Committee. But let me try to explain some of the concerns we 
have about BOP in particular.
    As I think you are probably aware, Senator, the Bureau of 
Prisons right now is 37 percent over capacity. Most but 
certainly not all the prisoners in the detention facilities in 
Indian Country right now are one year offenders. Many of them 
have much less serious criminal records than the people in the 
Bureau of Prisons.
    If we put them into the Bureau of Prisons, a couple of 
things. First of all, on a one year sentence, they may never 
make it into BOP. They would be housed in a detention facility 
or a State or local jail that is contracted with BOP, because 
their sentences are so short they wouldn't actually get to BOP. 
So they may not actually have the advantages of the BOP 
resources.
    The other concern that we have heard raised by some of the 
tribes is that if they are placed in Bureau of Prison Federal 
detention facilities, any infractions or violations of the law 
implicate Federal law and they are subject to punishment under 
Federal law.
    The third thing I would ask you to do, and we will be glad 
to provide it, is look at a map of where the BOP facilities are 
in the United States and juxtapose it with Indian Country. 
There are not many BOP facilities in Indian Country. So as a 
practical matter, somebody who was convicted in the Great 
Plains, if they were to go into BOP, might be housed in 
Florida, might be housed in Pennsylvania. And in respecting the 
sensitivity of ethnicity and tribal relationships and family 
communities and the need to maintain those ties in Indian 
Country, we are going to lose that if individuals are housed 
1,000 miles from where they are otherwise.
    Senator Murkowski. And we appreciate that. We are faced 
with the same situation in Alaska, where we send many of our 
prisoners, many of whom are Alaska Natives, they go down to 
Arizona. It is not the ideal situation. But it does seem to me 
that this is an area that we have to be thinking creatively 
here.
    Mr. Ragsdale, you had mentioned in your comments 
constitutional concerns that you have, not you necessarily, but 
that the Department may have with increasing the tribal court 
sentencing authority as well as placing the Indian defendants 
in the Bureau of Prisons. Can you elaborate a little bit more 
on what you believe those constitutional concerns to be?
    Mr. Ragsdale. Yes, ma'am. Typically, as you know, the 
Federal law sets the maximum amount of punishment to $5,000 and 
one year in jail, which in this Country is considered a 
misdemeanor, even though it may be a felony type crime that 
someone has committed that the tribe has adjudicated. All 
tribes do not provide defense attorneys. I know the Navajo 
Nation does, the Cherokee Nation does, I don't know about the 
Eastern Band. But there is not a requirement. So that is one 
issue that would probably have to be addressed.
    The other issue would be, there are, and this is a 
sovereignty issue, is there is a lack of separation of powers 
between, in many of our tribal government institutions, which 
is not necessarily bad. But it would raise those kinds of 
concerns and for both the tribe and the United States of 
America, in my opinion, to ensure, there would have to be, in 
my opinion, some reform or consistency overall within the 
tribal court system.
    Senator Murkowski. I have more specific questions about 
certain provisions in the draft bill that I will direct to 
individuals by way of written questions. But I wanted to ask 
you, Mr. Lamar, because of your experience with the BIA and in 
law enforcement, in Section 104 of the draft legislation, where 
an office of Indian Country crime within the DOJ Criminal 
Division is created, this has been objected to by the 
Department of Justice because they believe that it may pull 
Indian Country experts from the field.
    What do you think about this as a concern? And kind of give 
me your comments on how you think this new office that we are 
proposing would assist in prioritizing or coordinating 
activities between DOJ and how they relate to law enforcement 
in Indian Country?
    Mr. Lamar. I think, number one, such an office would 
probably be able to pull up the statistics rather quickly with 
regard to the declination rates in Indian Country. I know when 
I was at the FBI, we had a fairly sophisticated records 
management system back then, in the mid-1990s. In the mid-
1990s, there was a question from the FBI agents with regard to 
the number of declinations. They felt like those declinations 
were inappropriately high. So it is a push of a couple of 
buttons on a computer that says how many cases were presented 
to the United States Attorneys, how many were closed on 
declination. So those numbers are actually readily available, 
and I am surprised----
    Senator Murkowski. You just need to ask the right division, 
is that what you are suggesting?
    Mr. Lamar. I think the numbers are readily available, and 
it is a matter of saying, let's find out what this really is 
and let's give an inkling to this Committee, is it really an 
issue and how large is the issue.
    The Chairman. Might I just ask, if you would yield on this.
    Senator Murkowski. Yes, please.
    The Chairman. The Justice Department presentation to us 
yesterday, dated June 17th, says ``We do not have statistics 
that we believe accurately reflect the declinations in Indian 
Country.'' Do you say that is not accurate?
    Mr. Lamar. Well, I wouldn't say that that is not accurate, 
because that would leave out the Bureau of Indian Affairs 
declinations, and would only account for the FBI declinations. 
But I think it would give an inkling, because the FBI is a 
primary investigative agency in Indian Country with regard to 
those crimes. So I think that would give an idea, is it really 
the problem that we think it is. I believe that it is. I 
believe that those numbers are going to be extremely high.
    So I think that division would be able to then concentrate 
the right priority on Indian Country. The Department of Justice 
has previously come in this very room and testified that there 
is no further need for funding for detention facilities. When I 
was at the Department of Interior, we were begging for 
additional dollars to continue to build facilities. Though we 
had a hard time, as does Mr. Ragsdale, with funding and 
staffing those facilities, we continued to ask for money to 
build facilities because the need was there. Yet the Department 
of Justice testified that the need was not there and that the 
current facilities were only 79 percent filled.
    Clearly, we need more facilities in Indian Country. I think 
that the Department of Justice, given Indian Country the right 
priority, will be able to answer those questions, will be able 
to respond stronger in Indian Country to the crimes that are 
presented. Clearly, their resources as well are tapped. But if 
you have 25 percent of your violent crime that is associated 
with Indian Country, are 25 percent of the resources at the 
Department of Justice dedicated to that?
    When I left the Department of Interior, the Department of 
Interior is one of the largest Federal law enforcement, 
represented one of the largest Federal law enforcement 
contingencies in the United States. So I would say that here 
you have the Bureau of Indian Affairs occupying about three or 
four offices at the end of a wing, and an entire building that, 
a Department that represents a law enforcement agency of that 
size from the Park Service of BLM, Reclamation and so on. Why 
aren't some of those folks moved over and detailed to Bureau of 
Indian Affairs to help them solve some of these tremendous 
problems?
    Senator Murkowski. I appreciate your response, sir. I think 
it is helpful. I recognize that oftentimes around here, it is 
not only asking the right question, but making sure that it is 
exactly the right person that you are asking that question to. 
It is somewhat frustrating that the Chairman has received a 
letter saying, we can't give you the information that some of 
you believe is available, perhaps just not as fully as they 
would want.
    I would like to point out, and President Garcia mentioned 
this, that in his opinion, this draft legislation wasn't, I 
don't think he used the term wasn't complete, but that one of 
the areas where there was an absence was as it related to 
Alaska Natives. We recognize that many of the issues as they 
relate to law enforcement and jurisdiction are different in 
Alaska than they are in the lower 48, and that has been one of 
the reasons why we have been a little more reserved as this 
legislation, or this draft legislation has gone forward. Our 
State Attorney General has expressed some concerns with the way 
the legislation is drafted at this point and just how Alaska 
fits in. So it is something that I want to work with you, Mr. 
Chairman, as we advance this.
    But listening to the testimony this morning, the concerns 
that are raised, I heard good comments about the general 
direction. There were some good suggestions in terms of those 
areas where we perhaps have not yet addressed. So I think this 
is the start of a very meaningful dialogue on an issue that is 
of great importance across the Country. I look forward to 
working with you and other members that are currently co-
sponsoring this, to see if we can't make a difference. Knowing 
that we thought we did something good back in 1990, and then 18 
years later, we realize we are no further along than many of us 
thought. So I would like to know that we can advance this. I 
look forward to working with you.
    The Chairman. Senator Murkowski, thank you very much. I 
look forward to working with you as well.
    Mr. Ragsdale, thank you for being here and for being candid 
with us. I am candid with you about my frustrations with the 
BIA. I hope, I mean, I think we need the BIA to work and work 
well, work aggressively, work smart on a wide range of issues.
    I happen to think we are under-funded on a wide range of 
things, including health care, housing, education and law 
enforcement. We are going to work to try to address all of 
those issues.
    Today's hearing was about law enforcement. I think the 
information given us by a number of witnesses describes the 
urgency here. Ms. Stoner, thank you for your background and the 
years you have spent in these areas. I notice you indicated you 
were at Spirit Lake, you were a tribal judge, I believe, at 
Spirit Lake for eight or nine years?
    Ms. Stoner. Tribal prosecutor, yes.
    The Chairman. At the Spirit Lake Nation. And you are now in 
academics, but you are contributing as well to the same area, 
and we appreciate that.
    Mr. Lamar, thank you for your candid observations and 
helpful observations. Ms. Shappert, thank you for traveling 
here to give us the perspective of the U.S. Attorneys. Chairman 
His Horse Is Thunder, as always, thanks for your leadership day 
to day on one of our Country's important Indian reservations.
    The hearing record will remain open for two weeks for 
additional submissions to the record. We likely will be 
submitting additional questions to witnesses and ask that you 
would respond.
    This hearing is adjourned.
    [Whereupon, at 11:50 a.m., the Committee was adjourned.]
                            A P P E N D I X

Prepared Statement of Hon. Floyd Jourdain, Jr., Chairman, Red Lake Band 
                          of Chippewa Indians
    Mr. Chairman, I thank you and the other distinguished members of 
the Committee for this opportunity to provide testimony on behalf of 
the Red Lake Band of Chippewa Indians (the ``Tribe''). My name is Floyd 
Jourdain, Jr., and I am the duly-elected Chairman of the Tribal Council 
of the Red Lake Band.
    The focus of my testimony will be on the Tribe's juvenile detention 
facility, which was constructed in 2005 mainly with Department of 
Justice (DOJ) corrections facility grant funds, but which has sat empty 
for the past three years because the BIA failed in its commitment to 
provide staffing and operational dollars.
    In the mid-1990s, the DOJ launched its Indian Country Justice 
Initiative to enhance and streamline its support for tribal community 
law enforcement programs. For several years beginning in 1999, Congress 
appropriated $34 million annually to DOJ to award correctional facility 
grants to tribes for the purpose of repair or replacement of 
dilapidated detention facilities.
    In the 1990s, Red Lake was in dire need of a new detention 
facility. Our old jail was nothing more than an old storage garage 
designed for our Red Lake Forestry program that was converted in the 
1970s for use as a jail, law enforcement center, and courthouse. The 
facility was severely overcrowded and had been condemned by the BIA.
    Between 1999 and 2001, the Tribe was fortunate to receive a DOJ 
Corrections Facility grant to build two detention facilities. The first 
detention facility (Phase I) was a 42-bed, medium security facility 
designed primarily for adult detention, but with capabilities to house 
an additional 26 juveniles on a short-term basis. The second detention 
facility (Phase III) was a 24-bed, minimum-security juvenile detention 
facility, designed for longer-term stays, and with counseling and 
classroom education capabilities.
    The BIA participated in the development of both facilities by 
providing design funding, and by reviewing and approving the designs 
prior to construction. The two buildings were inspected by the BIA 
after construction, and both facilities were certified for occupancy by 
the BIA. The BIA owns the two facilities and has provided Facility 
Operations and Maintenance funding for both buildings since the time 
the BIA approved their occupancy. The BIA also provided furnishings for 
both facilities, including flat screen televisions, bunk beds, desks, 
and other equipment for the Phase III juvenile detention facility.
    The initiative to repair and replace Indian Country jails was to be 
a partnership between DOJ and BIA. Funds to construct facilities were 
to be provided by the DOJ and funds to staff and operate the new 
facilities were to be provided by BIA. The BIA did provide funding for 
staffing and operation of the Tribe's Phase I adult detention facility 
since it was opened in 2003. But the BIA has provided no funds for the 
operation of our Phase III juvenile facility, despite multiple promises 
to do so.
    In August of 2004 the Tribe held its CY 2005 Self-Governance 
negotiations with BIA and OSG. At that time, construction of the Phase 
III juvenile detention facility was nearing completion, and was 
expected to be operational in CY 2005. The Tribe, during its 
negotiations, requested staffing and operations funding for the 
juvenile facility in the amount of $1,218,482, consistent with the 
Tribe's operational budget for the facility. The BIA agreed by contract 
to assist the Tribe in obtaining the $1.2 million for staffing and 
operations in CY 2005. Additionally, the BIA agreed by contract to 
include $1.2 million in funding for the juvenile facility in the next 
President's budget request (FY 2006). The Tribe relied on the BIA to 
follow through with its contractual commitments to the Tribe and to 
honor its partnership agreement with DOJ by requesting the funds to 
staff and operate the Tribe's new juvenile detention facility.
    In 2004, a few months before the BIA agreed to provide funding for 
the Tribe's juvenile facility for CY 2005, this Committee and the 
Committee on Finance held hearings on the Interior Department's Office 
of Inspector General Report: ``Neither Safe Nor Secure: An Assessment 
of Indian Detention Facilities.'' General Devaney told the Finance 
Committee on September 21, 2004, that:
    BIA-LES was unable to produce any annual budget submissions for our 
[OIG] review. We later learned that BIA-LES managers use historical 
funding levels as their new annual budget requests and have rarely 
asked for actual budget increases. In addition, we discovered that BIA-
LES does not seek to obtain accurate or realistic budget projections 
from detention facility administrators. In fact, funds allocated to 
individual jails by BIA-LES are not even tracked. Their failure to make 
an effort to assess the true cost of operations or to have any internal 
controls in place becomes a self-fulfilling prophecy.
    These fiscal management failures also impact new detention 
facilities built with funds awarded as grants by the Department of 
Justice (DOJ). Since 1997, DOJ has provided over $150 million in 
construction grants for new detention facilities. However, these grants 
are only for construction of the facility. BIA is then responsible for 
providing the funding for operational costs. Given the poor budget 
planning and execution by BIA-LES, it was not surprising to learn that 
facilities completed with DOJ grant monies often do not get the 
necessary funding to actually open for business.
    General Devaney forecast what would happen to Red Lake a year later 
when BIA abandoned its contractual obligations to Red Lake. We received 
no funds in CY 2005. The BIA failed to request funding for the Tribe's 
juvenile facility in the FY 2006 budget and provided no other 
assistance to the Tribe to obtain such funding.
    The Tribe was shocked to learn of this breach of contract and 
breach of trust. The Tribe needs this facility to be opened and 
operated. It is intended to help us deal with a significant number of 
youth involved with drugs, alcohol, violence, and gangs. Many of these 
youth have been in and out of our tribal court system and are often 
released because they are too vulnerable or too young to be placed in 
the adult detention facility. The purpose of the Phase III juvenile 
facility is to house and rehabilitate these young offenders and turn 
their lives around before it is too late.
    About the time we first learned of BIA's failure to honor its 
commitments to the Tribe, the tragic events of March 21, 2005 unfolded, 
in which a troubled juvenile went on a shooting rampage at our 
Reservation high school, killing 10 people, including himself. After 
the tragedy of March 21, the Tribe reached out for assistance for its 
youth and received some aid, including the ultimate realization of a 
new Boys and Girls Club facility from non-BIA sources. But the Tribe 
still needs a juvenile detention facility to deal with troubled teens 
who currently are sent through a revolving door. These kids require an 
environment in which there is confinement and security, but at the same 
time one which enables continuation of their education and offers 
rehabilitative treatment. In the aftermath of the shootings, the Tribe 
declared that the BIA had breached its contractual obligations to the 
Tribe, and asked again that the BIA include the Tribe's juvenile 
detention facility funding in the FY 2007 budget process. So what was 
BIA's response to the Tribe's request that BIA finally make good on its 
promises? The BIA pivoted and began arguing that the Tribe's new 
juvenile detention facility was not a facility eligible for BIA 
funding. Considering that BIA participated every step of the way, from 
funding its design to certifying the facility for occupancy and 
furnishing it, this new position of the BIA was outrageous.
    So where are we today? The Tribe sorely needs a juvenile detention 
facility. It has one, but it has been sitting empty for over three 
years now. DOJ did its job as part of the DOJ-BIA partnership and 
constructed the Red Lake Juvenile Jail. But BIA failed to do its job 
and fund the operation of our juvenile facility, forcing the Tribe to 
sue the BIA in federal court. In the meantime, for over three years 
now, troubled juveniles at Red Lake are devoid of the option for 
rehabilitation that the Tribe's new juvenile detention facility was 
intended to provide.
    Mr. Chairman and members of the Committee, this story is not a 
happy one, but I thank you for the opportunity to tell it to you today.
                                 ______
                                 
Prepared Statement of Hon. Elbridge Coochise, Independent Court Review 
                                  Team
    Our Team has spent the last three years traveling throughout Indian 
Country. We have reviewed approximately 37 Tribal Courts. We have, 
perhaps, more knowledge and experience than anyone else regarding 
Tribal Courts. We offer this knowledge and experience in our comments 
on this draft bill.
    This is, without question, a good bill. There is much in here to be 
satisfied with. Thus, we have, with few exceptions, limited comments to 
proposed changes. We understand this is a Tribal wish list and that DOJ 
and Interior have not yet weighed in. It is our experience that Crime 
is uncontrolled in Indian Country. This, we feel, needs to be the 
priority for Congress. With this in mind, we offer the following 
comments.
    Within the bill, Programs are extended to 2013. Given the usual 
length of legislation, this we feel is too short. It would be better if 
the programs in the bill were given a seven year life to 2015.
    The legislation amends several bills to include Tribes in a similar 
status to states. This should have been done in the first place and is 
a welcome update of this legislation.
    The legislation also includes and considers DOJ over site of Indian 
Country. Considering the U.S. Attorney portion of law enforcement in 
Indian Country, this should also have been done sooner.
    If this bill has a major failing, it is the failure to deal with 
Oliphant. Non-Indians are moving to reservations to make and deal 
drugs, including Meth. Non-Indians are abuser/perpetrators in 
relationships with Indian women and nothing can be done. It may be 
unrealistic to overturn Oliphant. However, this is, after all, 
misdemeanor jurisdiction. Some classes of crimes, such as DV, lend 
themselves to jurisdictional oversight by the most available sovereign. 
Limited criminal jurisdiction would not be a problem for Tribes in such 
cases. At the least, this legislation should acknowledge in the 
findings the potential for problems with non-Indian defendants as 
support for cross-jurisdictional law enforcement agreements.
    It is vital to understand that you can't just hire more police and 
build more jails and the problems will go away. The step between law 
enforcement and jails is Tribal Courts. Funding for Courts, for 
training and staff, (Judges, Prosecutors and clerks) is just as 
important as it is for cops. This is often ignored. For this bill to be 
successful, adequate attention must be paid to the Tribal Courts.
    Finally, the recent centralization of the Bureau of Indian Affairs 
Police has insulated them from responding to legitimate questions and 
concerns of Tribal leaders. The chain of command makes it difficult to 
establish an exact location of supervisors who should respond to Tribal 
leaders. In reality, the police administration considers itself 
answerable only to itself. Authority over police should be returned to 
the Superintendents of the Agencies of the BIA.
    Specific Comments.
Section 102. Declination Reports
    This section is very important. The DOJ could accomplish this 
administratively. however; it would show the level of work that isn't 
being done in Indian Country. It is not surprising this type of data 
isn't being collected.
    There is some concern that the crimes committed, and subsequently 
declined, will decrease in severity. So that it doesn't look like an 
aggravated assault was declined. that crime will be labeled a simple 
assault. Recommend the crime recorded for data purposes is the crime 
charged by the initial Tribal investigation.
    Tribal Prosecutor can pursue the case in Tribal Court once the Feds 
decline. This is good. Tribal Courts are not prepared legally or 
financially to prosecute what will likely be a number of severe 
(felony-level) cases. They will need training and funding.
    Maintenance of Records. Records should also be maintained by 
reservation.
    Confidential or Privileged Communication. This should be defined so 
it can not be used as an excuse to limit evidence that would hinder 
Tribal prosecutions.
Section 103. Prosecution of Crimes in Indian Country
    Tribal Liaisons. Indian Cases have always had the lowest priority 
in a U.S. Attorney Office. Pay or other incentives should be used to 
insure the Tribal Liaison does not become an unwanted position.
    To Hold Trials and Other Proceedings in Indian Country. This seems 
to presume U.S. Attorneys will practice in Tribal Courts. Not a bad 
idea. Perhaps better to consider them Special Prosecutors and require 
they comply with the rules of the Tribal Court regarding practice by 
outside attorneys.
Section 106. Office of Tribal Justice
    If this is the only legislative duty of the Office of Tribal 
Justice, care must be taken their other important duties are not 
neglected down the road.
    Meaningful and Timely Consultation with Tribal Leaders. Is this 
distinguishable from consultation not labeled ``meaningful and timely'' 
later in the bill?
    Coordinate Prosecutions of Crimes of National Significance. Is the 
intent of this so Duro/Hicks type cases won't reach the Supreme Court? 
It is likely impossible to convince DOJ that the OTJ should exclusively 
handle these types of cases. It may be better not to try.
Section 201. State Criminal Jurisdiction and Resources
    Needs a section; if a Tribe chooses where the Tribe is paying for 
or capable of paying for a sufficient standard of law enforcement, 
retrocession of state jurisdiction will be permitted. Many gaming 
Tribes are capable but denied this authority by their states.
Section 202. Incentives for State, Tribal and Local Law Enforcement 
        Cooperation
    Grants should also be available to develop cooperative agreements. 
Many states and Tribes have the incentive but do not have the funding 
to develop agreements.
Section 304. Tribal Court Sentencing Authority
    Increase to 3 years and $15,000 is reasonable. Three times current 
levels.
    In Accordance with Guidelines Developed by the BIA. A deadline 
should be imposed so these guidelines do not take years to develop.
    Appropriate Federal Facility. Though some will object, this should 
help rid Tribes of their most serious offenders.
    Violent Crimes, Sexual Abuse and Serious Drug Offenses. An 
appropriate list of crimes for Federal prisons. Habeas Corpus and 
Federal review is still available.
    Transfer of a Tribal Court Offender. Is it the intent to require a 
separate agreement for every prisoner that needs one? This is too 
cumbersome. It should be by charge . . . which would also limit 
favoritism.
Section 305. Indian Law and Order Commission
    Experience and Expertise. These are not intended to be Tribal 
Leaders. Or even Indians. There should be some assurance Indians will 
be represented on this Commission.
    Powers. The Commission should have subpoena authority because some, 
probably state officials, won't want to testify.
    Commission Personnel Matters. There is no provision for staff. . . 
. Or even an Executive Director. It needs someone to compile the data. 
The Commissioners are volunteers. Most Tribes are poor. This assures 
only financially secure individuals and organizations are represented. 
It may cut out valuable applicants.
Section 403. Cops Tribal Resources Grant Program
    It may be better to identify and designate a percentage of the 
grant funds for Tribes or Tribes, with limited grant-writing skills, 
will not get funded.
Section 404. Tribal Jails Program
    (See above.) Set aside and designation of $35 million for Tribal 
Jails will, over time, go a long way toward fixing the Jail space 
problem in Indian Country. Staffing may be a larger problem than 
facilities. Need training and staff funding as well.
Section 601. Violation of Tribal Orders
    Under consideration. Any additional protection for victims is 
valuable. Requiring that Tribal Courts meet certain standards before 
Order reaches Federal felony status is not unreasonable.
                                 ______
                                 
 Prepared Statement of James S. Richardson Sr., President, Federal Bar 
                              Association
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
  Written Questions Submitted by Hon. Byron L. Dorgan to Hon. Ron His 
                           Horse Is Thunder *
---------------------------------------------------------------------------
    * Response to written questions was not available at the time this 
hearing went to press.
---------------------------------------------------------------------------
    Question 1. Can you please describe the Standing Rock Tribe's Court 
system? Please indicate whether there is an appellate court system, 
public defenders' office, and other relevant information.

    Question 2. How do you the BIA could more effectively performing 
its law enforcement duties for direct service tribes like Standing 
Rock?

    Question 3. In their testimony, the Interior and Justice 
Departments indicated their opposition to Section 305 of the draft bill 
that would increase tribal court sentencing authority to 3 years 
imprisonment. The agencies stated their concern that the provision 
could adversely impact defendants' constitutional rights in tribal 
courts. Please discuss your thoughts on the protection of 
constitutional rights in the Standing Rock Tribal Court system?

    Question 4. You mentioned that Operation Dakota Peacekeeper is 
already providing increased enforcement of crimes on your Reservation. 
Can you please additional details on the effects of the Operation, 
identify the most positive aspects of the Operation, and provide a 
recommendation of what essential components of the program should be 
maintained.
                                 ______
                                 
  Written Questions Submitted by Hon. Lisa Murkowski to Hon. Ron His 
                           Horse Is Thunder *
    Question 1. This draft bill authorizes the Drug Enforcement 
Administration to award technical assistance grants to tribal law 
enforcement agencies. What other recommendations do you have to improve 
relations between Indian tribes and the DEA and drug abuse prevention 
and interdiction in Indian Country?

    Question 2. Your testimony suggested improving the availability of 
housing on the Indian reservations to assist in recruiting and 
retaining law enforcement officers. What other recommendations do you 
have to assist in the recruitment and retention of law enforcement 
officers?

    Question 3. The Department of ,Justice has raised several concerns 
about providing declination reports to tribal justice officials and 
indicated that releasing case files to the tribal prosecutors may 
generate potentially discoverable material. You suggested that the 
federal prosecutors should release the entire case file to tribal 
prosecutors so they may proceed accordingly.
    How could tribes protect the confidentiality of such information so 
that it does not impede the successful prosecution of offenders in 
either the tribal or federal courts?

    Question 4. The Operation Dakota Peacekeeper program has increased 
the number of law enforcement officers on your reservation. However, 
you had indicated concerns regarding the temporary nature of that 
program. Would it be more beneficial to the law enforcement efforts and 
public safety in general to make permanent across Indian Country 
programs such as Operation Dakota Peacekeeper and the Safe Indian 
Communities Initiative?
                                 ______
                                 
Written Questions Submitted by Hon. Byron L. Dorgan to Walter E. Lamar 
                                   *
    Question 1. The Committee has heard concerns about the BIA's 
Internal Affairs Division. Please describe your thoughts on the 
possible consequences of the current Internal Affairs system. And, if 
you believe necessary, do you have any recommended legislative 
proposals to ensure that the BIA and tribal law enforcement agencies 
have adequate internal affairs practices?

    Question 2. As a former FBI agent serving Indian Country, what in 
your opinion could be done on the part of the FBI--other than 
dedicating additional positions--to aid the investigation of crimes in 
Indian Country?
                                 ______
                                 
Written Questions Submitted by Hon. Lisa Murkowski to Walter E. Lamar *
    Question 1. Section 303 of the draft bill would allow tribes 
broader access to national criminal databases. What recommendations do 
you have for improving the tribal law enforcement officials' ability to 
access the NCIC as well as other data or information sharing 
capabilities?

    Question 2. Background investigations and proper training are 
costly for Indian tribes. Section 301 of the draft bill authorizes law 
enforcement officers to obtain training through state police academies. 
What are other options should be made available to Indian tribes, such 
as accessing the FBI fingerprinting systems, to conduct proper 
background investigations and training which might decrease the costs 
incurred by Indian tribes in the hiring of qualified law enforcement 
officers?

    Question 3. There are a significant number of law enforcement 
agencies and jurisdictions involved in Indian Country. Cross-
deputization agreements have been one tool to improve coordination 
between the agencies and reduce confusion over such matters as 
jurisdiction. Section 301 of the draft bill also contemplates a plan 
being developed to enhance the provision of special law enforcement 
commissions to tribal and state law enforcement officers. What other 
tools are needed to ensure adequate coordination and response from and 
between the various law enforcement agencies is provided to victims of 
crimes in Indian Country?

    Question 4. Your testimony indicated that the Federal Bureau of 
Investigation may have the number of their cases declined by the U.S. 
Attorney's Offices, but may not include the BIA or tribal cases 
referred to the U.S. Attorney's Offices. What other recommendations do 
you have to gather comprehensive data on the declination rates?
                                 ______
                                 
  Written Questions Submitted by Hon. Byron L. Dorgan to Kelly Gaines 
                                Stoner *
---------------------------------------------------------------------------
    * Response to written questions was not available at the time this 
hearing went to press.
---------------------------------------------------------------------------
    Question. I want to clarify that the enhanced sentencing provision 
for tribal courts in Section 304 is optional. The intent of the 
provision is to maintain the current standards for prosecutions subject 
to 1 year or less. However, if a Tribe chooses to enact criminal laws 
subject to sentences between more than 1 year and up to three years, 
the tribal court must afford the defendant certain protections. I agree 
that funding for tribal public defense programs must be included. 
Section 402 of the draft bill would reauthorize the Indian Tribal 
Justice Support and Technical and Legal Assistance Acts, which includes 
programmatic funding for tribal public defender programs. In your 
opinion, what other initiatives should be included in these tribal 
courts programs? For example, how could the BIA or Tribes collect and 
provide better data on tribal court statistics?
                                 ______
                                 
  Written Questions Submitted by Hon. Lisa Murkowski to Kelly Gaines 
                                Stoner *
    Question 1. What types of training should be included for law 
enforcement officials to increase the chances of successful 
prosecutions of domestic and sexual violence?

    Question 2. Your testimony indicated that you referred cases to the 
federal prosecutor and either did not receive a declination report or 
received a delayed response from the federal prosecutor. The Committee 
received testimony from the Department of Justice that there are 
several serious concerns about releasing declination reports. What is 
your view about those concerns? Do you have any recommendations for how 
the Federal and tribal prosecutors and law enforcement could work 
together to address these concerns?

    Question 3. The Department of Justice indicated that it opposes 
codifying the duties of the tribal liaisons within the U.S. Attorney's 
Offices which are outlined in the draft bill. What would you recommend 
for the U.S. Attorney's Offices in defining the tribal liaisons roles 
so that Indian Country crimes would receive significant attention, 
priority and be addressed in a consistent government to government 
relationship?

    Question 4. The Committee has heard that in some jurisdictions the 
tribal prosecutors must turn cases over to the FBI, who then must 
review and present them to the U.S. Attorney's Office. Was this the 
case when you were the tribal prosecutor at Fort Totten? What problems, 
if any, could tribal prosecutors face in such circumstances?
                                 ______
                                 
Written Questions Submitted by Hon. Byron L. Dorgan to Hon. Gretchen C. 
                             F. Shappert *
---------------------------------------------------------------------------
    * Response to written questions was not available at the time this 
hearing went to press.
---------------------------------------------------------------------------
    Question 1. Please provide the number of federal reservation-based 
misdemeanor prosecutions by District for the years 2006 and 2007. 
Please indicate the percentage of Native American defendants in these 
cases.

    Question 2. The draft bill would enable the use of declination 
reports as a positive tool to coordinate prosecutions with tribal 
prosecutors, and to inform Congress regarding where additional 
resources are needed. This information is not available. Please provide 
a list by Federal District of the percentage of Indian Country criminal 
cases that were declined by U.S. Attorneys offices nationwide in 2006 
and 2007? Again, by Federal District, please indicate the general 
reasons for declinations, attributing percentages to those reasons?

    Question 3. Please describe the Department's policy on taping 
recording interviews with suspects, and provide reasons behind the 
policy.

    Question 4. Please describe the Federal Bureau of Investigations 
efforts to aid background investigations for potential employees of 
gambling facilities operated by Indian Tribes, including the use if any 
of the Integrated Automated Fingerprint Identification System (IAFIS). 
Would the Department support similar coordination for purposes of 
expediting background checks for candidates for tribal and BIA police 
and corrections officers?

    Question 5. Please provide the current number of offenders in 
federal custody (the Federal Bureau of Prisons System) that were 
convicted in either State, local government, or territorial courts?

    Question 6. The Interior Department-contracted ``Master Plan for 
Justice Services in Indian Country'' indicates that most tribal jails 
have reached or will soon reach the end of their useful life. It notes 
that 90 percent of jails older than 5 years should be replaced. And it 
notes that contract beds at State and local jails are overcrowded and 
often far from remote tribal communities.
    You indicated the Department's opposition to the proposal to permit 
coordination between tribal courts and the Federal Bureau of Prisons. 
What viable alternatives to incarceration for tribal justice programs 
would the Department support?
                                 ______
                                 
Written Questions Submitted by Hon. Lisa Murkowski to Hon. Gretchen C. 
                             F. Shappert *
    Question 1. Your written testimony indicated that the Department of 
Justice N-Dex Program office is developing relationships with several 
Indian tribes to submit data to the N-Dex system. What kind of 
infrastructure does this N-Dex system requires for tribal agency 
participation?

    Question 2. Your written testimony indicated that the Department's 
efforts in Indian Country have been above average across the board. As 
an example, your testimony cites that in FY 2006, the Department filed 
606 cases against 688 defendants in Indian Country which is nearly 5 
percent higher than the average rate of filing since 1994 of 580 cases 
against 643 defendants per year. Does that 5 percent figure correspond 
with the percentage increase in crime rates in Indian Country? What is 
the basis for determining an ``above average'' effort across the board?

    Question 3. Your written testimony states that the number of FBI 
agents working Indian Country cases has increased by 7 percent since 
2001. What has been the percentage increase or decrease in work-hours 
or Time Utilization Recordkeeping hours dedicated to Indian Country 
since 2001?

    Question 4. Your written testimony indicates that the Department 
has concerns about releasing declination reports for several reasons, 
particularly the creation of potentially discoverable material. What 
kind of information do you think could be conveyed to the tribal 
justice officials to enable them to understand the status of the case 
and make a decision on proceeding in tribal court without creating 
potentially discoverable material?
                                 ______
                                 
   Written Questions Submitted by Hon. Byron L. Dorgan to W. Patrick 
                               Ragsdale *
---------------------------------------------------------------------------
    * Response to written questions was not available at the time this 
hearing went to press.
---------------------------------------------------------------------------
    Question 1. Please explain the Interior Department's efforts to 
coordinate with the Justice Department on the construction/renovation 
and the operation/maintenance of tribal jails.

    Question 2. The Interior Department-contracted ``Master Plan for 
Justice Services in Indian Country'' indicates that most tribal jails 
have reached or will soon reach the end of their useful life. It notes 
that 90 percent) of jails older than 5 years should be replaced. And it 
notes that contract beds at State and local jails are overcrowded and 
often far from remote tribal communities.
    You indicated the Department's opposition to the proposal that 
would enhance tribal court sentencing authority to 3 years, and permit 
coordination between tribal courts and the Federal Bureau of Prisons. 
What viable alternatives to incarceration for tribal justice programs 
would the Department support?

    Question 3. Please describe the Department's efforts to fight 
juvenile crime in Indian Country.

    Question 4. Please provide a detailed spending plan for the $23.7 
million appropriated in FY 2008 for the Department's Safe Indian 
Communities Initiative? Include the amount spent on Operation Dakota 
Peacekeeper and other implementation to date.

    Question 5. Please describe in your opinion what aspects of 
Operation Dakota Peacekeeper are working, and comment on whether and 
how the Operation will duplicated in other tribal communities.
                                 ______
                                 
   Written Questions Submitted by Hon. Lisa Murkowski to W. Patrick 
                               Ragsdale *
    Question 1. The draft bill would require the Office of Justice 
Services to coordinate with the Department of Justice to develop 
specialized family violence training for all of the law enforcement 
officials and prosecutors responsible for Indian country. What kind of 
training currently exists for such specialized family and domestic 
violence training for BIA and tribal law enforcement? How many BIA law 
enforcement officers have received this specialized type of family and 
domestic violence training?

    Question 2. Your written testimony indicates that the Department 
may have constitutional and federal policy concerns with increasing the 
tribal court sentencing authority as well as placing Indian defendants 
sentenced by tribal courts in the federal Bureau of Prisons. You stated 
that there may need to be a separation of powers within tribal 
governments as one means of addressing these concerns. Please elaborate 
on your statement about separation of power--in particular, how or why 
it would address constitutional concerns.

    Question 3. Would a ``separation of powers'' requirement also 
require some tribes to amend their constitutions?

    Question 4. Your testimony indicated that the Operation Dakota 
Peacekeepers Initiative is for a limited time, but that the number of 
law enforcement officers is reaching the standard under the GAP 
Analysis and that it appears to be making a difference. You also 
mentioned that you will review this initiative to see if it could be 
employed at other Indian reservations. What other initiatives could be 
employed immediately on other Indian reservations, some of which are 
experiencing even higher crime rates than the Standing Rock Sioux 
Reservation?

    Question 5. Your testimony indicated that there are Indian 
reservations with crime rates as high as 32 times the national average. 
Please explain the basis for the statement that crime rates on certain 
Indian reservations were 32 times the national average?

    Question 6. How is the BIA coordinating with tribal law enforcement 
to improve the background checks process?

    Question 7. How does the Indian Child Protection and Family 
Violence Act improve the background check process?

    Question 8. Please describe the process followed by the BIA and 
Federal Bureau of Investigation to coordinate their efforts in 
investigating crimes in Indian Country?

    Question 9. Your written testimony indicated that the Incident 
Management Analysis Reporting System (IMARS) is intended to provide a 
common information sharing capability across all participating 
functional areas within the Department of Interior for capturing and 
reporting law enforcement information. Once it is Department-wide, OJS 
will determine the feasibility of providing an opportunity for tribal 
collection of crime data using IMARS. What is the time frame for IMARS 
becoming Department-wide? How will OJS determine the feasibility of 
allowing Indian tribes to participate in the IMARS?

    Question 10. What can be accomplished in the interim to assist 
Indian tribes in law enforcement data collection and information 
sharing?

    Question 11. Your written testimony indicated that consistency in 
standards and staffing among the detention facilities needs to be 
assured to alleviate both constitutional and federal policy concerns 
regarding increasing the tribal sentencing authority from one year to 
three years. What assistance can the BIA provide to Indian tribes to 
achieve these standards and staffing levels?
                                 ______
                                 
  Written Questions Submitted by Hon. Pete V. Domenici to W. Patrick 
                               Ragsdale *
---------------------------------------------------------------------------
    * Response to written questions was not available at the time this 
hearing went to press.
---------------------------------------------------------------------------
    Question 1. I often hear from New Mexico tribal officials regarding 
the difficulties tribal leaders face in trying to deal with crime 
including drug activity, gangs and other criminal activity. What 
program(s) or assistance does BIA provide to local tribes for the 
training of local tribal law enforcement officers?

    Question 2. What law enforcement resources, both officers and 
support personnel, does the BIA have deployed in New Mexico at this 
time?

    Question 3. Are crime rates on New Mexico reservations higher than 
those of other states per capita?

    Question 4. In 2004, the Department of Interior Inspector General 
issued a report entitled ``Neither Safe Nor Secure.'' The report 
outlined the poor conditions of detention facilities throughout Indian 
Country. Since the 2004 report, how has the BIA and DOJ worked together 
to plan for correctional facility replacement?

    Question 5. What is the status of plans for correctional facility 
replacement and renovation and specifically in New Mexico?

    Question 6. Would it be helpful for Congress to clarify what type 
of collaborative process would be required for BIA and DOJ's work on 
correctional facility replacement and collaboration?
                                 ______
                                 
Written Questions Submitted by Hon. John Thune to W. Patrick Ragsdale *
    Question 1. Regarding data collection, do all tribes participate in 
the BIA's crime data collection efforts? Do they all use the same 
standards? How many tribes are still submitting hard copies of their 
data and what effort is being made to move these tribes towards 
electronic submission?

    Question 2. At the conclusion of Operation Dakota Peacekeeper could 
you provide a report on the successes and failures of the operation as 
well as its long term project effect on crime on the Standing Rock 
Sioux Tribe?

    Question 3. What percentage of BIA officers are cross-commissioned? 
How about tribal officers?
                                 ______
                                 
Response to Written Questions Submitted by Hon. Byron L. Dorgan to Hon. 
                             Joe A. Garcia
    Question 1. In their testimony, the Interior and Justice 
Departments indicated their opposition to Section 304 of the draft bill 
that would increase tribal court sentencing authority to 3 years 
imprisonment. The agencies stated their concern that the provision 
could adversely impact defendants' constitutional rights in tribal 
courts. Please discuss NCAI's position on the protection of 
constitutional rights in tribal court systems?
    Answer. Section 305 of the draft legislation would extend tribal 
sentencing limitations under the Indian Civil Rights Act to provide for 
up to 3 year sentences for more serious offenders. In the original 1968 
law, tribal sentencing authority was limited to 6 months or $500. In 
1986, the authority was expanded to 1 year or $5000.
    As a general matter, the rights guaranteed by the United States 
Constitution do not apply to tribal courts. Rather, the Indian Civil 
Rights Act (ICRA) incorporates similar protections as are found in the 
U.S. Constitution and makes them applicable to tribal courts. As such, 
defendants in tribal courts do not have ``constitutional rights'' other 
than rights recognized in the tribal constitution. Defendants in tribal 
courts do, of course, have a statutorily guaranteed right to many of 
the due process protections contained in the U.S. Constitution under 
ICRA.
    We assume that the federal agencies are raising concerns that the 
full panoply of rights that have been enumerated in the U.S. 
Constitution would not be available to defendants in tribal courts, to 
the extent that some of those rights are triggered by a sentence that 
is greater than one year.
    First, the Supreme Court has recently confirmed that an Indian 
tribe acts as a separate sovereign when it prosecutes its own members 
or nonmember Indians, and such prosecution is not an exercise of 
federal power. United States v. Lara, 541 U.S. 193 (2004). The power 
that Congress would exercise here is Congress's broad power in Indian 
affairs with its source in several places in the Constitution, and 
there is ``no explicit language in the Constitution suggesting a 
limitation on Congress' institutional authority to relax restrictions 
on tribal sovereignty previously imposed by the political branches.'' 
Lara, 541 U.S. at 546.
    As a matter of constitutional law, the length of the sentence 
imposed matter differently across constitutional rights. For example, 
the Sixth Amendment right to counsel is applicable as long as the 
defendant receives any imprisonment at all. See, Alabama v. Shelton, 
535 U.S. 654 (2002). The right to a jury trial does not attach to all 
criminal offenses, but only attaches for all offenses that are not 
``petty offenses,'' which the Supreme Court has defined as six months 
in jail or less. See, Blanton v. City of North Las Vegas, Nev., 489 
U.S. 538 (1989).
    The Fifth Amendment provides a right to a grand jury indictment for 
``infamous'' crimes, and a one-year sentence is the dividing line for 
infamous crimes. See, e.g., U.S. v. Fitzgerald, 89 F.3d 218 (5th Cir. 
1996) (``Any federal offense punishable by imprisonment for more than 
one year is an offense for which the Fifth Amendment requires a grand 
jury indictment.''). This is the only criminal procedure issue we can 
find that would relate to the expansion of tribal sentencing authority 
beyond one year.
    However, unlike many other provisions of the Bill of Rights, the 
Supreme Court has ruled that the right to indictment by grand jury is 
not a fundamental aspect of due process, and was not incorporated to 
apply to state courts via the Fourteenth Amendment, and states 
therefore may elect not to use grand juries. Hurtado v. California, 110 
U.S. 516 (1884). ``[W]e are unable to say that the substitution for a 
presentment or indictment by a grand jury of the proceeding by 
information, after examination and commitment by a magistrate, 
certifying to the probable guilt of the defendant, with the right on 
his part to the aid of counsel, and to the cross-examination of the 
witnesses produced for the prosecution, is not due process of law.''
    Because tribal prosecution is not an exercise of federal power, and 
because the right to a grand jury indictment has never been considered 
a fundamental aspect of due process, we do not believe that the 
expansion of tribal sentencing authority should trigger constitutional 
concerns for Congress. However, NCAI strongly supports the protection 
of due process in tribal courts, and we note that the legislation would 
specifically protect the right to assistance of counsel and the general 
right to due process in criminal proceedings.

    Question 2. Please provide your legislative recommendations, if 
any, to initiatives that should be included in the reauthorizations of 
the tribal courts, tribal youth, and other tribal justice programs.
    Answer. As noted in our testimony, one of the primary 
recommendations of tribal leaders has been to make funding from the 
Department of Justice programs more readily available and more useful 
for the actual needs on reservations. Right now, the funding requires a 
significant grant-writing capability and is often compartmentalized in 
ways that do not make sense. Our recommendation would be for Congress 
to consider something like the following:
    25 U.S.C. Sec. 458_--to read:
        (a) Notwithstanding any other provision of law, the Attorney 
        General shall carry out a program within the Department of 
        Justice to be known as the Tribal Justice Self-Determination 
        and Self-Governance Program.

        (b) Notwithstanding any other provision of law, the Attorney 
        General shall enter into contracts, compacts and funding 
        agreements in accordance with Title I and IV of the Indian 
        Self-Determination and Education Assistance Act, P.L. 93-638, 
        as amended, with any Indian tribe who elects to utilize the 
        authority of this title to govern any funds available to Indian 
        tribes under the authority of the Attorney General.

        (c) Notwithstanding any other provision of law, the negotiation 
        and implementation of each agreement entered into under this 
        section shall be governed by this title and the provisions of 
        Title I or IV of the Indian Self-Determination and Education 
        Assistance Act, P.L. 93-638, as amended.

        (d) Regulations.

        (I) Not later than 90 days after [DATE OF ENACTMENT], the 
        Secretary shall initiate procedures under subchapter III of 
        chapter 5 title 5 to negotiate and promulgate such regulations 
        as are necessary to carry out this part.

        (II) A negotiated rulemaking committee established pursuant to 
        section 565 of title 5 to carry out this section shall have as 
        its members only Federal and tribal government representatives, 
        a majority of whom shall be representatives of Indian tribes 
        with self-governance agreements under this chapter.

        (III) The Secretary shall adapt the negotiated rulemaking 
        procedures to the unique context of Self-Determination and 
        Self-Governance and the government-to-government relationship 
        between the United States and the Indian tribes.

        (IV) The lack of promulgated regulations shall not limit the 
        effect of this part.

    Question 3. Please include any other recommendations or comments on 
the draft bill.
    Answer. NCAI strongly encourages the Committee to consider 
including the pilot project to expand tribal jurisdiction in cases of 
domestic violence that was included in the concept paper for the bill 
last November. This provision was widely supported by Indian country 
and is a common-sense solution to one of the most pressing problems in 
tribal communities. Tribal governments should have the authority to 
intervene when a non-Indian who has chosen to become a member of the 
tribal community abuses his Indian family members.
    NCAI also encourages the Committee to consider including some of 
the recommendations for improving the effectiveness of the Adam Walsh 
Act in Indian Country that were made at the July 17, 2008 hearing on 
sex offender registration.
    There are many excellent provisions in the legislation and NCAI has 
had a significant opportunity to provide input, so we will limit our 
recommendations at this time to these two, and encourage the Committee 
to continue to continue its efforts to receive recommendations from 
tribes.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Lisa Murkowski to Hon. 
                             Joe A. Garcia
    Question 1. Both the Departments of the Interior and Justice appear 
to have serious concerns about provisions in the draft bill that would 
increase tribal court sentencing authority and allow tribally-sentenced 
Indian defendants to serve their time in the Bureau of Prisons system. 
How might tribes address the additional requirement of the defendant's 
right to legal counsel in implementing the increase in tribal 
sentencing authority to three years as contemplated by the draft bill?
    Answer. First, NCAI strongly supports the provision which would 
allow tribes to send serious offenders to serve their time in the 
Bureau of Prisons system. As the Committee is aware, tribal detention 
facilities have been neglected and are significantly under funded. This 
is one of the most important provisions of this legislation.
    Second, we agree that protecting the right to counsel is important 
to protect the constitutionality of tribal justice systems. In United 
States v. Lara, the Supreme Court left open the question of whether 
additional due process challenges could be raised to tribal 
prosecutions. ``Hence, we need not, and we shall not, consider the 
merits of Lara's due process claim. Other defendants in tribal 
proceedings remain free to raise that claim should they wish to do so. 
See 25 U.S.C. Sec. 1303 (vesting district courts with jurisdiction over 
habeas writs from tribal courts).''
    NCAI's understanding is that a significant number of tribes already 
provide counsel to indigent persons who are prosecuted in tribal courts 
for offenses that could include imprisonment. For the remaining tribes, 
the issue is largely funding. We would encourage Congress to provide 
additional funds for tribal justice systems, but also note that the 
proposed statute would give tribes some flexibility. If the tribe 
chooses to impose sentences greater than one year, the tribal court 
would be able to provide counsel for indigent defendants on a case-by-
case basis.

    Question 2. The Operation Dakota Peacekeeper program will provide 
additional law enforcement officers on the Standing Rock Sioux Indian 
reservation for a limited period of time. Would it be more beneficial 
to the law enforcement efforts and public safety in general to make 
permanent throughout Indian Country programs such as Operation Dakota 
Peacekeeper and the Safe Indian Communities Initiative?
    Answer. NCAI strongly agrees that increased law enforcement 
presence and focus is the top priority to improve law enforcement in 
Indian communities. Tribal leaders have made this their first concern, 
and this has only been reinforced by the recent successes of the Dakota 
Peacekeeper Operation. As noted in our testimony, we strongly urge 
increased resources for BIA law enforcement and the creation of 
specifically focused enforcement units within the Department of Justice 
and the Federal Bureau of Investigation.

    Question 3. The Committee received testimony recommending that, to 
improve and prioritize law enforcement, the Office of Justice Services 
within the Bureau of Indian Affairs should be elevated to a Bureau 
directly responsible to the Assistant Secretary for Indian Affairs, 
similar in status to the Bureau of Indian Education, and the Deputy 
Director elevated to a Director. Does the NCAI agree with this 
recommendation?
    Answer. NCAI does not agree with the recommendation at this time. 
Tribal leaders have been opposed to reorganization efforts to separate 
out the functions of the Bureau of Indian Affairs for two primary 
reasons. First, creating a separate bureaucracy requires the creation 
of additional high-level management positions that take away resources 
from reservation-level services. The priority of tribal leaders is to 
maximize the services provided at the reservation level, and this is 
particularly true for law enforcement. Second, the creation of a 
separate bureaucracy tends to ``stove-pipe'' decision-making and makes 
it more difficult to coordinate action at the local level and create 
bureaucratic delays. To our knowledge, this is not a question that has 
been discussed with tribal leadership and we would urge the BIA and 
Congress to take no action to reorganize the Office of Justice Services 
without support from tribal leaders.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.001
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.002
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.003
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.004
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.005
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.006
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.007
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.008
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.009
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.010
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.011
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.012
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.013
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.014
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.015
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.016
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.017
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.018
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.019
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.020
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.021
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.022
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.023
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.024
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.025
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.026
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.027
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.028
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.029
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.030
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.031
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.032
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.033
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.034
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.035
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.036
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.037
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.038
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.039
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.040
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.041
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.042
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.043
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.044
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.045
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.046
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.047
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.048
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.049
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.050
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.051
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.052
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.053
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.054
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.055
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.056
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.057
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.058
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.059
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.060
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.061
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.062
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.063
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.064
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.065
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.066
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.067
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.068
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.069
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.070
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.071
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.072
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.073
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.074
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.075
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.076
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.077
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.078
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.079
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.080
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.081
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.082
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.083
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.084
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.085
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.086
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.087
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.088
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.089
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.090
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.091
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.092
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.093
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.094
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.095
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.096
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.097
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.098
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.099
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.100
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.101
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.102
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.103
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.104
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.105
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.106
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.107
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.108
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.109
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.110
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.111
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.112
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.113
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.114
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.115
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.116
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.117
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.118
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.119
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.120
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.121
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.122
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.123
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.124
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.125
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.126
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.127
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.128
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.129
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.130
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.131
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.132
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.133
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.134
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.135
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.136
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.137
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.138
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.139
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.140
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.141
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.142
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.143
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.144
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.145
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.146
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.147
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.148
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.149
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.150
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.151
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.152
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.153
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.154
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.155
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.156
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.157
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.158
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.159
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.160
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.161
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.162
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.163
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.164
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.165
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.166
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.167
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.168
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.169
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.170
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.171
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.172
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.173
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.174
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.175
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.176
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.177
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.178
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.179
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.180
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.181
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.182
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.183
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.184
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.185
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.186
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.187
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.188
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.189
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.190
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.191
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.192
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.193
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.194
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.195
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.196
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.197
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.198
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.199
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.200
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.201
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.202
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.203
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.204
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.205
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.206
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.207
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.208
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.209
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.210
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.211
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.212
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.213
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.214
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.215
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.216
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.217
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.218
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.219
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.220
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.221
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.222
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.223
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.224
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.225
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.226
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.227
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.228
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.229
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.230
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.231
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.232
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.233
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.234
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.235
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.236
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.237
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.238
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.239
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.240
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.241
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.242
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.243
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.244
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.245
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.246
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.247
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.248
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.249
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.250
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.251
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.252
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.253
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.254
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.255
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.256
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.257
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.258
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.259
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.260
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.261
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.262
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.263
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.264
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.265
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.266
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.267
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.268
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.269
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.270
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.271
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.272
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.273
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.274
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.275
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.276
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.277
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.278
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.279
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.280
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.281
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.282
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.283
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.284
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.285
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.286
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.287
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.288
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.289
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.290
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.291
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.292
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.293
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.294
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.295
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.296
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.297
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.298
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.299
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.300
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.301
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.302
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.303
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.304
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.305
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.306
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.307
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.308
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.309
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.310
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.311
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.312
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.313
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.314
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.315
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.316
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.317
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.318
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.319
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.320
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.321
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.322
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.323
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.324
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.325
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.326
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.327
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.328
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.329
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.330
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.331
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.332
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.333
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.334
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.335
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.336
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.337
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.338
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.339
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.340
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.341
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.342
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.343
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.344
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.345
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.346
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.347
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.348
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.349
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.350
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.351
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.352
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.353
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.354
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.355
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.356
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.357
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.358
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.359
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.360
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.361
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.362
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.363
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.364
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.365
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.366
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.367
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.368
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.369
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.370
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.371
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.372
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.373
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.374
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.375
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.376
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.377
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.378
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.379
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.380
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.381
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.382
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.383
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.384
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.385
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.386
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.387
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.388
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.389
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.390
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.391
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.392
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.393
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.394
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.395
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.396
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.397
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.398
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.399
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.400
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.401
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.402
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.403
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.404
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.405
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.406
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.407
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.408
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.409
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.410
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.411
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.412
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.413
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.414
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.415
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.416
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.417
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.418
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.419
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.420
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.421
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.422
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.423
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.424
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.425
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.426
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.427
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.428
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.429
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.430
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.431
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.432
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.433
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.434
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.435
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.436
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.437
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.438
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.439
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.440
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.441
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.442
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.443
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.444
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.445
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.446
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.447
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.448
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.449
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.450
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.451
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.452
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.453
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.454
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.455
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.456
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.457
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.458
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.459
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.460
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.461
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.462
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.463
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.464
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.465
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.466
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.467
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.468
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.469
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.470
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.471
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.472
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.473
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.474
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.475
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.476
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.477
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.478
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.479
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.480
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.481
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.482
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.483
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.484
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.485
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.486
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.487
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.488
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.489
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.490
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.491
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.492
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.493
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.494
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.495
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.496
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.497
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.498
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.499
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.500
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.501
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.502
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.503
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.504
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.505
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.506
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.507
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.508
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.509
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.510
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.511
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.512
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.513
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.514
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.515
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.516
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.517
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.518
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.519
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.520
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.521
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.522
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.523
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.524
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.525
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.526
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.527
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.528
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.529
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.530
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.531
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.532
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.533
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.534
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.535
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.536
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.537
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.538
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.539
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.540
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.541
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.542
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.543
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.544
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.545
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.546
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.547
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.548
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.549
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.550
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.551
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.552
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.553
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.554
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.555
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.556
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.557
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.558
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.559
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.560
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.561
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.562
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.563
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.564
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.565
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.566
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.567
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.568
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.569
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.570
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.571
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.572
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.573
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.574
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.575
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.576
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.577
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.578
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.579
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.580
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.581
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.582
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.583
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.584
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.585
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.586
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.587
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.588
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.589
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.590
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.591
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.592
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.593
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.594
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.595
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.596
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.597
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.598
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.599
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.600
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.601
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.602
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.603
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.604
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.605
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.606
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.607
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.608
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.609
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.610
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.611
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.612
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.613
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.614
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.615
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.616
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.617
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.618
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.619
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.620
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.621
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.622
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.623
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.624
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.625
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.626
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.627
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.628
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.629
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.630
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.631
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.632
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.633
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.634
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.635
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.636
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.637
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.638
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.639
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.640
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.641
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.642
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.643
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.644
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.645
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.646
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.647
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.648
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.649
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.650
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.651
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.652
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.653
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.654
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.655
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.656
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.657
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.658
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.659
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.660
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.661
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.662
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.663
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.664
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.665
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.666
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.667
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.668
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.669
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.670
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.671
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.672
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.673
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.674
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.675
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.676
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.677
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.678
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.679
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.680
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.681
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.682
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.683
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.684
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.685
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.686
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.687
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.688
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.689
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.690
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.691
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.692
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.693
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.694
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.695
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.696
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.697
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.698
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.699
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.700
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.701
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.702
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.703
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.704
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.705
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.706
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.707
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.708
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.709
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.710
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.711
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.712
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.713
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.714
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.715
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.716
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.717
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.718
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.719
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.720
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.721
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.722
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.723
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.724
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.725
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.726
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.727
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.728
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.729
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.730
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.731
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.732
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.733
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.734
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.735
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.736
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.737
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.738
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.739
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.740
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.741
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.742
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.743
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.744
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.745
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.746
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.747
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.748
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.749
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.750
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.751
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.752
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.753
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.754
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.755
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.756
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.757
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.758
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.759
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.760
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.761
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.762
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.763
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.764
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.765
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.766
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.767
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.768
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.769
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.770
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.771
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.772
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.773
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.774
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.775
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.776
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.777
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.778
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.779
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.780
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.781
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.782
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.783
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.784
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.785
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.786
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.787
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.788
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.789
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.790
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.791
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.792
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.793
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.794
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.795
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.796
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.797
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.798
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.799
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.800
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.801
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.802
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.803
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.804
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.805
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.806
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.807
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.808
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.809
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.810
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.811
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.812
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.813
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.814
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.815
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.816
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.817
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.818
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.819
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.820
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.821
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.822
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.823
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.824
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.825
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.826
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.827
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.828
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.829
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.830
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.831
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.832
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.833
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.834
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.835
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.836
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.837
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.838
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.839
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.840
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.841
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.842
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.843
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.844
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.845
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.846
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.847
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.848
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.849
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.850
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.851
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.852
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.853
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.854
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.855
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.856
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.857
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.858
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.859
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.860
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.861
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.862
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.863
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.864
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.865
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.866
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.867
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.868
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.869
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.870
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.871
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.872
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.873
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.874
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.875
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.876
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.877
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.878
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.879
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.880
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.881
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.882
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.883
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.884
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.885
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.886
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.887
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.888
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.889
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.890
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.891
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.892
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.893
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.894
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.895
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.896
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.897
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.898
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.899
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.900
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.901
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.902
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.903
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.904
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.905
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.906
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.907
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.908
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.909
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.910
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.911
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.912
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.913
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.914
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.915
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.916
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.917
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.918
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.919
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.920
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.921
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.922
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.923
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.924
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.925
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.926
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.927
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.928
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.929
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.930
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.931
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.932
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.933
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.934
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.935
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.936
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.937
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.938
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.939
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.940
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.941
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.942
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.943
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.944
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.945
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.946
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.947
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.948
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.949
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.950
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.951
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.952
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.953
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.954
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.955
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.956
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.957
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.958
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.959
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.960
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.961
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.962
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.963
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.964
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.965
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.966
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.967
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.968
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.969
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.970
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.971
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.972
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.973
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.974
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.975
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.976
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.977
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.978
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.979
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.980
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.981
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.982
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.983
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.984
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.985
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.986
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.987
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.988
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.989
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.990
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.991
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.992
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.993
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.994
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.995
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.996
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.997
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.998
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2661.999
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.000
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.001
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.002
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.003
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.004
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.005
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.006
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.007
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.008
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.009
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.010
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.011
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.012
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.013
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.014
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.015
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.016
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.017
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.018
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.019
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.020
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.021
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.022
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.023
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.024
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.025
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.026
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.027
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.028
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.029
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.030
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.031
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.032
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.033
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.034
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.035
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.036
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.037
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.038
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.039
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.040
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.041
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.042
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.043
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.044
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.045
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.046
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.047
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.048
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.049
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.050
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.051
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.052
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.053
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.054
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.055
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.056
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.057
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.058
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.059
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.060
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.061
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.062
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.063
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.064
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.065
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.066
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.067
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.068
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.069
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.070
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.071
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.072
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.073
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.074
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.075
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.076
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.077
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.078
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.079
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.080
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.081
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.082
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.083
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.084
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.085
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.086
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.087
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.088
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.089
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.090
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.091
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.092
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.093
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.094
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.095
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.096
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.097
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.098
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.099
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.100
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.101
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.102
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.103
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.104
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.105
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.106
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.107
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.108
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.109
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.110
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.111
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.112
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.113
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.114
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.115
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.116
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.117
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.118
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.119
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.120
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.121
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.122
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.123
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.124
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.125
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.126
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.127
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.128
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.129
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.130
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.131
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.132
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.133
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.134
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.135
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.136
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.137
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.138
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.139
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.140
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.141
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.142
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.143
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.144
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.145
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.146
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.147
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.148
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.149
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.150
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.151
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.152
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.153
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.154
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.155
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.156
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.157
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.158
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.159
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.160
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.161
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.162
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.163
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.164
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.165
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.166
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.167
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.168
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.169
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.170
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.171
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.172
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.173
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.174
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.175
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.176
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.177
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.178
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.179
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.180
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.181
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.182
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.183
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.184
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.185
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.186
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.187
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.188
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.189
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.190
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.191
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.192
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.193
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.194
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.195
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.196
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.197
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.198
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.199
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.200
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.201
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.202
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.203
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.204
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.205
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.206
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.207
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.208
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.209
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.210
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.211
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.212
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.213
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.214
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.215
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.216
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.217
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.218
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.219
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.220
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.221
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.222
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.223
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.224
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.225
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.226
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.227
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.228
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.229
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.230
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.231
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.232
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.233
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.234
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.235
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.236
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.237
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.238
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.239
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.240
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.241
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.242
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.243
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.244
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.245
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.246
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.247
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.248
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.249
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.250
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.251
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.252
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.253
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.254
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.255
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.256
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.257
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.258
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.259
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.260
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.261
                                 
                                 [GRAPHIC] [TIFF OMITTED] T26611.262
                                 
                                  <all>

</pre></body></html>
